<html>
<title> - ENSURING STUDENT CYBER SAFETY</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                            ENSURING STUDENT
                              CYBER SAFETY

=======================================================================

                                HEARING

                               before the

                        SUBCOMMITTEE ON HEALTHY
                        FAMILIES AND COMMUNITIES

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, JUNE 24, 2010

                               __________

                           Serial No. 111-69

                               __________

      Printed for the use of the Committee on Education and Labor


                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html



                  U.S. GOVERNMENT PRINTING OFFICE
56-926                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="96f1e6f9d6f5e3e5e2fef3fae6b8f5f9fbb8">[email&#160;protected]</a>  

                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       John Kline, Minnesota,
    Chairman                           Senior Republican Member
Donald M. Payne, New Jersey          Thomas E. Petri, Wisconsin
Robert E. Andrews, New Jersey        Howard P. ``Buck'' McKeon, 
Robert C. ``Bobby'' Scott, Virginia      California
Lynn C. Woolsey, California          Peter Hoekstra, Michigan
Ruben Hinojosa, Texas                Michael N. Castle, Delaware
Carolyn McCarthy, New York           Vernon J. Ehlers, Michigan
John F. Tierney, Massachusetts       Judy Biggert, Illinois
Dennis J. Kucinich, Ohio             Todd Russell Platts, Pennsylvania
David Wu, Oregon                     Joe Wilson, South Carolina
Rush D. Holt, New Jersey             Cathy McMorris Rodgers, Washington
Susan A. Davis, California           Tom Price, Georgia
Raul M. Grijalva, Arizona            Rob Bishop, Utah
Timothy H. Bishop, New York          Brett Guthrie, Kentucky
Joe Sestak, Pennsylvania             Bill Cassidy, Louisiana
David Loebsack, Iowa                 Tom McClintock, California
Mazie Hirono, Hawaii                 Duncan Hunter, California
Jason Altmire, Pennsylvania          David P. Roe, Tennessee
Phil Hare, Illinois                  Glenn Thompson, Pennsylvania
Yvette D. Clarke, New York           [Vacant]
Joe Courtney, Connecticut
Carol Shea-Porter, New Hampshire
Marcia L. Fudge, Ohio
Jared Polis, Colorado
Paul Tonko, New York
Pedro R. Pierluisi, Puerto Rico
Gregorio Kilili Camacho Sablan,
    Northern Mariana Islands
Dina Titus, Nevada
Judy Chu, California

                     Mark Zuckerman, Staff Director
                 Barrett Karr, Minority Staff Director
                                 ------                                

            SUBCOMMITTEE ON HEALTHY FAMILIES AND COMMUNITIES

                 CAROLYN McCARTHY, New York, Chairwoman

Yvette D. Clarke, New York           Todd Russell Platts, Pennsylvania,
Robert C. ``Bobby'' Scott, Virginia    Ranking Minority Member
Carol Shea-Porter, New Hampshire     Howard P. ``Buck'' McKeon, 
Paul Tonko, New York                     California
Jared Polis, Colorado                Brett Guthrie, Kentucky
George Miller, California            David P. Roe, Tennessee
Judy Chu, California                 Glenn Thompson, Pennsylvania



                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on June 24, 2010....................................     1

Statement of Members:
    McCarthy, Hon. Carolyn, Chairwoman, Subcommittee on Healthy 
      Families and Communities...................................     1
        Prepared statement of....................................     3
        Additional submission: Willard, Nancy, M.S., J.D., 
          director, Center for Safe and Responsible Internet Use, 
          prepared statement of..................................    61
    Platts, Hon. Todd Russell, Senior Republican Member, 
      Subcommittee on Healthy Families and Communities...........     3
        Prepared statement of....................................     4

Statement of Witnesses:
    Aftab, Parry, Esq., the Kids Internet lawyer, author, and 
      child protection and cybersafety advocate..................    28
        Prepared statement of....................................    30
    Finnegan, Dave, chief technology bear, Build-A-Bear Workshop, 
      Inc........................................................    43
        Prepared statement of....................................    45
    McGraw, Phillip C., Ph.D., syndicated daytime television talk 
      show host and best-selling author..........................     6
        Prepared statement of....................................     8
    Napolitano, Dominique, on behalf of Girl Scouts of the USA...    11
        Prepared statement of....................................    13
    Paris, Barbara-Jane ``BJ,'' board of directors, National 
      Association of Secondary School Principals.................    22
        Prepared statement of....................................    24
    Srabstein, Jorge C., M.D., medical director, clinic for 
      health problems related to bullying, Children's National 
      Medical Center.............................................    15
        Prepared statement of....................................    17


                     ENSURING STUDENT CYBER SAFETY

                              ----------                              


                        Thursday, June 24, 2010

                     U.S. House of Representatives

            Subcommittee on Healthy Families and Communities

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to call, at 10:05 a.m., in 
room 2175, Rayburn House Office Building, Hon. Carolyn McCarthy 
[chairwoman of the subcommittee] presiding.
    Present: Representatives McCarthy, Clarke, Scott, Shea-
Porter, Platts, Guthrie, and Thompson.
    Staff Present: Andra Belknap, Press Assistant; Calla Brown, 
Staff Assistant, Education; Daniel Brown, Staff Assistant; Jose 
Garza, Deputy General Counsel; David Hartzler, Systems 
Administrator; Liz Hollis, Special Assistant to Staff Director/
Deputy Staff Alex Nock, Deputy Staff Director; Director; 
Alexandria Ruiz, Administrative Assistant to Director of 
Education Policy; Melissa Salmanowitz, Press Secretary; Dray 
Thorne, Senior Systems Administrator; Bryce McKibben Staff 
Assistant, Education; Sadie Marshall, Chief Clerk; Kim Zarish-
Becknell, Education Counsel, Subcommittee on Healthy Families 
and Communities; Mark Zuckerman, Staff Director; Stephanie 
Arras, Minority Legislative Assistant; Kirk Boyle, Minority 
General Counsel; Barrett Karr, Minority Staff Director; Brian 
Newell, Minority Press Secretary; Susan Ross, Minority Director 
of Education and Human Services Policy; Mandy Schaumburg, 
Minority Education Policy Counsel; and Linda Stevens, Minority 
Chief Clerk/Assistant to the General Counsel.
    Chairwoman McCarthy. A quorum for taking testimony must be 
present by House and committee rule, two members constitute a 
quorum for this purpose. No bipartisan requirement, two members 
of the same party will suffice. A quorum is present for the 
hearing for the House Committee on Education and Labor, 
Subcommittee on Healthy Families and Communities on Ensuring 
Student Cyber Safety will come to order.
    Before we begin, I would like to take a moment to make sure 
that everybody has their BlackBerrys, their cell phones, put 
them on silent or turn them off, appreciate that.
    Before we begin, without objection, the subcommittee is 
joined today by our colleague, Representative Judy Biggert, who 
will be here soon to participate in the hearing and to ask 
questions.
    I now recognize myself, followed by the Healthy Families 
and Communities ranking member, Todd Platts. I would like to 
welcome our witnesses to this hearing on ensuring student cyber 
safety. As a nurse for over 30 years, I have seen firsthand the 
damage and the loss families can experience from bullying. The 
emerging world of cyber-bullying is taking a toll on our 
students in ways we couldn't even imagine just a few years ago. 
Traditional acts of bullying extend beyond the halls of our 
school buildings and have found a new home on the Internet. 
Through this hearing we will explore areas of concern related 
to cyber-bullying and how it is compounded by additional forms 
of bullying.
    While the overwhelming number of our students are safe, it 
is a parent's worse nightmare to learn that their child has 
become a victim of crime or other incident. Acts of bullying 
can quickly escalate into cyber-bullying which, as we know, is 
far reaching and can lead to outbreaks of violence.
    According to a February 2010 Pew report, 73 percent, 73 
percent of wired American teens now use social networking Web 
sites. A significant increase from previous surveys.
    Another recent Pew report found that daily text messaging 
among American teens has shot up in the past year and a half. 
Thirty-eight percent in February of 2008 to 54 percent in 
September 2009. It is not just frequency, teens are sending 
enormous quantities of text messaging every single day. Half of 
our teens send 50 or more text messages a day, and 1 in 3 more 
send more than 100 text messages a day.
    For a parent, knowing your child has been a victim of any 
form of bullying can be heartbreaking. So too can learning that 
your child is a bully.
    These days, cyber-bullying can have dire consequences, the 
emotional and physical impacts to cyber-bullying have become 
more severe than ever, and we need to be proactive in dealing 
with this serious problem. Students cannot learn and teachers 
cannot teach in environments that are unsafe and frightening. 
Students ought to be able to focus on learning and gaining the 
tools they need to succeed in life, not worrying about physical 
or emotional violence.
    Another theme that I think is important that you will hear 
running throughout this hearing is that effective cyber safety 
efforts must include coordination between all interested 
parties, especially the students. The students know what is 
happening to them and to their peers and often way before 
adults do. They are critical partners in any cyber safety 
efforts. I look forward to hearing ideas on this. Students' 
cyber safety is necessary for a successful academic career.
    We cannot legislate morality, nor insist on kindness and we 
cannot criminalize meanness. Awareness and education hold the 
key to any solution. As the committee continues our work on 
reauthorizing the Elementary and Secondary Education Act we 
must give serious consideration to the testimony before us 
today and determine how Congress can best move forward to 
prevent further tragedies.
    I want to thank you all for being here, and I look forward 
to your testimony. I now recognize the distinguished ranking 
member of the Healthy Families and Communities Subcommittee, 
Mr. Platts, for his opening statement.
    [The statement of Mrs. McCarthy follows:]

 Prepared Statement of Hon. Carolyn McCarthy, Chairwoman, Subcommittee 
                  on Healthy Families and Communities

    I'd like to welcome our witnesses to this hearing on ensuring 
student cyber safety.
    As a nurse for over 30 years, I have seen firsthand the damage and 
loss families can experience from bullying.
    The emerging world of cyber bullying is taking a toll on our 
students in ways we didn't imagine just a few years ago.
    Traditional acts of bullying extend beyond the halls of our school 
buildings and have found a new home on the internet.
    Through this hearing we will explore areas of concern related to 
cyber bullying and how it is intertwined with and compounded by 
traditional forms of bullying.
    While the overwhelming number of students are safe, it is a 
parent's worst nightmare to learn their child has become the victim of 
a crime or other incident.
    Acts of bullying can quickly escalate into cyber bullying which, as 
we know is far reaching and can lead to outbreaks of violence.
    According to a February 2010 PEW report, 73% of wired American 
teens now use social networking websites, a significant increase from 
previous surveys.
    Another recent PEW report found that daily text messaging among 
American teens has shot up in the past year and a half, from 38% in 
February of 2008 to 54% in September 2009.
    And it's not just frequency--teens are sending enormous quantities 
of text messages a day.
    Half of teens send 50 or more text messages a day, and one in three 
send more than one hundred texts a day.
    As a parent, knowing your child has been the victim of any form of 
bullying can be heartbreaking, so too can learning that your child is a 
bully.
    These days, cyber bullying can have dire consequences.
    The emotional and physical impacts of cyber bullying have become 
more severe than ever and we need to be proactive in dealing with this 
serious problem.
    Students cannot learn and teachers cannot teach in environments 
that are unsafe and frightening.
    Students ought to be able to focus on learning and gaining the 
tools they need to succeed in life, not worrying about physical or 
emotional violence.
    Another theme that I think is important and that you will hear 
running through this hearing is that effective cyber safety efforts 
must include coordination between all interested parties, especially 
the students.
    The students know what's happening to them and to their peers, and 
often before adults do.
    They are critical partners in any cyber safety efforts and I look 
forward to hearing ideas on this.
    Student cyber safety is necessary for a successful academic career.
    We cannot legislate morality, nor insist on kindness, and we cannot 
criminalize meanness.
    Awareness and education hold the key to any solution.
    As the Committee continues our work on reauthorizing ESEA, we must 
give serious consideration to the testimony we have heard today and 
determine how Congress can best move forward to prevent further 
tragedies.
    Thank you all for being here and I look forward to your testimony.
                                 ______
                                 
    Mr. Platts. Thank you, Madam Chair. Good morning and 
welcome to our witnesses and all of our guests here today. 
Today we join together to discuss the important issue of cyber 
safety issue related to our Nation's children. As a parent of 
two school age children, and I am delighted to have my soon to 
be 6th grader middle schooler, my son Tom just 11 this spring, 
with me. He will keep me in line if I misbehave, I think. But 
as a parent of two school age children, the issue of cyber-
bullying is very troubling and certainly very personal as a 
parent. With the growth of technology that has included social 
networking sites, instant messaging, and texts and picture 
messaging on cell phones, bullying is no longer combined to 
brick and mortar classrooms or school playgrounds or after-
school bus rides. With children growing dependence on computer 
technology and other forms of technology, it is ever important 
that we address the changing face of bullying one often 
anonymous.
    Given how rapidly technology changes, the frequency of 
cyber-bullying is not easily determined. However, certain 
studies have shown that up to 53 percent of kids are victims of 
cyber-bullying, and up to 23 percent of children have committed 
a bullying act through the use of technology.
    Most importantly, as parents, we must make it our priority 
to be cognizant of what our children are doing on line and to 
equip them with the proper tools to identify, report and 
effectively react to instances of cyber-bullying.
    The most severe cases, such as Vermont teenager Ryan 
Patrick Halligan, who committed suicide as a result of 
persistent abuse on line by classmates who questioned his 
sexuality, and 15-year-old Phoebe Prince, who earlier this year 
also took her own life after relentless bullying about her 
peers are heart wrenching reminders of why our Nation must 
become better educated on cyber-bullying and better prepared, 
or helping our children become better prepared with this issue.
    Fortunately, action is being taken nationwide by school 
administrators, teachers, parents, students, non profit 
organizations and the technology industry itself, all are 
working on developing both innovative and practical approaches 
to identify, prevent and curb the prevalence of cyber-bullying. 
As such, I very much look forward to the testimony of all of 
our witnesses.
    I want to especially pay tribute to our Girl Scout 
Dominique, we are delighted to have you here to have 
representing the Scouting program and your peer group, because 
it is your peers that we are trying to do right by and those to 
come. So again, we appreciate all of you being here and being 
part of this hearing. With that, I yield back, Madam Chair.
    [The statement of Mr. Platts follows:]

   Prepared Statement of Hon. Todd Russell Platts, Ranking Minority 
        Member, Subcommittee on Healthy Families and Communities

    Good morning. Welcome to our hearing. Today we have joined to 
discuss the important issue of cyber safety related to our Nation's 
children.
    As a parent of two school-age children, the issue of cyber bullying 
is one that is both troubling and personal. With the growth of 
technology that has included social networking sites, instant 
messaging, and text and picture messaging on cell phones, bullying is 
not longer confined to brick and mortar classrooms and afterschool bus 
rides. With children's growing dependence on computer technology, it is 
ever important that we address the changing face of bullying--one that 
is often anonymous.
    Given how rapidly technology changes, its frequency is hard to 
determine. However, certain have studies have shown that up to fifty-
three percent of kids are victims of cyber bullying, and up to twenty-
three percent of children have committed a bullying act through the use 
of technology.
    Most importantly, as parents, we must make it our priority to be 
cognizant of what our children are doing online and equip them with 
proper tools to identify, report, and effectively react to instances of 
cyber bullying.
    The most sever cases, like Vermont teenager Ryan Patrick Halligan, 
who committed suicide as a result of persistent abuse online by 
classmates who questioned his sexuality, and fifteen-year old Phoebe 
Prince who earlier this year also took her own life after relentless 
bullying by her peers are heart wrenching reminders of why our Nation 
must become educated on cyber bullying.
    Fortunately, action is being taken nationwide by school 
administrators, teachers, parents, students, nonprofit organizations, 
and the technology industry itself. All are working on developing both 
innovative and practical approaches to identify, prevent and curb the 
prevalence of cyber bullying. As such, I very much look forward to 
hearing the testimony from our esteemed witnesses today. Thank you 
Chairwoman McCarthy, and I yield back.
                                 ______
                                 
    Chairwoman McCarthy. Thank you, Mr. Platts and thank you 
for your opening statement.
    Pursuant to committee rule 12(a), any member may submit an 
opening statement in writing at this time which will be made 
part of the permanent record. Without objection, all members 
will have 14 days to submit additional materials of questions 
for the hearing record.
    I want to just explain the lighting system that we have in 
front of you. When you start speaking, you will see a green 
light that basically gives you 5 minutes. You will see a yellow 
light, that is kind of a warning. We don't cut people off in 
the middle of their statements or anything like that and to be 
very honest with you, I am probably more of a lenient chairman 
because you all have come from all over the country and we 
appreciate what you are hearing--what we will be hearing. So 
when I give a little tap, if you could finish your statement 
up, I would appreciate it.
    Our first witness is Dr. Phil C. McGraw, someone who we all 
know as simply Dr. Phil. Dr. Phil is the host of the Dr. Phil 
Show and is the best selling author with six of his books going 
to number 1 on the New York Times best seller list. Dr. Phil 
holds a PA from Midwestern State University and an MA and Ph.D. 
in clinical psychology from North Texas State University, with 
a dual area of emphasis in clinical and behavioral medicine.
    On his syndicated show, he has focused on the issue of 
cyber-bullying numerous times and has been called upon by the 
media as an expert voice, raising public awareness on this 
issue. I welcome you, Dr. Phil, and thank you for gracing us 
with your testimony.
    On our second witness is Ms. Dominique Napolitano--I have 
learning disabilities by the way, just so people know that and 
I'm not ashamed to say that I have that because I know a lot of 
young people have it and I think they should be encouraged to 
do what they can anyhow. Dominique is a rising junior at St. 
John the Baptist High School and was among a core group of Girl 
Scouts who helped develop Let Me Know, LMK, a leading on line 
safety Web site developed by Girl Scouts in cooperation with 
Microsoft Windows division. The site is unique because it is 
designed to cover such topics as cyber-bullying, on-line sexual 
predators, cyber security from the perspective of young people. 
Welcome, and I want to thank the Girl Scouts of America for 
leading us to you. And I thank the Girl Scouts of America for 
the work that they have done over the years on addressing 
cyber-bullying for their young ladies.
    Our third witness is Dr. Jorge Srabstein, he is a child 
psychiatrist, at Children's Hospital in Washington, D.C. At 
Children's Hospital, he is the medical director of the clinic 
for health problems related to bullying. He is an emeritus 
fellow of the American Academy of Child and Adolescent 
Psychiatry and the American Academy of Pediatrics, and a 
distinguished fellow of the American Psychiatric Association 
and clinical associate professor of psychiatry at George 
Washington University School of Medicine. Welcome, Doctor.
    Our next witness who came all the way from London this 
morning is Barbara Paris, principal of Canyon Vista Middle 
School in Austin, Texas. Ms. Paris has been in public education 
for 30 years. Educated both in Europe and the U.S., she has 
been served as a teacher in grades pre K through 12, and as a 
principal at the secondary level. Currently serving as the past 
president of the Texas Association of Secondary School 
Principals, Ms. Paris has recently taken up office on the Board 
of Directors of the National Association of Secondary School 
Principals.
    Our next witness is Ms. Parry Aftab, executive director of 
WiredSafety. She is an attorney who has represented many of the 
entertainment, Internet and consumer industry. She recently 
founded Wire Trust, a risk management consulting firm to advise 
industry and policymakers and an award winning columnist for 
Information Week Magazine.
    Finally, we will hear from David Finnegan, welcome, the 
``Chief Information and Logistics Bear'' of Build-A-Bear 
Workshop. Mr. Finnegan joined Build-A-Bear Workshop in December 
1999 and we will hear from him the efforts of Build A Bear to 
educate kids and parents about cyber-bullying using a multiple 
of media for parents that may or may not be Internet savvy.
    I want to welcome all of our witnesses, and again, I thank 
you for the time that you have taken out of your busy lives so 
with that, Dr. Phil.

  STATEMENT OF DR. PHIL MCGRAW, SYNDICATED DAYTIME TELEVISION 
             TALK SHOW HOST AND BEST-SELLING AUTHOR

    Mr. McGraw. Thank you. Madam Chairwoman McCarthy, Ranking 
Member Platts, members of the committee, I am really honored--
--
    Chairwoman McCarthy. Um--yes.
    Mr. McGraw. Am I on now?
    Madam Chairwoman McCarthy, Ranking Member Platts, Members 
of the subcommittee I am really honored and delighted to speak 
about this because it is something that I am very passionate 
about, and I really hope that we will have cyber-bullying 
language added to the Elementary and Secondary Education Act.
    The times they are a changing, as we say in the south. When 
I grew up as a boy, all of our fantasies were about the Wild 
Wild West and everybody running around and gun slingers 
everywhere with no law west of the Pecos. Now we are dealing 
with the wild, wild Web. And the gun slingers are keyboard 
bullies. They are these people that can, with anonymity, attack 
other students in a way that can completely destroy their 
reputations. And it is something that has changed and we have 
to change with it.
    In the past, you know, the bully had size, they had words, 
they could intimidate someone at school, but as Representative 
Platts comments with MySpace and Facebook, e-mails, chat rooms, 
there are so many of these things with so much power that they 
constitute Weapons of Mass Destruction when it comes to 
communication with these kids. And the problem is the bullies 
are anonymous now. So you get even more aggression from them 
because they don't have to look their target in the eye. And 
this wild, wild Web is completely unbridled. There is no 
checks, there is no balances, there is no accountability. Even 
if they are caught, there are little consequences.
    And when I grew up, I suspect when a lot of you grew up, 
bullying took place by people writing on the bathroom wall or 
snickering behind somebody's back. And even then you could move 
schools if necessary. Somebody could say I just don't want to 
put up with this anymore, I am going to move schools. You can't 
do that now. Even if you leave, the bullies and you go to 
another school, all they have to do is Google that person's 
name and here it comes again.
    If there was a rumor she stuffed her bra in the 5th grade 
or somebody wet their pants at lunch, something that happened 
that really was humiliating and embarrassing, they pick it up 
at the new school and here we go again. They photoshop pictures 
in humiliating poses, ways that can just be so traumatic to a 
child. And believe me, it is impossible to unring the cyber 
bell, you just cannot unring that bell. Once it is out there, 
it is out there. And children that have been impacted by cyber-
bullying are 1.9 times more likely to attempt suicide than the 
general population. We have seen it. Phoebe Prince, Alexis 
Pilkington, Megan Meier, on and on.
    I get tens of thousands of letters at the Dr. Phil Show of 
kids asking for help about this. It is a serious crisis. Forty-
two percent of kids say they have been bullied on the Internet. 
Thirty-five percent say they have actually been threatened. And 
it is more for minorities, gays, and particularly girls. This 
is an epidemic and the problem is there is no place to hide. 
You know, used to, at least when the child got home, they would 
be around people who loved and care about them and they would 
be safe at home.
    Now that bully can silently come inside the home. You think 
your child is back doing their homework, but on their desktop 
or their laptop they are getting bombarded by these people that 
are saying ugly things about them, telling them they wish they 
would kill themselves and they are going to beat them up the 
next day. Isolation is the number 1 tool of an abuser. And you 
can never be more isolated than when someone is cyber-bullying 
you and you alone with that screen are looking at everything 
that is being said.
    Children won't talk to their parents about this, they feel 
shame and embarrassment. They don't want to tell mom and dad, 
hey, people don't like me so parents don't necessarily know it. 
Eighty-five percent of the time this goes completely unabated 
because there is no official crime. We have to give educators, 
administrators, teachers the tools that they need to prevent 
this, to intervene once it happens, to break the pattern and 
both the bullies and of the targets need counseling.
    The bullies don't understand the gravity of what they are 
doing, they just simply don't get that. So we have to help them 
understand, develop empathy to realize when I do this, it is 
destroying someone's life.
    I see so many people in their 20s, 30s and 40s that were 
bullied, it still affects them. It affects the way they parent 
their children, it leaves scars that run deep. It may end in 
the 7th grade, but the residual is there for the rest of their 
life. And I really hope we add language to address cyber-
bullying to the Elementary and Secondary Education Act because 
teachers in particular are dedicated professionals. Look, you 
don't go into teaching for the money, you go into teaching 
because you care.
    You go into teaching because you want to impact young 
people's lives. We need to give them the tools to do that, and 
I am so proud that the committees starting what I think is a 
long overdue dialogue about this, so we can give them the tools 
that they need. And frankly, all of us adults aren't nearly as 
literate on the computer as our kids are. We need to close that 
information gap. We need to Google our children's names. We 
need to know where their name pops up, who is talking to them, 
what they are saying and how they are doing it.
    I am so convinced that by putting this language in the 
Elementary and Secondary Education Act, we can raise the 
awareness and give these people the tools to bring this about. 
And I want to tell you that I am going to continue to focus on 
this on my platform, and I invite everyone in the media to use 
their platform to raise awareness about this, to educate 
parents about this and put them on alert. So I commend you all 
for taking the time to do this. Thank you very much.
    Chairwoman McCarthy. Thank you very much.
    [The statement of Mr. McGraw follows:]

  Prepared Statement of Phillip C. McGraw, Ph.D., Syndicated Daytime 
           Television Talk Show Host and Best-Selling Author

    Good morning.
    Madam Chairwoman McCarthy, members of the Committee I am honored to 
speak to you about Cyber-bullying which I pray will be added to the 
Elementary and Secondary Education Act.
    The ``times they are a changing''. As a boy growing up in Texas and 
Oklahoma, our fantasies were inspired by tales of the Wild Wild West. 
It was indeed a wild era when there literally was ``no law west of the 
Pecos''--when gunslingers like Black Bart and Billy the Kid freely 
roamed the countryside, terrorizing law abiding citizens. They were 
unchecked and unaccountable, the bullies of a time gone by.
    My personal heroes were not the villains, but the marshals! The 
guys in the white hats--men like Matt Dillon and Pat Garrison who did 
what they could to stop the outlaws' random, brutal attacks on innocent 
victims.
    Today, we have a new frontier--a new ``Wild Wild West''. It's 
called the ``Wild Wild Web'', and it can be a very dangerous place, 
especially for our children. The gunslingers of the Wild Wild Web are 
what are called cyber-bullies or Keyboard Bullies--omnipresent, 
electronic stalkers who can and do go after their targets day and 
night, destroying their reputations if not their lives, and then 
logging off their computers and riding away.
    In the past a bully had physical size and words. Now the cyber-
bully has Facebook, MySpace, Email, Texting, Web Postings, Blocked 
calling via the Internet, Instant Messaging, and chat rooms. Each has 
so much power and affect so many that they represent the Weapons of 
Mass Destruction of human communication for students! When students are 
sitting in class most of them at the junior high or middle school level 
will have cell phones with text capability. While a teacher may be 
lecturing about English literature or supervising a test, several 
students in the class will be texting each other and their friends. 
There will be cyber-bullies at work during this time causing clear and 
unknown danger to those very students in class. It is an epidemic in 
which it is easy to be a bully because a bully remains anonymous.
    Like the old west, the Wild Wild Web is completely unbridled--with 
no checks, no balances, no accountability and no liability. There are 
seldom if ever, consequences for cyber-bullies' actions and little 
punishment even if they are identified--which is not an easy task. We 
need a new group of marshals, men and women in white hats, to once 
again keep our kids safe.
    Let me try to capture the scope of this crisis. When I grew up--
when most of you on the panel grew up--there were few if any home 
computers, few if any cell phones, certainly no texting, no Facebook or 
MySpace. Bullying was limited to school playgrounds and lunch rooms. 
Insults were scrawled on a bathroom wall.
    But in 2010, the havoc caused by cyber-bullies is exponentially 
greater than whatever used to happen on a playground or was written on 
a bathroom wall. Today, through the cloak of anonymity, a cyber-bully 
can hack into a student's Facebook page, access their Twitter account, 
alter their My Space page or steal their email accounts. A cyber-bully 
can post changes to a Facebook page, making it appear the owner of the 
Facebook page has a sexually transmitted disease. A cyber-bully can 
create fake photos of an unsuspecting teenager in what appears to be a 
very sexually humiliating situation. A cyber-bully can invent 
shockingly embarrassing emails from one child and have them sent to 
someone else. By using dozens of false identities on social networking 
sites, a cyber-bully also can make his victim feel that legions of 
other kids despise him or her as well.
    In a matter of seconds, a cyber-bully can completely destroy a 
fragile adolescent's reputation. While a bully's rumors in the 1980s 
might have reached twenty people, a cyber-bully's rumors will reach 
millions. While whatever was written on that wall in the old days could 
be erased, the Internet and all of its social networking sites can not. 
It is impossible to un-ring the ``cyber-bell.'' Drs. Patchin and 
Hinduja found that all forms of bullying lead to increases in suicidal 
thoughts and victims of cyber-bullying were 1.9 times more likely to 
actually attempt suicide than non victims.
    Members of the committee, we are facing a serious crisis. According 
to one study I've read, 42% of kids say they have been bullied while 
online. 35% say they have been threatened online. The National Crime 
Prevention Council reports that at least once per week, 52% of all 
students read some sort of cyber-bullying message directed at someone 
else. Much of the abuse is directed at racial and ethnic minorities, 
gays, Hispanics--and girls are more often the target than boys.
    And what makes it worse for these victims is that there is 
absolutely no place for them to hide. Think about it. In the old days, 
kids got away from their bullies by retreating to the safety of their 
own homes. If the bullies followed them, you as parents would walk out 
the front door, take down their names, chase them away, and call their 
own parents. Not anymore. Today's child can be sitting in his own 
house, doing homework in his bedroom, reading, relaxing, or watching 
television--just being a kid. Suddenly, and relentlessly, he or she 
starts getting emails that say, ``You're ugly.'' ``No one likes you.'' 
``We are going to beat you up tomorrow.'' ``We all wish you would just 
die.'' ``No one wants you here, so why don't you just kill yourself?'' 
Even while in the company of their parents, sitting with them in the 
den, the children can be attacked via their cell phone with text 
messages. Cyber-bullies will strike at anytime, and they will follow 
their targets everywhere--not only into their homes, but from school to 
school, even across the country. In almost every case of abuse, no 
matter what kind of abuse it is, isolation is the abuser's #1 tool. The 
abuser does everything possible to make a victim feel there is nothing 
that he or she can do to escape. When it comes to cyber-abuse, there is 
especially no escape.
    I have addressed this issue on the ``Dr. Phil'' show because I have 
seen the torment it causes. Some victims suffer in silence and some 
experience symptoms of Post Traumatic Stress Disorder. Some 
decompensate and actually lose touch with reality. Their grades drop 
because they are afraid to go to school.
    Their friends disappear. Because of the shame and embarrassment 
they feel from the cyber-bullying, they often won't say anything to a 
parent or any other authority figure. They become even more 
humiliated--and yes, more isolated--as the cyber-bullying continues for 
weeks, months and even years. Eventually, some of these children become 
so distraught that they do the unthinkable. According to the Cyber-
bullying Research Center, cyber-bullying victims are almost twice as 
likely to attempt suicide compared to those who have not endured such 
bullying. You probably know about 15- year-old Phoebe Prince, the 
Massachusetts teenager who, after being harassed, mistreated and then 
cyber-bullied for three months by a group of other girls, hanged 
herself in a bedroom closet. 17-year-old Long Island teen Alexis 
Pilkington, the soccer star and daughter of a New York City police 
officer also took her own life following vicious taunts on social 
networking sites. 13-year-old Megan Meier committed suicide after 
receiving hateful messages from what she thought was a boyfriend--but 
who reportedly turned out to be the vengeful mother of a classmate.
    But there are just as many stories we are asked to help with at the 
``Dr. Phil'' show that never make the front pages--like the 11-year-old 
boy in Massachusetts who hanged himself after a group of kinds ganged 
up on him, using the Internet to spread false rumors that he was gay. 
Or the 13-year-old girl in Florida who took her own life after 
learning, to her horror, that kids at her school were posting a 
revealing photo of her on social networking sites.
    Just as shocking are the studies that show how little is done about 
what is happening. It is estimated that 85 percent of bullying today 
goes on unabated. Because cyber-abuse almost always happens off campus, 
teachers and school administrators say they have no power to intervene. 
Because no ``official crime'' has been committed, the police say there 
is nothing they can do. And, sadly, parents are almost never aware of 
what is happening.
    Times have changed the challenges we face--and we as a society have 
to change with them. We must change our sensitivities, our policies and 
our training protocols so we do not let the victims of today's 
``keyboard bullies'' fall through the cracks. That is why I am here 
today to suggest you add language to address cyber-bullying to the 
Elementary and Secondary Education Act. A cyber bully in 2010 has the 
weapons to cause pain and suffering to victims that no other generation 
has had to cope with. Cyber-bullies need to be blocked. It is time to 
lay the foundation to protect our children during those critical hours 
when we are not there to personally supervise their lives and 
interactions. This Committee has an opportunity to enact legislation to 
add language to ESEA on cyber-bullying. By doing so you, will make 
meaningful changes in the lives of millions of children and adolescents 
who instead of suffering in silence may someday become our future 
leaders.
    On the ``Dr. Phil'' show, we have taken the lead in dealing with 
cyber-bullying through intervention, education and prevention. These 
three principles must be kept in mind if we truly desire a meaningful 
outcome to stop the emotional carnage created by this ubiquitous 
problem. It is important for school officials to think comprehensively 
about how to address cyber safety and early prevention, how to address 
incidents that occur, and how to handle ongoing chronic situations. We 
can address the problem through our website with resources for parents 
and students dealing with cyber-bullying.
    I am glad the subcommittee is holding today's hearing because I 
believe it begins a long-overdue conversation about what cyber-bullying 
is doing to us. I have been saying, over and over, that we have got to 
start talking openly about this issue. The worst thing parents can do 
is to shrug and stay out of their kids' on-line life, thinking that 
some texting or social network posting can't really be all that 
serious. They need to ask their children directly if they have ever 
been ridiculed, intimidated or humiliated on the Internet. They need to 
let their children know that they do not have to feel isolated and 
alone because of any cyber-bullying that they have to endure. They need 
to assure their children that they will do everything they can to 
protect them and to fight for them.
    They also must get very involved in their children's high-tech 
lives. The fact is that most parents today are fractionally computer 
literate. They don't know what's coming across their kids' computers or 
phones. Even those who try to limit or supervise their children's time 
on line do not understand that video games now have Internet 
capability.
    If the adults in a child's life are not aware of cyber-bullying, 
the bullying will not go away. Which is why I believe that all parents 
who are not familiar with the Internet need to get familiar with the 
Internet immediately. Their own children may be their best resources. 
Here is just a sampling of what parents can do:
    <bullet> Have their children take them to the sites they frequently 
visit and to show them what they do on those sites.
    <bullet> Have their children show them what they have in their 
profiles on social networking sites to make sure it is accurate and 
appropriate.
    <bullet> Scrutinize their children's' ``friends lists'' on their 
various accounts and make sure they recognize the identity of each 
``friend.''
    <bullet> Make certain their children have never and will never 
share their passwords with anyone, even a friend, to avoid the risk of 
someone impersonating them.
    <bullet> Encourage school-aged children to change their password 
regularly.
    <bullet> Teach school-aged children to encrypt access to their 
phone and computer.
    <bullet> Have a very pointed conversation with them about 
``sexting,'' the risky practice of sending sexually explicit photos 
and/or messages which can easily be forwarded without their knowledge. 
Doing so may actually be defined as child pornography.
    <bullet> And establish a family policy for acceptable computer use.
    <bullet> List what may or may not be allowed to be done on a 
computer.
    <bullet> Include clear rules about time limits.
    <bullet> Keep the children's computer out of their bedroom and put 
it in a very public area such as a kitchen or the family room.
    At the same time, parents need to make sure that their own children 
aren't tempted to cross the line and become, even ever so briefly, 
Internet bullies themselves, secretly getting back at someone they 
believe has crossed them. As we must all remember, when it comes to 
children, just one single malicious Internet rumor can result in 
unimaginably deep emotional scars that may last a lifetime. I 
understand the plight of many families in America and realize that a 
parent may have very little time with a child or may not even be 
involved at all. We must be creative in our intervention in order to 
associate with community leaders who have influence and access to our 
children.
    Finally, we need to give school officials the tools they need to 
deal with cyber-bullying comprehensively, to address early prevention, 
early intervention when incidents arise, and chronic situations. Some 
examples of this comprehensive approach might be school officials and 
leaders in the community coordinating Public Service Announcements, 
Special School Programs, banners placed where students congregate, 
constant website postings prohibiting cyber-bullying, links from 
various websites and the thousands of additional resources we can bring 
to stop cyber-bulling. It is time for the ``Keyboard Bullies'' to know 
There is a New Sheriff in Town.
    Members of the committee, I thank you for the work you are doing. 
I've devoted countless hours of my show to cyber-bullying because I 
know it's one of the most destructive forces out there, not only for 
children, but for families as well. It is our responsibility as 
educators, lawmakers, concerned citizens and as parents to stand up 
against this growing, insidious threat. The lightning speed at which 
technology is advancing demands our response.
    Congresswoman McCarthy, Members of the committee, I thank you for 
the honor of addressing you this morning. It has been a privilege.
                                 ______
                                 
    Chairwoman McCarthy. Dominique.

 STATEMENT OF DOMINIQUE NAPOLITANO, TEEN MEMBER, GIRL SCOUTS, 
                USA'S LET ME KNOW (LMK) PROGRAM

    Ms. Napolitano. Good morning, Chairwoman McCarthy, Ranking 
Member Platts and members of the committee. My name is 
Dominique Napolitano and I am here on behalf of youth across 
the country to learn the teen's perspective on an important 
issue facing my generation, Internet safety and security, 
especially the subject of cyber-bullying. I am also here as a 
Girl Scout as a proud member of Suffolk County Troop 2217.
    As a leading girl-serving organization, Girl Scouts is 
dedicated ensuring that girls have the know-how tools and 
leadership skills they need to address life's challenges, 
including cyber-bullying.
    I would like to begin by telling a personal story about 
cyber-bullying. Although I have never been cyber-bullied nor 
have I ever cyber-bullied anyone, it still affects me and my 
peers. I know people who have been the victims of this terrible 
behavior, notably my classmate, Mary T. A sarcastic boy in my 
school created a Facebook fan club called the Mary T Fan Club 
that was expressly for the purpose of publicly humiliating her. 
A fan club is typically a group made for a whole bunch of 
people to join because they like the person, place or thing 
being expressed, such as Leonardo DiCaprio Fan Club or the 
Disney World Fan Club.
    The Mary T Fan Club, however, listed sarcastic things about 
the individual, things that would hurt a typical teenager. It 
seems unbelievable why someone would hurt anyone in such an 
emotionally devastating way where everyone from the school 
could see it. I am happy to report that this student was 
disciplined not only in school but also outside of school. His 
pranks socially backfired on him when students started joining 
it to bash him for his cowardly act. He realized how bad the 
idea was when the rest of the school agreed that his behavior 
was one of the most hurtful things you can do to another. He 
tried in vain to remove the comments and it was amazing to see 
that even people who are not friendly with Mary stood up for 
her in unbelievable ways.
    This student received in-school suspension as well as was 
suspended from the school sports team after dozens of students 
ran to the principal, campus ministry leaders and guidance 
counselors to report him. I am sure Mary will always have the 
emotional scars he left when he made the fan club, though.
    Unfortunately Mary's experience is not unique. According to 
the National Council of Juvenile Court Judges, 1 in 6 students, 
grades 6 to 10, that is 3.2 million students victims of on line 
bullying each year.
    As a girl and a Girl Scout, I realize that cyber-bullying 
is an important issue for girls. The Girl Scouts Research 
Institutes report, Girls in News Media, we learn that girls say 
the Internet allows them to treat peers more cruelly than they 
would face-to-face interaction, without having to see the 
immediate responses to their behavior. Moreover, a Girl Scouts 
research report, ``Feeling Safe,'' found out the number one 
safety concern for girls is their emotional safety.
    My experience as a Girl Scout really helped me become an 
advocate on this issue. About 1\1/2\ years ago, I was invited 
by Girl Scouts of the USA to become one of the teen editors of 
LMK. LMK which is text speak for Let Me Know, is a girl lead 
interactive Internet site created by Girl Scouts and Microsoft. 
It is a unique place where teens help parents and other teens 
find information about on line safety from a teenager's point 
of view.
    I also participated in a Girl Scouts program called, ``It 
is Your World--Change It.'' This program emphasized the need 
for healthy and respectful relationships and also helped me 
find my own strength and positively handle peer pressure.
    In closing, I would like to reinforce 2 points for your 
consideration, the first is that cyber-bullying is one of the 
largest set of behaviors called relational aggression aims to 
harm an individual's self esteem, feeling of self-worth and 
relationships with his or her peers. Girls especially are prone 
to relational aggression and cyber-bullying is just one way 
that it takes place.
    As Congress considers various policy proposals to address 
cyber safety, I hope the committee addresses relational 
aggression. Unfortunately, these issues are often ignored or 
overlooked by teachers, administrators, policymakers and even 
other kids. But the victims of relational aggression and cyber-
bullying are more likely to experience loneliness, depression, 
anxiety and poor school performance. Teachers, students, 
administrators and policymakers must take the whole spectrum of 
relational aggression, including cyber-bullying seriously. The 
second point is that youth are part of the solution.
    Through the LMK program, Girl Scouts has created one of the 
only Internet safety programs that is for kids by kids. I know 
from my experience that kids don't always think that adults 
understand their issues or get technology so we need to empower 
youth to take this problem into our own hands and find 
solutions that work for us. I feel that I have had that 
experience through Girl Scouts, my youth group and in school, 
but far too many kids don't get that chance.
    Thank you again, Chairwoman McCarthy, Congressman Platts 
and other members of the committee. I appreciate the 
opportunity to be here on behalf of America's youth and am 
happy to answer any questions you may have.
    Chairwoman McCarthy. Thank you.
    [The statement of Ms. Napolitano follows:]

        Prepared Statement of Dominique Napolitano, on Behalf of
                         Girl Scouts of the USA

    Thank you, Chairwoman McCarthy, Ranking Member Platts, and Members 
of the Committee. My name is Dominique Napolitano, and I am here on 
behalf of youth across the country to lend the teen perspective to an 
important issue affecting my generation--cyber safety. I am also here 
representing Girl Scouts of the USA, and girls across the country who 
are directly affected by this issue. I hope that my testimony will help 
you all better understand what it's like for teens today, and also 
highlight how this issue affects girls.
A tale of cyberbullying
    ``An intimidating boy at my school created a Facebook ``fan club'' 
called the ``Mary T. Fan Club'' that was created expressly for the 
purpose of publically humiliating my classmate Mary. The ``Mary T. fan 
club'' made sarcastic comments about Mary's body, hair and personality, 
and encouraged her peers to make fun of Mary.
    I'm happy to report that this student was not only disciplined in 
school, but also outside of school. His prank socially backfired on him 
when students started joining the fan club and began standing up for 
Mary. He realized how bad this idea was when the rest of the school 
agreed that his behavior was one of the most hurtful things to do to 
another person. It was amazing to see that even people who are not 
friendly with Mary stood up for her in unbelievable ways. That said, 
this bully continues to poke fun of her behind her back. I'm sure Mary 
will always have the emotional scars he left when he made the fan 
club.''
Cyberbullying, relational aggression and related cyber threats
    Mary's story is only one example of the challenges that many youth 
face today in cyberspace. In more heartbreaking cases, we hear stories 
of Megan Meier, Phoebe Prince, and Alexis Pilkington, each of whom 
ended her life after unrelenting bullying, including cyberbullying. A 
common theme in each of these cases, is that these girls were not the 
victims of physical violence, but were instead the subjects of a form 
of emotional and social bullying called relational aggression (RA).
    Relational aggression encompasses behaviors that harm someone by 
damaging, threatening, or manipulating her relationship with her peers, 
or by injuring a girl's feeling of social acceptance. Girls are more 
likely to use this subtle, indirect and emotional form of aggression 
than boys.\i\ They are also more likely to report feeling angry (56 
percent), hurt (33 percent), embarrassed (32 percent), or scared (10 
percent) after being bullied.\ii\
---------------------------------------------------------------------------
    \i\ Marion K. Underwood. Social Aggression among Girls (Guilford 
Series On Social And Emotional Development). New York: The Guilford 
Press, 2003.
    \ii\ Harris Interactive, Trends and Tudes: Cyberbullying, April 
2006.
---------------------------------------------------------------------------
    Cyberbullying is a perfect example of relational aggression. By 
using digital media such as cell phones, social networking sites, email 
and other technologies, children can frighten, embarrass, harass or 
otherwise hurt their peers anonymously, without engaging in physical 
aggression, and without seeing the immediate responses to their 
behavior. This type of behavior is also startlingly common. 
Cyberbullying starts as early as 2nd grade and peaks in 4th grade and 
then again in 7th grade. Eighty-five percent of middle school students 
polled last year said they had been cyberbullied at least once, and 70 
percent of 13-16 year olds polled said they had cyberbullied someone 
else at least once.\iii\
---------------------------------------------------------------------------
    \iii\ ``Prevent Cyberbullying Before It Starts.'' LMK: Life Online. 
Girl Scouts of the United States of America. http://lmk.girlscouts.org/
Online-Safety-Topics/Cyberbullying/Stop-Cyberbullying/Prevent-
Cyberbullying-Before-It-Starts.aspx
---------------------------------------------------------------------------
    While in most instances relational aggression or cyberbullying does 
not end in suicide, this behavior does pose a very real threat to 
children's--especially girl's--safety. In the groundbreaking original 
research report Feeling Safe, the Girl Scouts Research Institute found 
that nearly half of all girls (46 percent) defined safety as not having 
their feelings hurt; girls who face cyberbullying or the threat of 
cyberbullying do not feel safe. Moreover, girls' number one concern (32 
percent) was a fear of being teased or made fun of, and 38 percent of 
girls surveyed worry about their emotional safety when spending time 
with their peers. Girls who feel emotionally unsafe are more likely to 
feel sad, have trouble paying attention in school, get low grades, and 
have trouble making decisions.
    Because R.A. is not as overt as ``traditional'' schoolyard 
bullying, it has not received the same attention from researchers, 
educators, and parents. However, Relational Aggression is just as 
harmful as physical bullying to a student's ability to learn, grow, and 
succeed. It is imperative that we recognize cyberbullying for what it 
is--a symptom of the larger problem of relational aggression.
    Cyberspace poses a number of other threats to young girls, such as 
online sexual predators, inappropriate sharing of information, and the 
disturbing new trend of ``sexting''. One in seven boys and one in four 
girls reports meeting strangers off the internet\iv\--at clear risk to 
their own safety. Teens often misjudge ``how much is too much,'' and 
share personal information or post inappropriate pictures that will 
hurt them when applying to college or for jobs. An extreme example of 
over-the-edge behavior is the trend of ``sexting,'' or sending sexually 
explicit images or messages via cell phone. One study found that 31 
percent of young men and 36 percent of young women have sent nude or 
seminude images of themselves, and even more have sent sexually 
suggestive messages. Fifty-one percent of teen girls cite pressure from 
a guy as a reason for sexting, while only 18 percent of teen boys cite 
pressure from girls.\v\ This behavior can clearly have life-long 
consequences for a girl.
---------------------------------------------------------------------------
    \iv\ Parry Aftab. ``What can you do to protect your child from 
sexual predators online?'' http://www.wiredsafety.org/askparry/
special--reports/spr1/index.html
    \v\ Sex and Tech: Results from a Survey of Teens and Young Adults. 
The National Campaign to Prevent Teen and Unplanned Pregnancy, 2007.
---------------------------------------------------------------------------
Girl Scouts research and programming
    I am proud to be here today representing Girl Scouts of the USA. 
Girl Scouts is the world's preeminent organization for building 
leadership in girls, serving 2.5 million girl members and 900,000 adult 
members in every corner of the United States, Puerto Rico, the Virgin 
Islands and ninety-five countries worldwide.
    My experience as a Girl Scout really helped me become an advocate 
on cyberbullying. About 1.5 years ago, I was invited by Girl Scouts of 
the USA to become one of the teen editors of LMK (text-speak for Let Me 
Know). This innovative program, which was created by Girl Scouts and 
Microsoft, is a unique online safety resource designed by girls, for 
girls. At LMK, girls are the technology experts on subjects that are 
often best discussed at a teen-to-teen level, like cyberbullying, 
online predators and social networking. This girl-led campaign allows 
girls to share their online concerns with peer ``tech-perts'' about the 
issues that affect them while raising awareness about how to help keep 
girls (ages 13--17) safe while surfing the Web. In addition, parents 
have access to a site specifically geared to their needs, equipping 
them with the tools necessary to understand and act on the rapidly 
changing world of online safety. LMK offers a digital patch to Girl 
Scouts, motivating them to increase their knowledge of internet safety. 
For more information, please visit: http://lmk.girlscouts.org.
    I have also benefited from Girl Scouts new program, the Girl Scout 
Leadership Experience (GSLE). The GSLE helps girls build the leadership 
skills they need to address the challenges of daily life, including 
relational aggression, bullying and girls cyber safety. The GSLE 
engages girls in discovering themselves and their values, connecting 
with others, and taking action to make the world a better place.
    For example, when I was a cadette Girl Scout, my troop did a new 
Girl Scout Leadership Journey program called ``aMAZE: The Twists and 
Turns of Getting Along,'' where we learned about friendships, cliques 
and conflicts, bullies, and cyber-relationships. This program helped us 
recognize and combat cyberbullying and other forms of relational 
aggression, how to safely use social networking websites, and how to 
deal with online friends or acquaintances who want to meet in person. 
We signed an Internet Safety Pledge, through which we promised to not 
give out personal information online, to follow the rules of Internet 
sites, to never meet with someone they meet online without talking to a 
parent first, to set up rules with a parent for going online, to 
practice online ``netiquette,'' and more.
Policy solutions
    As Congress considers various policy proposals to address cyber 
safety, Girl Scouts stands ready to provide resources, information and 
solutions. Girl Scouts encourages Congress to take a broad, holistic 
approach, including efforts to build confidence among girls, empowering 
them to prevent cyberbullying before it starts and to stop it when they 
see it. Specifically, we encourage you to:
    <bullet> Recognize the significant threat posed by relational 
aggression and encourage schools to adopt and strengthen policies 
specifically to prevent and address relational aggression and 
cyberbullying.
    <bullet> Educate parents, teachers, administrators, and other 
school personnel in recognizing, preventing, and mitigating the effects 
of relational aggression and cyberbullying.
    <bullet> Support community-based organizations, including the Girl 
Scouts, that prevent cyberbullying and teach about cyber security, 
online privacy, online sexual predators, and the use of social 
networking sites and mobile devices.
    On behalf of Girl Scouts of the USA, and girls across the country, 
thank you, again, for your focus on this important topic.
    GSUSA's Public Policy and Advocacy Office, located in Washington, 
D.C., works in partnership with local Girl Scout councils to educate 
representatives of the legislative and executive branches of government 
and advocate for public policy issues important to girls and Girl 
Scouting.
    For further information please contact Sharon Pearce, Director of 
Public Policy at 202-659-3780 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4b2a2f3d24282a28320b2c2239273828243e3f386524392c65">[email&#160;protected]</a>
                                 ______
                                 
    Chairwoman McCarthy. Doctor.

 STATEMENT OF DR. JORGE SRABSTEIN, CHILD PSYCHIATRIST, MEDICAL 
   DIRECTOR, CLINIC FOR HEALTH PROBLEMS RELATED TO BULLYING, 
               CHILDREN'S NATIONAL MEDICAL CENTER

    Dr. Srabstein. Good morning, Chairwoman McCarthy, Ranking 
Member Platts and distinguished members of the subcommittee. 
Thank you for your leadership to ensure student cyber safety. I 
am very honored by your invitation to render testimony to 
support, raise an awareness about cyber-bullying and its 
toxicity and provide recommendations for addressing this 
important issue in the Elementary and Secondary Education 
Reauthorization Act.
    I am a child adolescent psychiatrist and pediatrician 
testifying on my behalf, and that of Children's National 
Medical Center, which provides leadership in clinical research 
and advocacy efforts to prevent health problems leading to 
bullying.
    The recent evolving understanding is that cyber-bullying is 
a very serious public health problem, prevalent around the 
world and linked to serious health problems, including suicide. 
Cyber-bullying is manifested by victimization, mistreatment or 
abuse, through electronic chronic forms of conduct from every 
day Internet and or mobile phones. It can include harassment, 
threats, insults, teasing, calling names and spreading rumors. 
Moreover, it may consist of sharing embarrassing picture or 
videos, incitement to hurt somebody, password theft, privacy 
violation, like cutting and pasting or spreading viruses.
    It has been estimated that at least 14 percent of U.S. 
adolescents in grades 6 to 10 have been electronically bullied 
in school, this doesn't count the kids who are bullied, cyber 
bullied outside this setting, at least once in the previous 2 
months. Cyber-bullying can occur in and out of school premises, 
with the identity of the perpetrator being known by at least 70 
percent of the students being victimized. Sixty percent of the 
known perpetrators are schoolmates. Ninety percent of victims 
do not report cyber-bullying to their parents because they feel 
that they need to deal with this problem by themselves and or 
they are worried that their Internet privileges may be 
curtailed. Cyber-bullying can occur simultaneously with other 
forms of mistreatment happening in schools and other community 
settings.
    Victims, perpetrators or bystanders are at significant risk 
of suffering from an array of health, safety and education of 
problems, including depression, frequent absenteeism, eating 
disorders, and above all, suicidal attempts.
    Traditionally, U.S. schools have been at the forefront of 
helping for more than 100 years, been at the forefront of 
helping to safeguard the health and safety of their students by 
contributing to the prevention and detection of public health 
hazards, such as, in the first part of the 20th century, 
communicable diseases and later on, psychosocial risk factors. 
In this context, schools are now being challenged to prevent 
the safety and health risks linked to bullying and cyber-
bullying with the support of health professionals and the full 
community.
    Since '94, State legislatures have been addressing the 
issue of school bullying. As of June 2010, 42 States have 
enacted legislation to sign to reduce or prevent bullying and 
or harassment about public school students. Half of these 
statutes include language pertaining to harassment through 
electronic communication, usually on school premises. These 
laws have a wide scope of legal coverage and jurisdiction, 
varying in the definition of bullying, the recognition of its 
link to health safety risks, and the support and strategies to 
create an infrastructure for bullying prevention.
    In order to preserve the physical and emotional well-being 
of children and adolescents living and studying in the United 
States of America, it is critical that the United States 
Congress should enact Bullying and Cyber-Bullying Prevention 
Legislation. Towards this end, we respectfully recommend that 
ESEA reauthorization address:
    Promotion of public awareness about the nature, toxicity 
and prevention of bullying and cyber-bullying;
    Development of safe schools through programs that enhance 
mutual respect, sensitivity and support of others, tolerance to 
diversity and disapproval of bullying and cyber-bullying;
    Implementation of research-based, school-wide bullying 
prevention programs for all students attending elementary and 
secondary education;
    Fostering the necessity and obligation to report incidents 
of bullying, as a conscientious community public health 
attitude, with safeguards against any threat of retaliation or 
liability for those who report, and support or guidance in 
reporting bullying, cyber-bullying incidents through a hotline;
    Monitoring and detecting ongoing bullying incidents;
    Providing school interventions through school counselors or 
nurses to protect and support students who are being bullied, 
perpetrators should be counseled or sensitized about the harm 
inflicted, while helped to develop respect, empathy, tolerance 
and sensitivity to others;
    Consideration of referral for medical evaluation and 
treatment for victims and perpetrators who experience physical 
or psychological symptoms linked to bullying.
    I want to thank the Academy of Child Adolescent Psychiatry 
for their extraordinary support in helping me to prepare this 
testimony. Thank you for the opportunity to testify, I will be 
happy to answer any questions you may have.
    Chairwoman McCarthy. Thank you.
    [The statement of Dr. Srabstein follows:]

   Prepared Statement of Jorge C. Srabstein, M.D., Medical Director, 
  Clinic for Health Problems Related to Bullying, Children's National 
                     Medical Center, Washington, DC

    Chairwoman McCarthy, Ranking Member Platts and distinguished 
members of this Subcommittee, thank you for your leadership to ensure 
students' cyber-safety. I am very honored by your invitation to render 
testimony to support raising awareness about cyber-bullying and its 
toxicity and to provide recommendations for addressing this important 
issue through the ``Elementary and Secondary Education Reauthorization 
Act (ESEA).''
    I am testifying on my behalf and that of Children's National 
Medical Center, which provides leadership in clinical, research and 
advocacy efforts to prevent health problems linked to bullying. In the 
interest of time, I will keep my remarks brief; please see my written 
testimony for more expanded remarks and further information about the 
programs with which I am involved at Children's National.
    There is an evolving understanding that cyber-bullying is a very 
serious public health problem, prevalent around the world and linked to 
serious health problems, including suicide.\5,7,10,26\ Cyber-bullying 
is manifested by victimization, mistreatment or abuse through 
electronic forms of contact, primarily the Internet and/or mobile 
phones. It can include harassment, threats, insults, teasing, calling 
names and spreading rumors. Moreover, it may consist of sharing 
embarrassing pictures or videos, incitement to hurt somebody, password 
theft, privacy violation (``cut and pasting'') or spreading viruses. 
\1,10,12,15\
    It has been estimated that 14 percent of US adolescents in grades 
6-10 have been electronically bullied in school at least once in the 
previous two months.\7\ Cyber-bullying can occur in and/or out of 
school premises, with the identity of the perpetrator being known by at 
least 70 percent of the students being victimized.\65\ Fifty percent of 
the known perpetrators are schoolmates.\65\ Ninety percent of victims 
do not report cyber-bullying to their parents because they feel that 
they need to deal with this problem by themselves and/or they worry 
that their Internet privileges may be curtailed.\65\
    Cyber-bullying can occur simultaneously with other forms of 
mistreatment happening in schools and/or other community settings.\3,7\ 
Victims, perpetrators or bystanders are at significant risk of 
suffering from an array of health, safety and educational problems, 
including depression, frequent absenteeism, eating disorders and, above 
all, suicidal attempts.\4,5,16,18,21,22,25,30,32-34,36,45,66\
    Traditionally, US schools have been at the forefront of helping to 
safeguard the health and safety of their students by contributing to 
the prevention and detection of public health hazards such as 
communicable diseases and psycho-social risk factors. In this context, 
schools are now being challenged to prevent the safety and health risks 
linked to bullying and cyber-bullying with the support of health 
professionals and the whole community.\26,49\
    Since 1994, state legislatures have been addressing the issue of 
school bullying.\45\ As of June 2010, 42 states have enacted 
legislation designed to reduce or prevent bullying and/or harassment 
among public school students.\46,47\ Half of these statutes include 
language pertaining to harassment through electronic communication.\46\ 
These laws have a wide scope of legal coverage and jurisdiction, 
varying in the definition of bullying, the recognition of its link to 
health/safety risks, and the support and strategies to create an 
infrastructure for bullying prevention.\45\
    In order to preserve the physical and emotional well-being of 
children and adolescents living and studying in the United States of 
America, it is critical that the United States Congress should enact 
Bullying and Cyber-Bullying Prevention Legislation. Towards this end, 
we respectfully recommend that ESEA reauthorization address:
    <bullet> Promotion of public awareness about the nature, toxicity 
and prevention of bullying and cyber-bullying;
    <bullet> Development of safe schools through programs that enhance 
mutual respect, sensitivity and support of others, tolerance to 
diversity and disapproval of bullying and cyber-bullying;
    <bullet> Implementation of research-based, school-wide bullying 
prevention programs for all students attending elementary and secondary 
education;
    <bullet> Fostering the necessity and obligation to report incidents 
of bullying, as a conscientious community public health attitude, with 
safeguards against any threat of retaliation or liability for those who 
report, and support or guidance in reporting bullying/cyber-bullying 
incidents through a hotline;
    <bullet> Monitoring and detecting ongoing bullying incidents;
    <bullet> Providing school intervention through school counselors or 
nurses to protect and support students who are being bullied. 
Perpetrators should be counseled or sensitized about the harm 
inflicted, while helped to develop respect, empathy, tolerance and 
sensitivity to others;
    <bullet> Consideration of referral for medical evaluation and 
treatment for victims and perpetrators who experience physical and 
psychological symptoms linked to bullying
    Thank you for the opportunity to testify. I would be happy to 
answer any questions you may have.

Background

            Cyber-bullying: Challenges to its prevention

    The evolving expansion of modern communication technologies have 
exposed young people to the risk of being mistreated in an infinite 
number of social settings, unknown to mankind until few years ago.\1-
15\ The frequent occurrence of cyber-bullying outside school premises 
as well as the occasional anonymity of cyber-perpetrators may interfere 
with strategies for its prevention. Furthermore, educational 
policymakers may encounter a delicate balance between the authority to 
establish formal discipline to a student's right of free speech and the 
responsibility of preserving student's safety.\11\
    Cyber-bullying, in spite of its unique aspects, occurs 
simultaneously with other forms of bullying, and shares with them a 
significant link to serious health problems. It is therefore important 
that strategies and policies to prevent cyber-bullying should be 
developed both within the framework of its distinct nature and its 
similarities and association with other forms of victimization or 
mistreatment.\3-5,7,8\

            Bullying-Related Public Health Risks

    Over the past few years, a series of reports have highlighted the 
serious public health and safety risks associated with bullying. 
Numerous scientific studies have shown that bullying adversely affects 
the health and development of both victims and perpetrators of the 
bullying, as well as other children in the environment.\16-35\
    There is an urgent need to address longstanding cultural 
perceptions that bullying is a normative part of child development that 
is mostly associated with modest physical pestering among children and 
adolescents. Indeed, many parents, teachers and others see bullying as 
``just a part of growing up.'' This is a dangerous and erroneous 
assumption. Instead, it is quite clear that bullying is a multi-faceted 
and toxic form of abuse, prevalent on a global scale and across the 
lifespan.\17,18\
    Bullying is a serious form of mistreatment manifested by the 
repeated exposure of one person to either physical aggression by one or 
more people, and/or being hurt with teasing, name-calling, mockery, 
threats, harassment, taunting, social exclusion or rumors. It can be 
simultaneously prevalent in different social settings, widening the 
scope of prevention efforts, beyond the school milieu. We need to be 
alerted to its occurrence in ``after-school'' programs; in the 
neighborhood; over the Internet and cellular phones; at home between 
siblings; in dating relationships; summer camps and organized athletic 
activities. In short, when tolerated, bullying takes place everywhere 
in our communities.
    The developmental link between school bullying and its occurrence 
in adulthood challenged us to extend the range of our responsibility to 
prevent bullying through college and into the workplace.\20,23,24,37\ 
It is estimated that some thirty percent of US students (higher in some 
other countries) are involved in bullying, as victims and/or bullies, 
with others being adversely affected as passive participants (witnesses 
or encouragers).\38,39\ All those involved in bullying have now been 
shown to be at significantly increased risk for multiple problems when 
compared to their uninvolved peers. Children involved in bullying 
suffer from a wide spectrum of physical and emotional symptoms, 
including depression, irritability, anxiety, sleeping difficulties, 
headaches and/or stomachaches.\16-33\ Furthermore, there is an evolving 
array of reports documenting that bullying-related illnesses 
increasingly include such serious problems as eating disorders, school 
absenteeism, running away, alcohol and drug abuse and, above all, self-
inflicted or accidental injuries and suicidal behavior.\18,19,22,29,36\
    Students who are in the dual roles of both being bullies and 
victims (victim-perpetrators) have been found to be the most vulnerable 
among those who participate in bullying and appear to experience a wide 
display of problems. They are especially at risk in attempting or 
completing suicide before age 25, as well as to committing repeated 
criminal offenses between ages 16 and twenty-five.\21,22,25\ Moreover, 
they are usually misunderstood and less protected when they are judged 
to be responsible for their victimization as they also mistreat others.
    New studies indicate that those students who are bystanders and/or 
witness episodes of bullying are also at higher risk for mental health 
problems than are their peers.\23\ Most of all, bullying is linked to 
premature mortality, due to suicide, homicide or accidental 
injuries.\26\
    The responsibility to prevent the consequences of bullying extends 
into adulthood as there is evidence of a significant association 
between childhood bullying behavior and later psychiatric illness.\24\ 
Moreover, adults bullied in the workplace are prone to suffer from a 
variety of problems, including depression, cardiovascular problems, 
fibromyalgia, absenteeism and Post-Traumatic Stress Disorder.\41-43\
    A systematic review44 of school-based interventions to prevent 
bullying has determined that ``the chance of success is greater if the 
intervention incorporates a whole school-based approach, involving 
multiple disciplines and the entire school community.''
    Preventative interventions should include whole community awareness 
campaigns about the nature of bullying and its dangers.\26,49\ Efforts 
should also be made to enhance the emotional and organizational 
environments in school settings by promoting sensitivity, mutual 
respect and tolerance to diversity while prohibiting bullying.\26,49\ 
Bullying incidents should be reported to ensure a consistent and 
organized response, including support of the victim and counseling for 
the perpetrator by sensitizing him/her to the harm they have 
inflicted.\26,49\ Referral to appropriate health services will be 
required to alleviate the physical and emotional consequences of 
bullying, as well as to help those who continue bullying behavior in 
spite of organizational counseling.\26,49\ The efficacy of this public 
health approach should be monitored by a periodic assessment of the 
prevalence of bullying-related morbidity and mortality.\26,49\

            Children's National and its anti-bullying prevention 
                    efforts
    Children's National Medical Center, a 283 bed not-for-profit 
academic medical center in Washington, DC, has provided hope to sick 
children and their families throughout the metropolitan region for 
nearly 140 years. The mission of Children's National is to improve 
health outcomes for children regionally, nationally and 
internationally; to be a leader in creating innovative solutions to 
pediatric healthcare problems; and to excel in care, advocacy, research 
and education to meet the unique needs of children, adolescents and 
their families. Children's National is ranked among the best pediatric 
hospitals in America by U.S. News & World Report and the Leapfrog 
Group. It is a Magnet recognized pediatric hospital, one of a handful 
of elite healthcare facilities nationwide.
    For the past several years, Children's National has supported 
efforts to prevent bullying and its related health risks, through 
clinical, research and advocacy activities. This work has led to the 
development of a Coalition for the Prevention of Bullying,\50\ which 
was conceived as a volunteer partnership of representatives of 
different community sectors. The main objectives of this initiative 
were to 1) promote awareness about the nature and toxicity of bullying; 
and 2) advocate for the implementation of strategies and policies for a 
whole-community approach to the prevention of bullying.
    The Clinic for Health Problems Related to Bullying\51\ at 
Children's National Medical Center provides psychiatric evaluation and 
treatment of children and adolescents who participate in bullying as 
bullies and/or victims, and who experience frequent physical and 
emotional symptoms or educational problems. The goal of this clinic is 
to provide a stabilization of impulsivity and mood difficulties that 
may lead to bullying others, as well as provide treatment for physical 
and emotional consequences of being bullied.
    In 2008, Dr. Srabstein testified\52\ before the Maryland General 
Assembly in support of House Bill 199, which added terms ``bullying'' 
and ``cyber-bullying'' into statute concerning policies to report 
harassment. The bill also required schools to establish policies for 
the prevention of bullying. The bill was enacted into law in 2008.
    In addition to his legislative advocacy, Dr. Srabstein participated 
in an ad-hoc working group providing support to the Maryland State 
Department of Education in the development of a Model Bullying 
Prevention Policy.\53\
    Children's National has supported the development of symposiums\54-
64\ and the publication of research studies\16,18,25,26,27,45,49\ to 
raise international awareness about the significant health problems 
associated with bullying along the lifespan. In a recent editorial 
published by the World Health Organization Bulletin, Drs. Srabstein\67\ 
and Leventhal\68\ have highlighted the global public health 
significance of bullying with an international call for the development 
of public health policies.\26\

                               REFERENCES

    \1\ Pew Research Center's Internet & American Life Project, 
Cyberbullying http://www.pewinternet.org/Reports/2007/
Cyberbullying.aspx?r=1 Last accessed June 18, 2010
    \2\ Pujazon-Zazik M, Park MJ. To tweet, or not to tweet: gender 
differences and potential positive and negative health outcomes of 
adolescents' social internet use. Am J Mens Health. 2010 Mar; 4(1):77-
85.
    \3\ Turner HA, Finkelhor D, Ormrod R. Poly-victimization in a 
national sample of children and youth.Am J Prev Med. 2010 
Mar;38(3):323-30.
    \4\ Mitchell KJ, Ybarra ML. Online behavior of youth who engage in 
self-harm provides clues for preventive intervention. Prev Med. 2007 
Nov; 45(5):392-6.
    \5\ Klomek AB, Marrocco F, Kleinman M et al Peer victimization, 
depression, and suicidality in adolescents. Suicide Life Threat Behav. 
2008 Apr; 38(2):166-80.
    \6\ Kowalski RM, Limber SP.Electronic bullying among middle school 
students.J Adolesc Health. 2007 Dec; 41(6 Suppl 1):S22-30.
    \7\ Wang J, Iannotti RJ, Nansel TR. School bullying among 
adolescents in the United States: physical, verbal, relational, and 
cyber. J Adolesc Health. 2009 Oct; 45(4):368-75. Epub 2009 Jun 11.
    \8\ Slonje R, Smith PK. Cyberbullying: another main type of 
bullying? Scand J Psychol. 2008 Apr; 49(2):147-54.
    \9\ Twyman K, Saylor C, Taylor LA, Comeaux C.Comparing children and 
adolescents engaged in cyberbullying to matched peers. Cyberpsychol 
Behav Soc Netw. 2010 Apr; 13(2):195-9.
    \10\ Smith PK, Mahdavi J, Carvalho M et al Cyberbullying: its 
nature and impact in secondary school pupils.J Child Psychol 
Psychiatry. 2008 Apr; 49(4):376-85.
    \11\ Willard NE. The authority and responsibility of school 
officials in responding to cyberbullying. J Adolesc Health. 2007 Dec; 
41(6 Suppl 1):S64-5.
    \12\ Dehue F, Bolman C, Vollink T. Cyberbullying: youngsters' 
experiences and parental perception. Cyberpsychol Behav. 2008 Apr; 
11(2):217-23.
    \13\ Juvonen J, Gross EF. Extending the school grounds?--Bullying 
experiences in cyberspace.J Sch Health. 2008 Sep; 78(9):496-505.
    \14\ Swartz MK. Cyberbullying: an extension of the schoolyard. J 
Pediatr Health Care. 2009 Sep-Oct; 23(5):281-2.
    \15\ Hinduja S., Patchin J. Bullying Beyond the Shoolyard. 
Preventing and Responding to Cyberbullying. 1st ed. Thousand Oaks, CA: 
Corwin Press; 2009
    \16\ Srabstein JC, McCarter RJ, Shao C, et al Morbidities 
associated with bullying behaviors in adolescents. School based study 
of American adolescents. Int J Adolesc Med Health. 2006 Oct-Dec; 
18(4):587-96.
    \17\ Schreier A, Wolke D, Thomas K, Prospective study of peer 
victimization in childhood and psychotic symptoms in a nonclinical 
population at age 12 years. Arch Gen Psychiatry. 2009 May; 66(5):527-
36.
    \18\ Srabstein J, Piazza T. Public health, safety and educational 
risks associated with bullying behaviors in American adolescents. Int J 
Adolesc Med Health. 2008 Apr-Jun; 20(2):223-33.
    \19\ Kim YS, Leventhal BL, Koh YJ, Boyce WT. Bullying increased 
suicide risk: prospective study of Korean adolescents. Arch Suicide 
Res. 2009; 13(1):15-30.
    \20\ Sourander A, Jensen P, Ronning JA, et al. Childhood bullies 
and victims and their risk of criminality in late adolescence: the 
Finnish From a Boy to a Man Study. Arch Pediatr Adolesc Med. 2007; 
161(6):546-552.
    \21\ Klomek AB, Sourander A, Niemela S et al Childhood Bullying 
Behaviors as a Risk for Suicide Attempts and Completed Suicides: A 
Population-Based Birth Cohort Study. J Am Acad Child Adolesc 
Psychiatry. 2009 Mar; 48(3):254-61.
    \22\ Rivers I, Poteat V, Noret N, Ashurst N Observing Bullying at 
School: The Mental Health Implications of Witness Status. Sch Psychol Q 
2009, Vol. 24, No. 4, 211--223
    \23\ Sourander A, Jensen P, Ronning JA et al. What is the early 
adulthood outcome of boys who bully or are bullied in childhood? The 
Finnish ``From a boy to a man'' study. Pediatrics 2007; 120(2):397-404.
    \24\ Sourander A, Jensen P, Ronning JA et al. Childhood bullies and 
victims and their risk of criminality in late adolescence: The Finnish 
``From a boy to a man'' study. Arch Pediatr Adolesc Med 2007; 
161(6):546-52.
    \25\ Srabstein J. Deaths linked to bullying and hazing. Int J 
Adolesc Med Health. 2008 Apr-Jun; 20(2):235-9.
    \26\ Srabstein, J Leventhal B Prevention of Bullying Related 
Morbidity and Mortality: A Call for Public Health Policies, Editorial, 
Bull World Health Organ 2010; 88:403. http://www.who.int/bulletin/
volumes/88/6/10-077123/en/index.html
    \27\ Srabstein J, Be Aware of Bullying: A Critical Public Health 
Responsibility, Virtual Mentor. February 2009, Volume 11, Number 2: 
173-177. http://virtualmentor.ama-assn.org/2009/02/oped1-0902.html
    \28\ Morris EB, Zhang B, Bondy SJ. Bullying and smoking: Examining 
the relationships in Ontario adolescents. J Sch Health 2006; 76(9):465-
70.
    \29\ Kim YS, Leventhal BL, Koh YJ et al. School bullying and youth 
violence: causes or consequences of psychopathologic behavior? Arch Gen 
Psychiatry 2006; 63(9):1035-41.
    \30\ Fekkes M, Pijpers FI, Fredriks AM et al. Do bullied children 
get ill, or do ill children get bullied? A prospective cohort study on 
the relationship between bullying and health-related symptoms. 
Pediatrics 2006;117(5):1568-74
    \31\ Gladstone GL, Parker GB, Malhi GS. Do bullied children become 
anxious and depressed adults?: A cross-sectional investigation of the 
correlates of bullying and anxious depression J Nerv Ment Dis. 2006; 
194(3):201-8.
    \32\ Due P, Holstein BE, Lynch J et al. Bullying and symptoms among 
school-aged children: international comparative cross sectional study 
in 28 countries. Eur J Public Health 2005; 15(2):128-32.
    \33\ Kim YS, Koh YJ, Leventhal B. School bullying and suicidal risk 
in Korean middle school students. Pediatrics 2005;115(2):357-63
    \34\ Ybarra ML. Linkages between depressive symptomatology and 
Internet harassment among young regular Internet users. Cyberpsychol 
Behav 2004;7(2):247-57
    \35\ Janssen I, Craig WM, Boyce WF,et al. Associations between 
overweight and obesity with bullying behaviors in school-aged children. 
Pediatrics 2004; 113(5):1187-94.
    \36\ Fekkes M, Pijpers FI, Verloove-Vanhorick SP. Bullying behavior 
and associations with psychosomatic complaints and depression in 
victims. J Pediatr 2004; 144(1):17-22.
    \37\ Chapell MS, Hasselman SL, Kitchin T et al. Bullying in 
elementary school, high school, and college. Adolescence 2006; 
41(164):633-48.
    \38\ Nansel TR, Overpeck M, Pilla RS et al. Bullying behaviors 
among US youth: prevalence and association with psychosocial adjustment 
JAMA 2001; 285(16):2094-100.
    \39\ Due P, Holstein BE, Soc MS. Bullying victimization among 13 to 
15-year-old school children: results from two comparative studies in 66 
countries and regions. Int J Adolesc Med Health. 2008 Apr-Jun; 
20(2):209-21.
    \40\ Kivimaki M, Virtanen M, Vartia M et al. Workplace bullying and 
the risk of cardiovascular disease and depression. Occup Environ Med 
2003; 60(10):779-83.
    \41\ Niedhammer I, David S, Degioanni S. Association between 
workplace bullying and depressive symptoms in the French working 
population. J Psychosom Res 2006; 61(2):251-9.
    \42\ Kivimaki M, Leino-Arjas P, Virtanen M et al. Work stress and 
incidence of newly diagnosed fibromyalgia: prospective cohort study. J 
Psychosom Res 2004; 57(5):417-22.
    \43\ Mikkelsen EG, Einarsen S. Relationships between exposure to 
bullying at work and psychological and psychosomatic health complaints: 
the role of state negative affectivity and generalized self-efficacy. 
Scand J Psychol 2002; 43(5):397-405.
    \44\ Vreeman RC, Carroll AE. A systematic review of school-based 
interventions to prevent bullying. Arch Pediatr Adolesc Med 2007; 
161(1):78--88.
    \45\ Srabstein JC, Berkman BE, Pyntikova E. Antibullying 
legislation: a public health perspective. J Adolesc Health 2008; 
42(1):11-20.
    \46\ National Conference of State Legislatures, Education Bill 
Tracking Database http://www.ncsl.org/IssuesResearch/Education/
EducationBillTrackingDatabase/tabid/12913/Default.aspx
    \47\ Bully Police USA http://www.bullypolice.org/
    \48\ Centers for Disease Control and Prevention, National Center 
for Chronic Disease Prevention and Health Promotion, Youth Risk 
Behavior Surveillance System http://www.cdc.gov/healthyyouth/yrbs/
index.htm
    \49\ Srabstein J, Joshi P, Due P, Wright J, Leventhal B, Merrick J, 
Kim YS, Silber T, Kumpulainen K, Menvielle E, Riibner K. Prevention of 
public health risks linked to bullying: a need for a whole community 
approach. Int J Adolesc Med Health. 2008 Apr-Jun; 20(2):185-99.
    \50\ Children's National Medical Center, Bullying Prevention, 
Advocacy http://www.childrensnational.org/advocacy/KeyIssues/
Bullying.aspx last accessed 06/21/10
    \51\ Children's National Medical Center, Clinic for Health Problems 
Related to Bullying http://www.childrensnational.org / 
DepartmentsandPrograms / default.aspx?Type=Program&Id=6089&Name = 
Clinic%20for%20Health%20Problems%20Related%20to%20Bullying last 
accessed 06/21/10
    \52\ Testimony of Children's National Medical Center presented by 
Jorge C. Srabstein, MD, Before the Maryland General Assembly, Ways and 
Means Committee, February 20, 2008 http://www.childrensnational.org/
files/PDF/advocacy/OnCapitolHill/Bullying--Testimony.pdf last accessed 
06/21/10
    \53\ Maryland's Model Policy to Address Bullying, Harassment or 
Intimidation http://www.marylandpublicschools.org / nr / rdonlyres / 
0700b064-c2b3-41fc-a6cf-d3dae4969707 / 19401 / 
modelbullyingpolicydraft102108.pdf last accessed 06/21/10
    \54\ Srabstein J, Chair and Presenter, International Symposium 
``Bullying in Children and Adolescents: Psychiatric and Public Health 
Perspectives, October 21, 2005, Toronto, Ontario, Canada
    \55\ Srabstein, J, Presenter, ``Morbidity Associated with 
Bullying'', Argentine Congress of Psychiatry, APSA, April 28, 2006, Mar 
del Plata, Argentina
    \56\ Srabstein, J, Chair and Presenter, International Symposium, 
``Bullying in the Workplace: Psychiatric and Public Health 
Perspectives'', APA Annual Meeting, Toronto, Canada, May 23 2006
    \57\ Srabstein J, Chair and Presenter, International Symposium, 
``Bullying in Children and Adolescents: Multidisciplinary and 
International Perspectives'', IACAPAP Congress, 9/11/2006, Melbourne, 
Australia
    \58\ Srabstein, J, Chairman and Presenter, Clinical perspectives 
``Bullying Behaviors and Public Health Risks: Prevention and 
Intervention'', AACAP Annual Meeting, October 26, 2006, San Diego, 
California
    \59\ Srabstein, J, Chair and Presenter, International Symposium 
``Bullying in the Workplace: Associated Health Problems'', APA Annual 
Meeting, May 22, 2007, San Diego, California
    \60\ Srabstein, J, Chair and Presenter, International Course on 
Bullying and Health Risks, ESCAP Congress, August 27, 2008, Florence, 
Italy
    \61\ Srabstein, J, Chair, ``International Institute on Bullying and 
Health Related Risks'', AACAP Annual Meeting, October 25, 2008, Boston, 
MA
    \62\ Srabstein, J, Chair and Presenter, International Symposium 
``Bullying Across the Lifespan'', APA Annual Meeting, May 6, 2008, 
Washington, DC
    \63\ Srabstein J, Workshop ``Prevention of Bullying: An Urgent 
Public Health Task'', AACAP Annual Meeting, October 31, 2008, Chicago, 
Illinois
    \64\ Srabstein, J, Presenter, School Bullying: Psychiatric and 
Physical Health Risks, and Treatment Interventions, Committee on Mental 
Health in the Schools, APA Annual Meeting, May 20, 2009, San Francisco, 
California
    \65\ Swartz MK. Cyberbullying: an extension of the schoolyard. J 
Pediatr Health Care. 2009 Sep-Oct; 23(5):281-2.
    \66\ Wang J, Iannotti RJ, Luk JW. Bullying victimization among 
underweight and overweight U.S. youth: differential associations for 
boys and girls. J Adolesc Health. 2010 Jul; 47(1):99-101.
    \67\ Jorge Srabstein, M.D., Medical Director, Clinic for Health 
Problems Related to Bullying, Children's National Medical Center http:/
/www.childrensnational.org/FindADoctor/
DoctorProfile.aspx?DoctorId=613&Name=Jorge%20Srabstein last accessed 6/
22/10
    \68\ Bennett Leventhal, M.D., Deputy Director, The Nathan S. Kline 
Institute for Psychiatric Research http://www.rfmh.org/nki/welcome/
administration.cfm last accessed 6/22/10
                                 ______
                                 
    Chairwoman McCarthy. Ms. Paris.

          STATEMENT OF BARBARA-JANE PARIS, PRINCIPAL,
                   CANYON VISTA MIDDLE SCHOOL

    Ms. Paris. Good morning. Chairwoman McCarthy, Ranking 
Member Platts, members of the committee, thank you for having 
me here today. I am currently a principal in Austin, Texas. I 
have 1,200 middle school students of whom approximately 40 
percent are minority students. I am fortunate it is a highly 
successful school, we have the highest ranking exemplary in the 
State of Texas, and we are very proud of that. However, what 
brings me here today is not something we are terribly proud of, 
cyber-bullying is one of those issues that transcends 
everything else in education. We can sit all day long and talk 
about dropout rates, standardized achievement, college 
readiness, but this particular thing transcends all of those 
things. Because if a child doesn't feel safe at school, all of 
those other issues are non starters.
    I am also here on behalf of the National Association of 
Secondary School Principals, they are the preeminent 
organization for principals and their purpose is to be a voice 
for middle and high school principals. I am also a volunteer 
for bullypolice.usa, and you will know why in a second.
    Basically I am here to be a voice to those people who can't 
be a voice for themselves, the students who are too 
disempowered by cyber-bullying and several of whom have gone on 
to commit suicide, so I am here to be a voice for them, and for 
the principals that serve them in our public schools every day.
    Our challenge, and it is yours and mine, is to protect them 
against the risks from that technology, while still protecting 
their First Amendment rights and allow them to use technology 
as a legitimate tool. And there is a preconceived notion in 
education that this is a State issue and not a Federal issue. 
But I would say to you today the same thing I tell my staff on 
a daily basis, where we put our time and our money sends a 
clear message to our community and our stakeholders about what 
we value, and we need your help at the Federal level.
    Here is how this happened, a few years ago, a high school 
principal in east Texas and I had a student come to me and tell 
me, this student is going to kill herself over cyber-bullying, 
do something, Ms. Paris. And I said, I shall. And I thought, 
what am I going to do? I was clueless, I was powerless. I was 
not a new principal, I had been in administration for several 
years, but I did not have the tools to know where to go next. 
All I could tell this child was, I will do something. If it 
hadn't been for the research of Parry Aftab, who is a fellow 
speaker here today, and she did not know I was going to say 
that. I did some research and she helped me, her work helped me 
immensely. It gave me practical tools to have the bashing sites 
shut down and moved.
    It gave me legitimate ways of working with fellow 
administrators. And then I took that work on the road because 
my mission then became I don't want another principal ever to 
have that situation in their school. It is a powerlessness and 
we need your help to take it away. What we really need is some 
backbone. We need courage. We need somebody who is behind us 
when we say, knock it off, it is not okay to behave that way in 
the culture that we have developed in our campus. We need 
backing to say that when parents come to us and say First 
Amendment right to free speech. We need your help with those 
issues.
    Here is why, it took me years and a huge amount of time to 
come up with systems to train other principals. And the truth 
is the campus administrators says it is not our focus, we are 
supposed to be instructional leaders. If we are going to have 
the time to focus on those things that we value, then we need 
systems in place that deal with issues such as cyber-bullying 
because it will suck your time dry.
    I later had a situation where the police department in 
Austin had to shut my campus down because of Internet threats 
that had been sent out on an e-mail. If you can imagine that 
disrupts the learning environment and the educational process, 
imagine how those parents felt in my community? So it is 
interfering with learning.
    What I found out was that 13 million students were being 
cyber-bullied 5 years ago in middle school, and those students 
were dying. Dr. Phil had already mentioned several, and Mr. 
Platts, you did too, you mentioned high profile cases. But what 
I found were stories about Matt Efron and Jared High and Carl 
Hoover and Kelly and Jeff. Here is something Jeff's mom told us 
in the book Bully Side. ``The bully murdered my son using the 
keyboard as his weapon, just as surely if had he crawled 
through a broken window and choked the life from him with his 
bare hands. It was a not a death that was quick and merciful. 
It was a death that was full it was slow and torturous carried 
out day after day with lies and rumors and gossip.''
    In 2008, GLSEN worked with NASSP and they found that two-
thirds of principals coast to coast are very desperate for help 
in developing professional development to deal with these 
issues. I would venture to say that 2 years later, if you were 
to go back and ask the other third, they would say put my down 
for that too.
    There is this huge disparity between knowledge and wisdom 
on the Internet. Mr. Platts, your son is sitting behind you 
now, I venture to say if he were like my child, he would 
probably text his friends a thousand times since we had been 
sitting there. It is inherent to our culture and their age 
group.
    Mr. Platts. He would like, to, but my 6th grader and 8th 
grader don't yet have their own cell phones.
    Ms. Paris. That is what you think.
    Mr. Platts. We are holding out.
    Ms. Paris. And this disparity, bear in mind, technology is 
everything that was invented after I was born and frankly that 
include the 8 track. So I don't have--I mean, that is the 
truth. I don't have that knowledge, but the point is the kids 
have the knowledge, but we are the ones with the wisdom. They 
don't have the wisdom to know how to navigate that technology 
in a safe and meaningful way in and out of a school 
environment. If we as the responsible adults in their world 
don't share that wisdom in a structured and strategic way, then 
we are letting them down, we are not going to be able to 
educate them. These kids are so desperate to belong to 
something that good kids are posing naked and sending 
photographs to their selected peer group, and we all know how 
that turns out for them, don't we?
    As a member of National Safe Schools Partnership, NASSP has 
endorsed the policy recommendations to prevent bullying and 
that is embodied in your Safe Schools Improvement Act, which 
would amend the safe and drug free school so that this work is 
eligible for Federal grants. The programs that I promote and 
have principals implement coast to coast are not funded. These 
are unfunded BJ Paris mandates. We do this because it is a good 
thing, we need your help with that.
    We have to break that code of silence. In 84 percent of 
school shootings that are related to bullying, the student told 
somebody first. We have to have systems in place that enable 
students to speak up on behalf of their peer group.
    My mother always told me don't speak unless you have 
something to add to the silence. I would like to think that 
today the stories that we share help fill the silence in a way 
that will make sure that no other names get added to the list 
that I shared with you today.
    We appreciate your time and your support and make ourselves 
available to you as a resource at any opportunity. Thank you 
for your time.
    [The statement of Ms. Paris follows:]

 Prepared Statement of Barbara-Jane ``BJ'' Paris, Board of Directors, 
          National Association of Secondary School Principals

    Chairwoman McCarthy, Ranking Member Platts, and members of the 
subcommittee, thank you for inviting me to speak on the issue of 
cyberbullying and its effect on student achievement. My name is BJ 
Paris, and I am the principal of Canyon Vista Middle School in Austin, 
TX, where I have served for 3 years. Of my 30 years in education in 
three countries, I have spent the last 10 in administration.
    Our school serves more than 1,100 students, representing more than 
20 countries, in grades 6--8. A small percentage of our students are 
eligible for free and reduced-price meals, but more than 10% are 
considered at risk. Thirty-five percent of our students are Asian/
Pacific Islander, 6% are Hispanic, and 1.7% are Black. Our scores for 
the 2008--09 school year were excellent in reading, math, social 
studies, and science, and Canyon Vista has received an exemplary rating 
by the Texas Education Agency.
    The Round Rock School District, where my school is located, covers 
approximately 110 square miles that encompass high-tech manufacturing 
and urban retail centers, suburban neighborhoods, and farms and 
ranches. Our district consists of 30 elementary schools, 9 middle 
schools, 4 high schools, a ninth-grade center, and 2 alternative 
learning centers.
    Today, I am also appearing on behalf of the National Association of 
Secondary School Principals, where I will begin a four-year term on the 
board of directors in July. In existence since 1916, NASSP is the 
preeminent organization of and national voice for middle level and high 
school principals, assistant principals, and aspiring school leaders 
from across the United States and more than 45 countries around the 
world. Our mission is to promote excellence in middle level and high 
school leadership.

NASSP
    NASSP has a long history of supporting the personalization of the 
school environment as a condition for student engagement and 
achievement. In 1996, we published Breaking Ranks: Changing an American 
Institution in which we called for sweeping change in schools. 
Recommendations from that and later Breaking Ranks publications focus 
on areas that the school principal can influence directly. NASSP 
believes that ensuring student safety is the highest priority in 
schools because no learning can take place without it. Because of these 
foundational beliefs, we have been a strong and ongoing advocate of all 
efforts to promote a safe and orderly learning environment.
    In 2000, as a direct result of these beliefs, NASSP hired Bill Bond 
to be the NASSP Specialist for School Safety. Before coming to NASSP, 
Mr. Bond served as principal of Heath High School in West Paducah, KY, 
where on December 1, 1997, incidents of bullying led to a tragic school 
shooting at the school. This shooting, along with others across the 
nation, has precipitated Bond's involvement in safe school awareness, 
and since joining NASSP, Bond has been a resource for schools and 
principals' organizations across the nation. As you well know, however, 
bullying no longer requires face-to-face interaction--the Internet and 
the ever-expanding use of electronic communications and social 
networking Web sites have taken bullying to another level. For the past 
five years, Mr. Bond and I have traveled the country working with 
school officials and other stakeholders to minimize the impact of 
cyberbullying. The school leader's persistent challenge is to protect 
students against online predators and prevent cyberbullying while 
safeguarding students' First Amendment rights and encouraging the use 
of the Internet as a legitimate educational tool. Sadly this need to 
protect students has too often resulted in avoiding the same high-tech 
tools with which students must be familiar to be competitive in the 
workplace or to succeed in postsecondary education after graduating 
from high school.
    To help meet this challenge, in 2007 the NASSP Board of Directors 
adopted a position statement on Internet safety that states that 
``Internet service providers and social networking Web sites have an 
obligation to offer their clients safeguards against predators and 
other cyber criminals.'' But this in itself is not enough; the position 
statement also encourages schools to ``formulate clear guidelines to 
protect students and teachers against cyber bullying and other criminal 
activities.''

Personal Testimony
    As a high school principal five years ago in east Texas, I had a 
student who became suicidal after a cyberbullying incident, and I had 
no idea what my responsibilities, options, limitations were to deal 
with it. I knew I could not take the easy way out and pretend it was 
not my problem because the bullying hadn't taken place on school 
property or during school hours. I vowed to find out everything I could 
about cyberbullying so that I could limit its impact on other students 
in the future. Among other things that dragged me into the 
technological world, I learned to block certain Web sites at the school 
and began looking at best practices around the country. This was how I 
first learned of the work of Parry Aftab, my fellow panelist here today 
and Bully Police USA, a watchdog organization that advocates on behalf 
of bullied children and reports on state antibullying laws. Bully 
Police USA was instrumental in providing me with strategies for 
navigating the inherent problems of cyberspace in our schools. I began 
working with the Texas affiliate as a volunteer and also became friends 
with the organization's founder, Brenda High. A year later, my first as 
a middle school principal, my campus was locked down by police because 
of threats made in an off-campus e-mail. Once again, I vowed to learn 
more and share my experience with other principals so that they would 
not find themselves feeling powerless at a critical time. More 
importantly, I hoped that by sharing what I knew were the pitfalls and 
outcomes of cyberbullying, I could educate school personnel about how 
to develop preventative systems so that they might never be faced with 
similar situations.
    I regularly speak to principals across the country about 
cyberbullying and offer recommendations for those schools and districts 
that do not currently have policies in place. I have also become an 
advocate at the state level, testifying in Austin before the state 
legislature with my students in support of legislation that would 
empower campus leaders to develop systems for dealing with 
cyberbullying in their communities and to provide professional 
development for all educators.

Research
    Cyberbullying has gained national attention with a number of high-
profile incidents in Massachusetts and Missouri. In 2006, more than 13 
million children and adolescents ages 6-17 were estimated to be victims 
of cyberbullying, with a majority of these incidents occurring at the 
middle school level. In a September 2008 column in the NASSP 
publication Principal Leadership, Ted Feinburg, the assistant executive 
director of the National Association of School Psychologists, and 
Nicole Robey, a school psychology intern, wrote that victims of 
cyberbullying ``suffer equal if not greater psychological harm because 
the hurtful information can be transmitted broadly and instantaneously 
and can be difficult to eliminate. Aggressors can remain anonymous and 
are hard to stop. Not knowing who an aggressor is can cause adolescents 
to be hypervigilant in terms of surveying their social environment, 
both cyber and real, to avoid harmful encounters. Cyberbullying also 
may be worse than face-to-face bullying because people feel shielded 
from the consequences of their actions and often do or say things 
online that they would not in person. In some cases, cyberbullying can 
lead to severe dysfunction, externalized violence, and suicide.''
    In 2008, the Gay, Lesbian and Straight Education Network (GLSEN), 
in collaboration with NASSP, published The Principal's Perspective: 
School Safety, Bullying and Harassment. The survey explored the 
perspectives of elementary and secondary public school principals on 
student bullying and harassment and on the policies, programs, and 
training that principals have instituted in their schools to address 
these issues. Some pertinent findings of the report include that:
    <bullet> Half of public school principals (49%) report that 
bullying, name calling, or harassment of students is a serious problem 
at their school
    <bullet> Bullying or harassment is a particularly prominent problem 
at the junior high or middle school level
    <bullet> Most principals speak to the perpetrator and the victim 
when incidents of harassment are reported to them, but few believe that 
the majority of bullying or harassment incidents come to their 
attention.
    One question specifically asked principals how often their students 
engage in cyberbullying or harassment--that is, bullying or harassing 
others using text messaging, e-mail, instant messaging, Web sites, 
blogs, social networking sites, and so forth. The report explains that 
``technological advances have opened up new frontiers for harassment. 
Both teachers and principals are at a disadvantage in being able to 
observe many types of cyberbullying. * * * When asked about the extent 
of this type of activity, most principals (72%) report that students at 
their school engage in cyberbullying to some extent. However few (8%) 
believe that students frequently engage in this behavior.'' Incidents 
of cyberbullying increased as students aged: ``20% of secondary school 
principals reported that their students frequently engage in 
cyberbullying compared with only 1% of elementary school principals. 
Younger principals (under 45) were also more likely to report that 
cyberbullying frequently occurs at their school (12% vs. 6% of those 45 
years or older). Also, principals of suburban schools are more likely 
to report that cyberbullying ever occurs at their schools (81%) than 
principals of urban (66%) or rural (68%) schools.''
    The report also speaks to the need for additional professional 
development to prevent bullying and harassment from occurring: 
``Bullying and harassment intervention and prevention is an area in 
which a majority of principals indicate their school currently provides 
professional development. Yet, despite this fact, principals are most 
likely to indicate that this is the non-academic area in which the 
staff at their school needs support or training, as 62% believe that 
their staff needs the most support or training in this area.''

Recommendations
    On the basis of my personal philosophy and experiences with 
cyberbullying, I offer the following recommendations to guide schools 
in developing their policies on cyberbullying to create a positive, 
supportive environment that promotes the academic growth and personal 
development of every student at the school.
    School leaders must:
    <bullet> Understand that cyberbullying is an aggressive and 
prevalent threat to the learning environment and that even if it did 
not happen at school or on a school computer, it can directly affect 
the educational process and the school environment and must be taken 
seriously
    <bullet> Familiarize themselves and their staff members about all 
aspects of technology, including cell phones, computers, the Internet, 
blogs, instant messaging, and social networking Web sites as well as 
the legal and liability issues associated with the use of these 
technologies
    <bullet> Create a team composed of staff members, parents, and 
students to establish guiding principles for the acceptable use of 
technology at school, when completing assignments and related 
activities, and during events taking place off-campus
    <bullet> Provide staff members with professional development on how 
to ensure student safety while using technology as an educational tool, 
including recognizing the signs and possible effects of cyberbullying
    <bullet> Formulate clear policies that protect students and 
teachers from cyberbullying and other criminal activities that are 
related to technology; ensure that students and parents are aware of 
these policies and the penalties for abusing them
    <bullet> Instruct all students on the safe use of technology and 
the impact of cyberbullying and how to recognize and report it when it 
occurs
    <bullet> Create user-friendly procedures to encourage students to 
report cyberbullying when it happens to them or to others
    <bullet> Conduct orientation sessions for parents about 
cyberbullying and include information on how they can reinforce safety 
guidelines and monitor technology use at home and set the expectation 
that no derogatory statements will be sent or posted about other 
students or staff members.
    A recurring theme in these recommendations is the need for both 
students and educators to recognize and act to limit cyberbullying. 
Recognizing students' reluctance to report on classmates, our school 
acquired an anonymous messaging system--supported with Safe and Drug-
Free Schools funding--that allows students to report incidences of 
bullying without having to identify themselves. This system has 
contributed greatly to a 70% reduction in students' belief that 
bullying is a problem at Canyon Vista Middle School.
    Fundamentally, school policies must acknowledge the disparity 
between students' knowledge of technology and their wisdom to manage it 
effectively. Students, many of whom have remarkable technology 
knowledge, are so desperate to belong to something that they'll post 
naked photographs of themselves to a trusted few on the Internet. 
Education for today's world must help students develop that wisdom so 
they can recognize and navigate around the dangers of electronic media 
while also using it for its maximum benefit.
    As a member of the National Safe Schools Partnership, NASSP has 
endorsed federal policy recommendations to prevent bullying and 
harassment in our nation's schools, which will have a dramatic impact 
in improving school safety and, correspondingly, student achievement 
for all students. Specifically, our coalition of national education, 
health care, civil rights, law enforcement, youth development, and 
other organizations call on Congress to ensure that:
    1. Schools and districts have comprehensive and effective student 
conduct policies that include clear prohibitions regarding bullying and 
harassment
    2. Schools and districts focus on effective prevention strategies 
and professional development designed to help school personnel 
meaningfully address issues associated with bullying and harassment
    3. States and districts maintain and report data regarding 
incidents of bullying and harassment to inform the development of 
effective federal, state, and local policies that address these issues.
    Our recommendations are embodied in the Safe Schools Improvement 
Act (H.R. 2262), which would amend the Safe and Drug-Free Schools 
program so that antibullying and harassment programs are eligible for 
federal grants. The legislation is championed by many members of the 
subcommittee, and NASSP hopes that it will be enacted into law as part 
of the reauthorization of the Elementary and Secondary Education Act.
    We also understand, Madame Chairwoman, that you will soon be 
reintroducing the Schools Against Violence in Education (SAVE) Act. 
NASSP was very supportive of a provision in the SAVE Act that would 
have expanded the Safe Schools/Healthy Students grant program to allow 
schools to administer a schoolwide climate survey of students, parents, 
and school personnel. The climate survey would have measured the degree 
to which collaborative leadership and a professional learning community 
exist; the personalization of the school environment; and the strength 
of the curriculum, instruction, and assessment--factors that we believe 
will lead to student achievement, as outlined in our Breaking Ranks 
publications.

Conclusion
    Our students are using ever-changing technology more than ever, and 
for most of them, the Internet is not simply an after-school activity 
or a quick and convenient way to research a school assignment--it is a 
major part of their social life. Texts, instant messages, e-mail, and 
social networking are as common to them as using the telephone is to 
most adults. And in this cyberworld, just as in the face-to-face world, 
bullying and harassment does happen.
    Children in the United States do not have a choice about whether 
they come to school. It is the law, and if we are going to require them 
to be there, then we have the moral imperative to ensure that they are 
in a safe, secure, and productive environment that protects them 
against all forms of bullying and harassment. If we, the responsible 
adults, do not purposefully define the culture of our schools, our 
students will do it for us. How we interact and communicate with one 
another--whether by oral, written, or electronic means--help define the 
school culture. As school leaders, we must ensure that every student 
entrusted in our care is in an environment that promotes safety and 
security; therefore, we must do everything possible to eliminate all 
forms of cyberbullying and harassment and to minimize their impact on 
student achievement should they occur.
    Madam Chairwoman, this concludes my prepared testimony, but I would 
be happy to answer any questions you or the other committee members may 
have.
    Thank you again for this opportunity.
                                 ______
                                 
    Chairwoman McCarthy. Thank you. Ms. Aftab.

   STATEMENT OF PARRY AFTAB, EXECUTIVE DIRECTOR, WIREDSAFETY

    Ms. Aftab. I would like to thank Chairwoman McCarthy and 
the Ranking Member Platts and the rest of the subcommittee, and 
frankly, the entire committee. It is a very incestuous issue, 
cyber-bullying. Ms. Paris indicated that she came to us for 
help, the medical center that the doctor works at had come to 
us for help. I wrote LMK for the Girl Scouts, and Dr. Phil's 
offices call mine all the time. And Build A Bear cares a great 
deal and have come to us.
    If you look at this, you recognize that there are 6 degrees 
of separation from everyone who cares about cyber-bullying. I 
am a cyber-bullying expert, not a bullying one, and there is a 
difference. I would caution people to stop thinking of bullying 
and cyber-bullying as only the difference in the technologies 
that they use. We find that different kids will cyber-bully 
than others. I always say the girls and the geeks are empowered 
by technology, often they will take on the most popular kids in 
school.
    I will share something I hadn't put in my testimony. I was 
called by one of the top medical centers that deals with 
children who are very seriously physically challenged. I am in 
a different place every day. I donate my time to running 
WiredSafety and fund it largely from my pocket. I got the phone 
call and they said we have a serious problem here at the 
medical center with all of these children and cyber-bullying 
and I cancelled my speaking engagement. I got in my car and 
drove far faster than I can put in testimony here before you 
today.
    While I drove up into the school, I said I want to talk to 
the students. I drove up and I walked in and I was late as 
usual. They handed me a microphone and in front of me was a 
room full of children who were typing with a device in their 
teeth who had breathing apparatus, who couldn't walk, many of 
them couldn't talk, many couldn't see. And I stood up and I 
said I am so angry that this has happened to you. I am so angry 
that people are taking the one technology that gives you access 
to the world, the one road without ramps and they are doing 
this and hurting you.
    And the head of the medical center and she tapped me on the 
shoulder and she said, Parry, um, they aren't being cyber-
bullied they are cyber-bullying others. And I know you are not 
supposed to cheer with this, but you need to recognize that you 
never really truly know who is on the other side of the device. 
It is not just Internet, it is not just the social networks, it 
is not just Flickr and not just handheld gaming devices where 
kids are now insulting each other on PictoChat through DS. It 
is not just the Xboxes and Playstations of the world where the 
kids are game bullying. It is not just the cell phones, where 
they are saying terrible things to each other. Actually there 
are 67 different way the teens who work for me who model the 
Girl Scouts, my guess is we can get some answers here as well--
67 different ways you can use the cell phone to cyber-harass 
and cyber-bully someone. The kids they are very inventive. If 
they spent as much time studying as they did finding ways to 
torment each other, we could all go home.
    I agreed to cancel a major event that I was doing with 
Build a Bear for mommy bloggers to be here today. One of the 
reasons was because of a very strong bipartisanship of the 
leadership of this particular subcommittee. You do things, you 
don't just talk. I don't have time for people who just talk. We 
have to find ways of doing it.
    So how do we do that, we reach out to everyone. We reach 
out to the Dr. Phils of the world, we get Diane Sawyer to do a 
town meeting on sexting on Good Morning America, first time 
ever in the morning. And every time Matt Lauer or Meredith have 
a question about cyber-bullying you make sure you are in studio 
no matter where you started out the day before.
    As we look at this, there are other cyber safety experts in 
the world, and many of them say it is not so bad. I think many 
of those are not in the trenches. You don't have to ask me how 
bad it is, you have someone who's involved in a middle school 
to tell you how bad it is. I spoke to 44,0000 middle schoolers 
across the United States a couple of years ago and asked if 
they had ever been cyber bullied, not that way. It all depends 
on definition, you lay out the things that constitute cyber-
bullying.
    Has anyone ever taken a picture of you and put your head on 
someone's naked body, or took a real one of you and passed it 
out? Told your secrets, gone in, done something terrible on 
your social networking page, and changed your password so you 
can't change it back. Do they take your cell phone that was out 
on a counter unattended and send terrible things to your 
friends that you are going to get blamed. The answers go on and 
on as to what constitutes cyber-bullying. The answer is 
generally minor to minor, using technology as a weapon to hurt 
another.
    What do we do? We need help, nobody has any money, I work 
for free, I think a lot of others do as well. Unfunded programs 
in Texas. The good thing is we share. In the olden days, if you 
wanted to bake a cake, you would ask somebody to bring some 
flour, and someone else to bring some eggs, and someone else to 
bring sugar. At the end, everybody got a few pieces to take 
home. That is what we have to do here. The proposals on the 
Hill look at funding these issues, but I don't need funding 
right now, I just need partners.
    So when the Girl Scouts said we want to do something, I 
said tell me how fast we can. Two and a half million girls are 
now change agents. It started with my Teen Angels program. And 
Ranking Member Platts, I want your son in my Tween Angels 
program. Tell him we will be advising Toys R Us and Nintendo my 
guess is he might join us. We need to get out and do this.
    The industry, and today I am not speaking as the head of 
Wired Safety, the oldest and largest cyber safety charity or an 
advisor to the industry, today I am going to tell you that in 
addition to all of the bad news we have been taking about, 
about cyber-bullying and how much it is out there and how often 
it hurts our children and how the technologies are affected, 
there is a lot of good news too. Good news you are seeing and 
hearing here, attention being paid to it, and Dr. Phil's shows 
and others, from Build A Bear, and I am not going to steal 
Dave's thunder, from schools and teachers and school 
administrators who care so much, and mental health experts and 
young people. But you have MTV's, a Thin Line. I got a phone 
call a year and a half ago from head of public affairs, he said 
we want to do something like Rock the Vote, but we want to rock 
the world on what is happening with kids on digital abuse, they 
created something that will live on long beyond what we started 
designing.
    You have Microsoft that paid for the LMK program, and so 
many others. You have Disney that started in cyber safety in 
1997 when they first called and I even did a designing spaces 
for them on how to design a safer room for kids in cyber 
technology. You have Facebook that just put five people on the 
safety advisory board, I am one of them. And you have the 
OSTWG, all of these things that are happening. The industry is 
behind this, and all of them want to be there. Why? Because 
they are parents, because they have customers, because they 
have people who they care about, because they have an 
obligation to create safer communities, safer networks, they 
are creating new technologies, they are branding themselves 
with best practices seals, they are saying we have employees, 
come in and talk to 5,000 of our employees about these things. 
IBM commissioned Ceridian to put it out to all of their 
employees, and we put together some podcasts and videos.
    Industry already has stores, industry already has 
employees, they have distribution arms and communication 
networks, and they are very happy to share them for free. And 
they now understand that being safe for kids is good for 
business. So as we look at this, we need to include them, 
because sometimes they are the only place where money exists, 
and even if they don't have money, they have got in-kind 
expertise that they are happy to share. We need to recognize 
there are a lot of bad things industry does, but in this case, 
I have seen a lot more good than bad. I am here to answer any 
questions I can and help in any way I can. And thank you so 
much for inviting me to speak.
    Chairwoman McCarthy. Thank you.
    [The statement of Ms. Aftab follows:]

  Prepared Statement of Parry Aftab, Esq., the Kids Internet Lawyer, 
         Author, and Child Protection and Cybersafety Advocate

    Cybersafety involves protecting ourselves, our children, our 
community and our networks. When minors are involved the programs and 
messages have to be relevant, involve young people in their framing and 
be quick and easy for parents. Schools often find themselves in the 
crossfire, especially when cyberbullying among students or sexting 
images arise. At the same time, the power of digital networks and 
interactive technology to spur creative educational methods and engage 
students, parents and educators in forward-thinking ways means we can't 
sink our heads in the sand and have to find a way to balance the 
benefits while containing the risks.
    If we view cybersafety as a risk-management issue, it is often 
easier to tackle. It includes copyright infringement and plagiarism, 
responsible use, information literacy, digital literacy and digital 
hygiene, privacy, security, misinformation and hype, sexual 
exploitation (including the rapid growth of sexting), cyberbullying, ID 
theft and inappropriate, violent and sexual content. While my books and 
non-profit role, as Executive Director and Founder of WiredSafety.org, 
span all risks for consumers and families online, my particular passion 
is the prevention and ways to address cyberbullying. I created 
StopCyberbullying.org to help parents, schools, students, law 
enforcement and all stakeholders address the growing problem of 
children hurting each other online.
    To address cyberbullying adequately, in addition to understanding 
the stakeholder perspectives, we have to develop educational programs 
and materials, awareness of the issue and help for victims and their 
families. We have to focus on character education, role modeling good 
behaviors for our children and ways to get everyone involved and 
informed.
    We also have to make it easier to understand the scope of the risks 
and solutions to those risks. When it comes to addressing a big problem 
from multiple perspectives, industry's involvement is crucial and 
welcome. Over the years the Internet, technology and offline trusted 
family brands have stepped up to the plate to help design programs, 
materials and resources, provide expertise and distribute them to their 
communities online and offline. Their approaches are as varied as their 
businesses. And our children are safer and our parents better informed 
because of their involvement.
    Offline and online resources and intervention points tying the 
schools together with industry and community organizations, as well as 
the families they serve, must be developed and adopted. We need a 
cybersafety ecosystem that addresses the most common as well as the 
most serious risks, and we can continue to look to the technology, 
entertainment, device and software manufacturers, service providers and 
Internet industry as advisors for their valuable help.3

Defining the cyberbullying problem
    We can't address a problem until it is defined. While there are 
several attempts to define ``cyberbullying'' as more than ``you'll know 
it when you see it,'' WiredSafety defines it as when minors use digital 
technology as a weapon to hurt another minor. We have been doing this 
since 1995, longer than any other group, and find that this definition 
is practical, realistic, and separates adult cyberharassment from 
minor-to-minor attacks. To meet WiredSafety's definition of 
cyberbullying, the actions must be intentional, minor-to-minor and must 
use some type of digital technology (cell phones, Internet, social 
networks, gaming devices, IM, email, images, YouTube, virtual worlds/
games, etc.). The actions can range from a one-time serious threat to 
repeated and unwanted insults, can be conducted as direct one-to-one 
attacks (direct cyberbullying), postings intended to be viewed by many 
(indirect cyberbullying) or schemes designed to set up the victim and 
have someone else do their dirty work (parents when the text bill 
arrives, Facebook when false reports are made to them, etc.).
    Cyberbullying is growing in epidemic proportions- just ask any 
middle school teacher, counselor or principal. Over the last two years 
the number of kids experiencing cyberbullying has increased by more 
than 30% with attacks becoming increasingly more hateful and vicious. 
It is also starting earlier and earlier as first and second graders are 
getting online and stealing virtual world and online games points and 
passwords from their friends and classmates. However, children's' 
motives and methods change as they get older and often by gender. Boys 
tend to use technology tools and infiltrate accounts (hack) or threaten 
their targets, while girls tend to use social exclusion and 
reputational attacks. Unlike in face-to-face bullying, size and gender 
are often irrelevant: girls cyberbully boys, boys cyberbully girls, 
smaller kids cyberbully the big tough ones. Technology levels all 
playing fields. As a result, the only way to tackle the problem of 
cyberbullying is to combine all stakeholders and to be as inventive as 
children who cyberbully. In short, we need to find what works and seek 
solutions everywhere, from everyone. We have to think outside of the 
box.

Educating students to stop cyberbullying
    Industry has an important stake in both keeping children and teens 
safe online and educating parents and their communities. Fortunately, 
leaders and newcomers alike are interested, involved and generous in 
sharing their expertise, funding and access. I founded and run 
WiredSafety, a charity that began its work in 1995 through its unpaid 
and loosely-organized volunteers by rating websites and helping victims 
of cyberabuse and cybercrime online; in 15 years there is little we 
haven't encountered, but cyberbullying and cyberharassment prevention 
and help is one of our core missions. When I wrote 
StopCyberbullying.org several years ago as a joint project with 
WiredSafety, it quickly became the most popular cyberbullying awareness 
site online. Families, schools and communities needed help grappling 
with this growing problem, and StopCyberbullying.org delivered what 
they needed.
    This September, WiredSafety and I will release the 
StopCyberbullying Toolkit I authored in time to help students and 
educators headed back-to-school. The Toolkit contains $1 million worth 
of animations, computer games, lesson plans and classroom activities, 
videos, posters, coloring sheets and worksheets, guides, tip lists and 
community campaigns for educators, parents, school administrators, 
guidance counselors, school resource officers and community policing 
agents, parent teacher organizations and K-12 students. It is a single 
free downloadable resource for US schools that can be customized to 
address local and regional concerns and students with special needs. 
How can a million dollar resource be developed and distributed for free 
without government funding? We turned to the industry for help and they 
responded in droves.
    I have attached information about cyberbullying, how it works and 
ways to address it in the Appendix, along with my one-page bio.4
    Microsoft, Facebook, MySpace and LG Phones joined as platinum 
sponsors. AOL, Procter & Gamble, Spectorsoft, myYearbook, KidZui, 
Build-A-Bear Workshop and others also joined as sponsors. The Girl 
Scouts of the USA, National Crime Prevention Council, ADL, Rachel 
Simmons, Michele Borba, Bonnie Bracey, Art Wolinsky, Dr. Deanna Guy, 
Dr. Tom Biller, Teenangels and Tweenangels, Cynthia Logan, Debbie 
Johnston, Chris Hansen, XBox, Disney, WebKinz, Zynga, Yahoo!, 
Nickelodeon, MTV, Pantilla Amiga, Adobe, Unity, Pace University, 
McAfee, Verizon, Nokia, MiniClip, Candystand (FunTank), Dolphin 
Entertainment, Hearst, Conde Nast, Seventeen Magazine, ToysRUs, Readers 
Digest, People Magazine, YouSendIt, the Child Safety Research and 
Innovation Center, WiredTrust, Marvel and vast numbers of others 
contributing expertise, support and in-kind to help create and 
distribute this multi-stakeholder resource with the best available 
content and activities available.
    The charity I run in volunteer-capacity, WiredSafety, also works to 
bring together all stakeholders through summits, conferences and events 
sponsored by industry leaders. The first International Stop 
Cyberbullying Summit was hosted by WiredSafety in 2008 and Verizon's 
Chairman and CEO, Ivan Seidenberg, delivered the luncheon speech to 
explain how committed Verizon is to stopping cyberbullying. Since then, 
they have been important leaders in the industry and brought together 
other stakeholders to help address the problem. LG Phone and Nokia are 
becoming engaged in cybersafety messaging and educating the parents who 
buy their products for their children.
    Many other industry players have joined forced with us as well as 
worked on their own to create programs and raise awareness about 
cyberbullying. For example:
    <bullet> Facebook is developing a cyberbullying and harassment page 
in its safety section to teach parents, teens and users of all ages how 
to avoid becoming a victim of cyberbullying or being seen as a 
cyberbully. They have revised their privacy settings to help keep 
cyberbullies from abusing users' information and posing as them. (The 
more a network authenticates a user, the less likely cyberbullying can 
gain ground.) Recently, Facebook partnered with the National Parent 
Teacher Association to help deliver cyberbullying and other programs to 
parents at the local level and share wonderful resources and 
information from the National PTA with others on Facebook. They have 
also committed the help of their five chosen safety advisory board 
members (including WiredSafety).
    <bullet> McAfee partnered with Facebook to provide free long-term 
trial security software products to all Facebook users. By using a good 
security product, cyberbullies can be locked out of computers, devices 
and accounts.
    <bullet>ToysRUs is partnering with me and WiredSafety's 
Tweenangels, WiredMoms to develop information for parents about 
different interactive toys and devices and how to make the right choice 
for their children. This will involve in-store information, online 
tutorials and content, and training and engagement of their employees, 
as well as Tweenangel and WiredMoms reviews of their favorite products.
    <bullet> XBox and Microsoft have developed the Pact, a contract for 
parents and their children that addresses time spent playing games and 
using media and rules. The Pact can be customized for each family and 
each child. They have also created an advisory board that includes one 
of our Teenangels and me.
    <bullet> MTV's A Thin Line campaign started with a survey on teens 
and young adult practices and risks related to sexting and 
cyberbullying. A documentary program on the consequences of sexting for 
both those taking the nude picture and those forwarding it was 
broadcast with a wide viewership. The athinline.org site engages young 
people and challenges them to take charge. It informs them what to do 
when they encounter cyberbullying, how to respect themselves and others 
and how to tell when their actions and those of others have ``crossed 
the line.'' They address cyberspying by friends and romantic partners 
and the right of privacy.
    <bullet> Seventeen Magazine has announced a large campaign to 
activate and empower youth especially girls and young women, to tackle 
cyberbullies and step up when they see others being harmed online. I 
will be working with them on this campaign, as will my Teenangels
    <bullet> Liz Claiborne expanded its free dating abuse campaign and 
curricula to include digital dating abuse, asking me to create that 
segment of the curricula (loveisnotabuse.org).
    <bullet> Taser International is creating cybersafety and 
cyberbullying training and resources for members of law enforcement 
using their certified trainers. They are also helping develop resources 
for local law enforcement agencies and community policing agents to use 
in delivering programs to their communities on cybersafety and 
cyberbullying. Having learned about the concerns parents and the law 
enforcement community had addressing distracted driving risks and 
cyberbullying and other cell phone-related abuses, Taser developed a 
cell phone and in-car technology to prevent driver cell phone and other 
distractions and to give parents better control and ability to 
supervise their children's cell phone activities, including prohibiting 
the sharing of ``sext'' images and receipt of phone calls from 
strangers. The two products will be released this year and are part of 
a broader campaign to address risks to our families.
    <bullet> Microsoft Window funded a comprehensive cybersafety and 
cyberbullying awareness and educational initiative for the Girl Scouts 
of the USA entitled ``Let Me Know'' or ``LMK'' developed by me using 
our Congressionally-honored Teenangels program as the model. (This is 
intended to serve the 2 million plus members of Girl Scouts.)
    <bullet> The gaming companies, such as Lego, FunTank 
(Candystand.com), Zynga, Disney, Nickelodeon, and Nintendo are 
developing technologies and methods to better protect their users of 
all ages. Specifically, Nickelodeon is teaching parents and young users 
how to use games and online networks in safer ways and to avoid being 
the target of a cyberbully. Zynga (of Farmville and Mafia Wars fame) is 
developing safety messaging on game bullying, security and safety with 
WiredSafety and with me. Nintendo added parental controls to its DSi to 
help parents better address their concerns.
    <bullet> Disney uses its TV programming and product messaging to 
teach safer web surfing and cyberbullying prevention, including on its 
netbooks and Club Penguin. Disney has created a corps of kids who act 
as ``secret agents'' to Club Penguin to spot cyberbullying and other 
code of conduct violations in the game. I worked with them on a segment 
of HGTV's Designing Spaces where I appeared helping a Florida parent 
understand the best way to create a ``cybersafe'' room for her son and 
together with Teenangels in 1998 helped design Toowtown's safety 
features.
    <bullet> The community approach, where the millions of users are 
engaged in looking out for themselves and others, is becoming more 
robust and filters adopted by Build-A-Bear Workshop help prevent their 
younger users of buildabearville.com from targeting each other. They 
partnered with us in StopCyberbullying month last year, offering in-
store materials for parents and pledges for children and added a 
``stop, block and tell!'' move in their game to help make cyberbullying 
awareness fun. They are founding members of the StopCyberbullying 
Coalition and Maxine herself blogs to her millions of fans about what 
parents need to know to keep their kids safer.
    <bullet> KidZui is delivering our Sumo-Wrestler Panda Cybersafety 
animations, teaching children how to avoid and respond to 
cyberbullying.
    <bullet> AOL is heavily involved in supporting mom digital literacy 
and awareness and is a sponsor of WiredMoms, WiredSafety's mom group 
with more than 70,000 followers on Twitter (@wiredmom and @wiredmoms)
    <bullet> Cisco commissioned us to create cybersafety guides for 
kids, tweens, teens and parents for promotion on their sites and other 
sites online.
    <bullet> Ceridian and IBM commissioned me to create a tour of the 
teens' Internet for parents in video and podcast/audio formats as an 
employee benefit for IBM employees worldwide and US military families.
    <bullet> Microsoft sponsored the development of the Alex Wonder Kid 
CyberDetective Agency Bootcamp Computer Game, teaching tweens how to 
identify and address cyberbullying as well as our first Marvel Internet 
Superheroes Comic on cyberbullying.
    <bullet> In 2004, Marvel donated an exclusive license to use 
Spiderman, The Incredible Hulk and others in their Superhero studio in 
comics offering cybersafety, security and digital technology-related 
issues.
    <bullet> Adobe donates expertise to us on special-needs 
accessibility to allow for adaptation of cybersafety materials and 
resources for the families of special-needs children and the children 
themselves.
    <bullet> Google and Yahoo! support public service messaging and 
search promotions to select Internet child safety advocacy groups.
    <bullet> Oracle operates Think.com, a popular educational resource 
for educators on digital use and empowerment.

Socially safety
    Finally, many general audience industry leaders have started to 
provide cyberbullying training for their moderators and address 
cyberbullying risks through programs and policies. In the case of those 
sites designed exclusively as tween and preteen networks, in addition 
to complying with COPPA, many are delivering materials to parents and 
schools, as well as resources directed to their preteen audiences. The 
Socially Safe Best Practice Seal and the Socially Safe Kids Seal are 
providing a framework for safety, best practices and risk-management to 
the Internet, online game and digital technology provider industries. 
In addition we are delivering training and certification programs for 
moderators and, together with privacy and security think tank experts, 
will launch Pathway, a screening and moderation technology for use by 
networks, game sites and technology providers to help monitor their 
services and deliver a safer environment and experience. These steps go 
a long way to help professionalize Internet safety and best practices.
    This new approach of branding safety and best practices works 
because, in addition to being good for communities, families and 
schools, keeping all users, especially children safer is also good for 
business. Trusted brand names and responsible newer companies recognize 
these opportunities and their responsibilities to their customers, 
users and the community. A representative of Google, while speaking at 
one of our StopCyberbullying Coalition events, stated that creating 
safer networks is ``an issue of competition.'' If your competitors are 
helping make things safer, you have to as well. That was welcomed news. 
But while it may be a competitive advantage to make your networks and 
technologies safer, it also makes sense to join forces with and 
cooperate with your competition and all industry players to create 
safer online environments and better prepared young people and parents. 
An example on how they are working together for the good of all 
Internet and digital technology users is our StopCyberbullying 
Coalition. The StopCyberbullying Coalition is a multi-stakeholder group 
organized by WiredSafety and run by me to bring together all viewpoints 
and expertise to tackle this growing problem from all perspectives. 
Without the creativity, access, distribution channels and support of 
the above-mentioned companies and many more, non-profits, schools and 
families would not have the help they need to address cyberbullying, 
cyberhate and the harassment of minors in the digital world.

Conclusion
    Thank you for including my testimony on this critically important 
issue for our nations' youth. Cyberbullying is reaching epidemic 
proportions, touching kids at every age and grade level. Thankfully 
many within industry, schools and communities have begun to answer the 
call to provide training programs, materials, and educational efforts 
to ``Stop Cyberbullying''. I stand ready to answer any questions the 
Subcommittee may have and provide additional information and offer the 
support of both WiredSafety and its thousands of volunteers.

               APPENDIX TO TESTIMONY OF PARRY AFTAB, ESQ.

Snapshot of U.S. minors online and cyberbullying
    It is estimated that approximately 93% of minors in the Unites 
States 10 and older access the Internet either from home, schools, 
community centers and libraries or from some newer Internet-capable 
device. This is up more than fifteen-fold since 1996, when only 6 
million U.S. minors were online. Now our children are using cell phones 
with video and camera features as well as Internet and text-capability, 
iTouches and iPads with cell phone-like features, interactive gaming 
devices (such as XBox and Sony Playstation 3) with voice-over-Internet, 
webcams and live chat features, handheld devices with Internet, 
Bluetooth and other remote-communication technology (such as DS and 
DSi), community broadcasts like Twitter and social networking profiles 
(such as Facebook, MySpace and myYearbook) where they can share their 
thoughts, when they last brushed their teeth, and anything else they 
want the world (or their closest friends) to know.
    Fifteen years ago, when our volunteers first began helping victims 
of cyberbullying and cyberharassment things were easier. There was one 
way to access the Internet--a computer with a slow dial-up modem. The 
Internet was too rare and access to expensive for kids and teens to use 
and ``central locations where parents could oversee their kids' surfing 
made sense. But this has changed radically over these few short years. 
Now our kids and teens have more power in their backpacks, pockets and 
purses than large corporations had a few years ago. They have ``apps'' 
for everything, change their status on Facebook, share pictures on 
Flickr, Tweet, upload videos on YouTube, send thousands of texts (and 
sometimes ``sexts'') and live out-loud online.
    Now, instead of looking over our children's shoulders when they are 
connected, we have to teach our children to use the ``filter between 
their ears'' and exercise good judgment and care when using any 
interactive device wherever they are and however they are connected. 
While teaching parents how to supervise their children online was a 
challenge, teaching children to ``ThinkB4uClick'' is much harder.
    When I was growing up (in the days before electricity and indoor 
plumbing, when we had to walk up hill, both ways in blizzards to get to 
school), parents used to blame us for not behaving. We were 
disciplinary problems. Now pediatric neuro-psychologists tell us that 
preteens and teens are hardwired, through immature brain development, 
to be unable to control their impulses at this age. Either way, we 
recognize that preteens and teens take risks, don't appreciate the 
consequences of their actions and act before they think. This puts them 
at risk for many things, including, but not limited to being 
cyberbullied or being the cyberbully. (Often the only difference 
between the two is which clicked the mouse last.)
    Thirteen years ago, when I first wrote the first book in the world 
on Internet safety for parents and told them to put the computer in a 
``central location,'' that made sense. It was a central point, where 
parents could get involved and supervise their children's interactive 
communications and surfing activities. Now, where they are connected 
through handheld devices, cell phones and game boxes, it is no longer 
relevant. 9
    In middle school and elementary school, we call it 
``cyberbullying.'' High schoolers think that ``cyberbullying'' is a 
middle school thing and they are too mature for it. They call the same 
activities that constitute ``cyberbullying'' ``digital drama'' or 
``digital abuse.''

Statistics and a Snapshot of Cyberbullying Trends
    A few years ago, I visited schools around the U.S. doing 
presentations to students in elementary, middle and high schools. 
During each presentation, I asked students if they had been 
cyberbullied. Instead of asking that way, since each student defines 
cyberbullying in different ways, I listed the kinds of things that 
constitute cyberbullying, asking if they had experienced any of those. 
(They included having someone access your profile, posting something 
hateful and then changing your password so you can't remove it, passing 
vicious rumors, posing as you and saying mean things to your friends or 
breaking up with your girlfriend or boyfriend, etc.) I spoke to a total 
of more than 44,000 middle school students and no matter where I went 
in the U.S.; I never found less than 85% of the students reporting that 
they had been cyberbullied at least once. In a much smaller poll, 70% 
of the students polled admitted to having cyberbullied someone else at 
least once. Students are inventive and cyberbullying is often a ``crime 
of convenience, ``committed when they are bored, jealous, vengeful or 
looking for an audience.
    Cyberbullying spans all digital technologies, from cell phones 
where students may grab an unattended cellphone and reprogram the 
victim's best friend's or romantic interest's number to their cell 
number. Then they send a mean text message that would come up as the 
best friend or a break-up message ostensibly from their girlfriend or 
boyfriend. The victim would blame their friend and two students are 
victimized for the price of one cyberbullying tactic. (They should 
spend half the time studying as they do dreaming up these kinds of 
schemes!)
    Key statistics on cyberbullying from stopcyberbullying.org and 
teenangels:
    <bullet> 85% of middle schoolers polled reported being cyberbullied 
at least once.
    <bullet> 70% of teens polled reported cyberbullying someone else.
    <bullet> 86% of elementary school students share their password 
with their friend(s).
    <bullet> 70% of teens polled said they share their password with 
their boyfriend/girlfriend or best friend. (Sharing your password is 
the digital generation's equivalent of a ``friendship ring.'')
    <bullet> Cyberbullying starts in 2nd
    <bullet> 3rd grade and peaks in 4th grade and again in 7th-9th 
grade.
    <bullet> Only 5% of middle schoolers would tell their parents if 
they were cyberbullied.
    <bullet> Middle schoolers have identified 63 different reasons not 
to tell their parents.
    <bullet> Teens have identified 71 different ways to cyberbully 
someone.
    <bullet> Cellphones are used 38% of the time in cyberbullying 
incidents.
    <bullet> Social networks are used 39% of the time in cyberbullying 
incidents.
    <bullet> Password theft or misuse accounts for 27% of 
cyberbullying. (There is
    overlap between this and social networking cyberbullying.)
    <bullet> The number of cyberbullying and sextbullying (when sexting 
incidents are used to intentionally destroy a minor's reputation and 
self-esteeem) is increasing rapidly.
    <bullet> 52% of boys in high school reported having seen at least 
one nude image of a classmate.
    MTV's wonderful multi-year campaign to address cyberbullying, 
digital dating abuse and sexting risks was launched in late 2009 and 
can be found at athinline.org. It explains the scope of the teen and 
young adult issues. I serve as a member of its advisory board, along 
with Casi Lumbra, one of my Teenangels.10
    <bullet> 1000 Wisconsin teens identified cyberbullying as a risk or 
a serious risk.
    <bullet> An equal percentage of boys and girls admit to taking and 
sharing a sext of themselves.
    <bullet> 71% of girls use their webcam in their bedroom, and 21% 
regret something they did on a webcam.
    <bullet> 5% of 10--12 yr olds polled admitted to taking and sharing 
a sexually provocative or nude photo of themselves.
    <bullet> Within a 48 hour period, more than 200,000 myYearbook 
users took a pledge against cyberbullying.

What are the different types of cyberbullies?
    It is impossible to change behavior when no one understands what is 
behind it. Cyberbullying occurs for the same reasons schoolyard 
bullying occurs. It also occurs by accident when students are careless 
about cyber communications. It might come from impulsive and 
thoughtless reactions to something that has upset the ``cyberbully.'' 
They may be defending themselves and each other from offline bullies or 
other cyberbullies. Lumping them all together will lead nowhere, fast.
Every type of cyberbullying requires a different response and method of 
        prevention
    The four types of cyberbullies include:
    <bullet> The Vengeful Angel
    <bullet> The Power-Hungry (or Revenge of the Nerds sub-type)
    <bullet> The Mean Girls
    <bullet> The Inadvertent Cyberbully ``The Vengeful Angel'': In this 
type of cyberbullying, the cyberbully doesn't see themselves as a bully 
at all. They see themselves as righting wrongs, or protecting 
themselves or others from the ``bad guy'' they are now victimizing. The 
Vengeful Angel cyberbully often gets involved trying to protect a 
friend who is being bullied or cyberbullied. They generally work alone, 
but may share their activities and motives with their close friends and 
others they perceive as being victimized by the person they are 
cyberbullying.
    Vengeful Angels need to know that no one should try and take 
justice into their own hands. They need to understand that few things 
are clear enough to understand, and that fighting bullying with more 
bullying only makes things worse. They need to see themselves as 
bullies, not the do-gooder they think they are. It also helps to 
address the reasons they lashed out in the first place. If they sense 
injustices, maybe there really are injustices. Instead of just blaming 
the Vengeful Angel, solutions here also require that the situation be 
reviewed to see what can be done to address the underlying problem. Is 
there a place to report bullying or cyberbullying? Can that be done 
anonymously? Is there a peer counseling group that handles these 
matters? What about parents and school administrators. Do they ignore 
bullying when it occurs, or do they take it seriously? The more methods 
we can give these kinds of cyberbullies to use official channels to 
right wrongs, the less often they will try to take justice into their 
own hands.11
    The ``Power-Hungry'' and ``Revenge of the Nerds'': Just as their 
schoolyard counterparts, some cyberbullies want to exert their 
authority, show that they are powerful enough to make others do what 
they want and some want to control others with fear. Sometimes they 
just don't like the other kid. These are no different than the offline 
tough schoolyard bullies, except for their method. Power-Hungry 
cyberbullies usually need an audience. It may be a small audience of 
their friends or those within their circle at school. Often the power 
they feel when only cyberbullying someone is not enough to feed their 
need to be seen as powerful and intimidating. They often brag about 
their actions. They want a reaction, and without one may escalate their 
activities to get one.
    Interestingly enough, a sub type of the Power-Hungry cyberbully is 
often the victim of typical offline bullying. They may be female, or 
physically smaller, the ones picked on for not being popular enough, or 
cool enough. They may have greater technical skills. Some people call 
this type the ``Revenge of the Nerds'' cyberbully. It is their 
intention to frighten or embarrass their victims. And they are 
empowered by the anonymity of the Internet and digital communications 
and the fact that they never have to confront their victim. They may 
act tough online, but are not tough in real life. They are often not a 
bully but ``just playing one on TV.''
    This kind of cyberbullying usually takes place one-on-one and the 
cyberbully often keeps their activities secret from their friends. If 
they share their actions, they are doing it only with others they feel 
would be sympathetic. The rarely appreciate the seriousness of their 
actions, and often resort to cyberbullying-by proxy. Because of this 
and their tech skills, it can be the most dangerous of all 
cyberbullying.
    Power-Hungry cyberbullies often react best when they know that few 
things are ever anonymous online. We leave a trail of cyber-breadcrumbs 
behind us wherever we go in cyberspace. And, with the assistance of a 
law enforcement or legal subpoena, we can almost always find the cyber-
abusers and cybercriminals in real life. Shining a bright light on 
their activities helps too. When they are exposed, letting the school 
community know about their exposure helps prevent copycat 
cyberbullying.
    Helping them to realize the magnitude of their activities is also 
helpful. Often their activities rise to the criminal level. The more 
this type of cyberbully understands the legal consequences of their 
actions, the more they think about their actions.
    Ignoring them can also be very effective. But sometimes, instead of 
going away when ignored, they escalate their actions to get others 
involved, through a cyberbullying-by-proxy situation. Whenever a Power-
Hungry cyberbully is suspected, it is crucial that law enforcement is 
notified and that the victim keeps a careful watch on themselves 
online, through ``googling themselves.'' They can even set a Google 
Alert to notify them by e-mail if anything new is posted online with 
their personal contact information.12
    ``Mean Girls'': The type of cyberbullying occurs when the 
cyberbully is bored or looking for entertainment. It is largely ego-
based and the most immature of all cyberbullying types. Typically, in 
Mean Girls bullying situations, the cyberbullies are female. They may 
be bullying other girls (most frequently) or boys (less frequently).
    Mean Girls cyberbullying is usually done, or at least planned, in a 
group, either virtually or together in one room. It may occur from a 
school library or a slumber party or from the family room of someone 
after school. This kind of cyberbullying requires an audience. The 
cyberbullies in a Mean Girls situation want others to know who they are 
and that they have the power to cyberbully others. This kind of 
cyberbullying grows when fed by group admiration, cliques or by the 
silence of others who stand by and let it happen. It quickly dies if 
they don't get the entertainment value they are seeking.
    The most effective tool in handling a Mean Girls cyberbullying case 
is blocking controls. Block them, block all alternate screen names and 
force them to go elsewhere for their sick entertainment. In addition, 
if threatened with loss of their Facebook or AIM accounts, they wise up 
fast!
    In all cases of which I am aware, the sexting and cyberbullying-
suicides and attempted suicides in the US involved Mean Girls 
cyberbullies.
    The ``Inadvertent Cyberbully'': Inadvertent cyberbullies usually 
don't think they are cyberbullies at all. They may be pretending to be 
tough online, or role playing, or they may be reacting to hateful or 
provocative messages they have received. Unlike the Revenge of the 
Nerds cyberbullies, they don't lash out intentionally. They just 
respond without thinking about the consequences of their actions.
    They may feel hurt, or angry because of a communication sent to 
them, or something they have seen online. And they tend to respond in 
anger or frustration. They don't think before clicking ``send.''
    Sometimes, while experimenting in role-playing online, they may 
send cyberbullying communications or target someone without 
understanding how serious this could be. They do it for the heck of it 
``Because I Can.'' They do it for the fun of it. They may also do it to 
one of their friends, joking around. But their friend may not recognize 
that it is another friend or may take it seriously. They tend to do 
this when alone, and are mostly surprised when someone accuses them of 
cyberabuse.
    They also may be careless, typing too fast and being unclear or 
leaving our crucial words, like ``not.'' They may send a message to the 
wrong person or hurt someone by accident.
    Education plays an important role in preventing Inadvertent 
Cyberbullying. Teaching them to respect others and to be sensitive to 
their needs is the most effective way of dealing with this kind of 
cyberbully. Teaching them to Take5! is an easy way to help them spot 
potentially bullying behavior before it's too late.13

Methods of cyberbullying
    Kids have always tormented each other. Just think about Lord of the 
Flies. Now with the help of cybertechnologies, sadly, they are doing it 
more and more online, using mobile phones and interactive games. I 
spend as much time protecting kids from each other online these days as 
from cyberpredators. What is Cyberbullying?: Cyberbullying is any 
cyber-communication or publication posted or sent by a minor online, by 
instant messenger, e-mail, website, diary site, online profile, 
interactive game, handheld device, cell phone or other interactive 
device that is intended to frighten, embarrass, harass or otherwise 
target another minor. If there aren't minors on both sides of the 
communication, it is considered cyberharassment, not cyberbullying. A 
one-time rude or insulting communication sent to a minor is generally 
not considered cyberbullying. Cyberbullying needs to be repeated, or a 
threat of bodily harm, or a public posting designed to hurt, embarrass 
or otherwise target a child.
    How does it work?: There are two kinds of cyberbullying: direct 
attacks (messages sent to your kids directly) and cyberbullying by 
proxy (using others to help cyberbully the victim, either with or 
without the accomplice's knowledge). Because cyberbullying by proxy 
often gets adults involved in the harassment, it is much more 
dangerous.

Direct attacks
    1. Instant Messaging/E-mail/Text Messaging/Inbox or PM Harassment
    2. Kids may send hateful or threatening messages to other kids 
without realizing that unkind or threatening messages are hurtful and 
very serious.
    3. Warning/Report Abuse/Notify Wars--Many Internet Service 
Providers offer a way of reporting or ``telling on'' a user who is 
saying inappropriate things. Kids often engage in ``warning wars'' 
which can lead to kicking someone offline for a period of time. While 
this should be a security tool, kids sometimes use the Warn/Notify/
Report Abuse buttons as a game or prank.
    4. A kid/teen may create a screen name that is very similar to 
another kid's name. The name may have an additional ``i'' or one less 
``e.'' It might use a lowercase ``L'' instead of the number ``1.'' They 
may use this name to say inappropriate things to other users while 
posing as the other person.
    a. Text wars, text-bombs, or text attacks occur when kids gang up 
on the victim, sending thousands of text messages to the victim's 
cellphone or other mobile device. The victim is then faced with a huge 
cellphone bill and angry parents.
    b. Kids send death threats using IM and text messaging as well as 
photos/videos (see below).

Stealing passwords
    a. A kid may steal another child's password and begin to chat with 
other people, pretending to be the other kid. He/she may say mean 
things that offend and anger this person's friends or even strangers. 
Meanwhile, the others won't know it is not really that person they are 
talking to.14
    b. A kid may also use another kid's password to change his/her 
profile to include sexual, racist, and inappropriate things that may 
attract unwanted attention or offend people.
    c. A kid often steals the password and locks the victim out of 
their own account.
    d. Once the password is stolen, hackers may use it to hack into the 
victim's computer.
    e. A stolen password can allow the cyberbully to steal points, 
loot, and game ``gold.''

Blogs
    Blogs are online journals. They are a fun way for kids and teens to 
post messages for all of their friends to see. However, kids sometimes 
use these blogs to damage other kids' reputations or invade their 
privacy. For example, in one case, a boy posted a bunch of blogs about 
his breakup with his ex-girlfriend, explaining how she destroyed his 
life and calling her degrading names. Their mutual friends read about 
this and criticized her. She was embarrassed and hurt, all because 
another kid posted mean, private, and false information about her. 
Sometimes kids set up a blog or profile page pretending to be their 
victim and saying things designed to humiliate them.

Websites
    a. Children used to tease each other in the playground; now they do 
it on websites. Kids sometimes create websites that may insult or 
endanger another child. They create pages specifically designed to 
insult another kid or group of people.
    b. They select and register domain names designed to inflame or 
otherwise hurt their victims.
    c. Kids also post other kids' personal information and pictures, 
putting those people at a greater risk of being contacted or found.

Sending pictures through e-mail and cellphones
    a. There have been cases of teens sending mass e-mails to other 
users that include nude or degrading pictures of other teens. Once an 
e-mail like this is sent, it is passed around to hundreds of other 
people within hours. There is no way of controlling where it goes.
    b. Many of the newer cellphones allow kids to send pictures to each 
other. The kids receive the pictures directly on their phones and may 
send them to everyone in their address books. After viewing the picture 
at a website, some kids have actually posted these often pornographic 
pictures online for anyone to see, spread, or download.
    c. Kids often take a picture of someone in a locker room, bathroom, 
or dressing room and post it online or send it to others on cellphones.

Internet polling
    Who's hot? Who's not? Who is the biggest slut in the sixth grade? 
These types of questions run rampant on the Internet polls; all created 
by yours truly--kids and teens. Such questions are often very offensive 
to others and are yet another way that kids can bully other kids 
online.15

Interactive gaming
    Many kids today are playing interactive games on gaming devices 
such as Xbox 360 and Sony PlayStation 3, Nintendo DS, and Sony PSP. 
These gaming devices may allow students to communicate with anyone they 
find themselves matched with in an online game or people within a 
certain defined physical area. Sometimes the kids verbally abuse the 
other kids, using threats and lewd language. Sometimes they take it 
further, locking them out of games, passing false rumors about them, or 
hacking into their accounts.

Sending malicious code
    Many kids will send viruses, spyware, and hacking programs to their 
victims. They do this to either destroy their computers or spy on their 
victim. Trojan horse programs allow the cyberbully to remotely control 
their victim's computer and can be used to erase the victim's hard 
drive.

Sending porn and other junk e-mail and IMslc
    Cyberbullies often will sign up their victims for e-mail and IM 
marketing lists, lots of them, especially porn sites. When the victim 
receives thousands of e-mails from pornographers, their parents usually 
get involved, either blaming them (assuming they have been visiting 
porn sites) or making them change their e-mail or IM address.

Impersonation/posing
    Posing as the victim, the cyberbully can do considerable damage. 
While posing as the victim, they may post a provocative message in a 
hate group's chatroom or on their forum pages, inviting an attack 
against the victim, often giving the name, address, and telephone 
number of the victim to make the hate group's job easier. They often 
also send a message to someone saying hateful or threatening things 
while masquerading as the victim. They may also alter a message really 
from the victim, making it appear that they have said nasty things or 
shared secrets with others.

Social networking attacks
    Most teens (and many preteens) are using social networks such as 
MySpace and Facebook. They build a profile and share whatever they want 
to share with the world or their close friends. They post pictures and 
videos (especially on video networks like YouTube), pass rumors, 
exclude those they want to target, create quizzes and polls, and use 
anonymous networks (such as JuicyCampus.com) or applications such as 
Honesty Box to attack their victims. They impersonate their victims, 
take over their accounts, or report them to their school, parents, or 
the police.
    Aside from cellphones, social networking is the technology of 
choice for cyberbullying and harassment.

Misappropriation of cellphones
    While the predominant method used to cyberbully someone through a 
cellphone is texting and prank calling, students are lifting an 
unattended cellphone and reprogramming it to do their dirty work. 16

Cyberbullying by proxy (third party cyberharassment or cyberbullying)
    Often people who misuse the Internet to target others do it using 
accomplices. These accomplices, unfortunately, are often unsuspecting. 
They know they are communicating irate or provocative messages, but 
don't realize that they are being manipulated by the real cyberharasser 
or cyberbully. That's the beauty of this type of scheme. The attacker 
merely prods the issue by creating indignation or emotion on the part 
of others, and can then sit back and let others do their dirty work. 
Then, when legal action or other punitive actions are taken against the 
accomplice, the real attacker can claim that they never instigated 
anything and no one was acting on their behalf. They claim innocence 
and blame their accomplices, unwitting or not; their accomplices have 
no legal leg to stand on.
    It's brilliant and very powerful. It is also one of the most 
dangerous kinds of cyberharassment or cyberbullying. Children do this 
often using AOL, MSN, or another ISP as their ``proxy'' or accomplice. 
When they engage in a ``notify'' or ``warning'' war, they are using 
this method to get the ISP to view the victim as the provocateur. A 
notify or warning war is when one child provokes another until the 
victim lashes back. When they do, the real attacker clicks the warning 
or notify button on the text screen. This captures the communication 
and flags it for the ISP's review. If the ISP finds that the 
communication violated their terms of service agreement (which most 
do), they may take action. Some accounts allow several warnings before 
formal action is taken, but the end result is the same. The ISP does 
the attacker's dirty work when they close or suspend the real victim's 
account for a terms of service violation. Most knowledgeable ISPs know 
this and are careful to see if the person being warned is really being 
set up.
    Sometimes children use the victim's own parents as unwitting 
accomplices. They provoke the victim and, when the victim lashes back, 
they save the communication and forward it to the victim's parents. The 
parents often believe what they read and, without having evidence of 
the prior provocations, think that their own child ``started it.''
    This works just as easily in a school disciplinary environment.
    Students may not understand that their attacks, if designed to hurt 
someone's reputation, may be defamatory and subject them to discipline, 
lawsuits, and in some cases harassment charges. They may not understand 
that they can be tracked quite easily most of the time and held 
accountable for their actions. They may not understand that their 
actions may be a terms of service violation and cost them (or their 
family) their online accounts. They may repeat rumors and take action 
based on false information, and then find themselves facing liability 
when the person who started it all hides behind them. They should know 
that repeating lies, even if you read them online, is no excuse under 
the law.
    WiredSafety advises not to respond to cyberbullying. So, it is 
important that we caution to all who believe things without confirming 
their accuracy not to confuse silence or failure to defend or rebut any 
rumors with an admission of guilt or confirmation that a lie told by 
someone is true. Sometimes silence is smarter, especially when the real 
fight may not occur online at all. The smarter ones don't fight their 
battles in public online, not when defamation, cyberbullying or 
harassment is involved.17
    Just a reminder to teach students to thinkB4uClick. Otherwise they 
have become what they say they are fighting. They have become a 
cyberharasser or cyberbully themselves. Teach them not to be used. 
Teach them to use their heads.

The problem with some prominent surveys
    Major survey companies and educational institutions have studied 
cyberbullying. While they all conclude that cyberbullying is a serious 
and growing problem, they (in our opinion) under-report the problem. 
It's not their fault. It's the nature of how surveys with minors are 
conducted. Most take place after the parents are asked for their 
permission to survey their kids. Since there are 57 different reasons 
identified by students for why they would not tell their parents if 
targeted by a cyberbully, it is unlikely that they will be candid with 
the surveyor in their parents' presence or after their parents are 
informed about the survey.
    The second problem with the surveys is that they ask, ``Have you 
been cyberbullied?,'' without defining what they mean. Like 
``obscenity,'' which, according to a former U.S. Supreme Court Justice, 
``you know it when you see it,'' it's easier for people to spot than to 
define. But many students think that harassment and cruelty online 
comes with the territory, and unless it's a death threat or text-bomb 
(see Talk the Talk), it's not cyberbullying. For any survey to be 
effective, it needs to define situations that constitute cyberbullying 
and ask the students if they have ever been involved in one of those 
situations.
    Interestingly, students are more likely to own up to being a 
cyberbully than a victim.
    A Conspiracy to Conceal It WiredSafety's surveys reflect that only 
5% of students would tell their parents if they were being targeted by 
a cyberbully. When Teenangels conducted a survey of their own, they 
learned that less than 25% of the students would tell anyone if they 
were being cyberbullied.
    Why? The answer is different for parents than another trusted 
adult. Parents have the power to make their lives miserable. They can 
turn off the Internet, take away cellphones, computers, and gaming 
devices, pick up the phone and call other parents, the school, or their 
lawyers. They run too hot and overreact, or too cold and underestimate 
the pain the cyberbully causes.
    The students don't want their parents to discover that they are not 
as popular in school as hoped. They don't want to look like they can't 
take care of themselves. They don't want their parents to find out that 
they were doing things they shouldn't or to learn the information the 
cyberbully is threatening to expose.
    Parents might start monitoring or filtering everything, spying, or 
being overly attentive to what the student is doing online. The parents 
may demand passwords to all accounts and use them, confront the 
cyberbully or their parents, call the police, or blow things out of 
proportion. The cyberbullying may become the topic of discussion over 
the Thanksgiving table or the source of teasing or bullying by 
siblings.
    If their current or former friends were the cyberbullies, the 
victim, interestingly, may try and protect them or avoid having them 
punished. They don't want to be termed a ``tattletale'' or have the 
cyberbully18 escalate their actions because they ``told.'' They may 
have responded using inappropriate language or threats of their own. 
The list goes on and on. They are reluctant to share with their 
``friends'' and not sure if the cyberbully is one of those in whom they 
are confiding. With anonymous cyberbullying they can't be sure if the 
cyberbully is their best friend or worst enemy. Friends are armed with 
their secrets and passwords and sometimes the cyberbully poses as one 
of their friends. They don't know where to turn or whom to trust.
    Trusting their teachers, guidance counselors, and school 
administrators is a bit different. In this case, they worry that the 
school will refuse to get involved. (This fear is often well-founded.) 
They fear their uninformed involvement even more. When well-meaning 
school administrators get involved, they often call everyone in and try 
to get to the bottom of things. This only makes things worse and sets 
up the victim for more harassment from the cyberbully, their friends, 
and everyone in the class who sees the victim as ``squealing.''
    Even when the school administrators do the right thing, it can 
backfire. On a recent Tyra Banks Show, Parry met a young student who 
had reported her classmates taking her picture with their cellphone 
while in the locker room at school. (She and other girls were dancing 
in various stages of undress.) The cyberbully threatened to post the 
pictures on Facebook and the girl panicked and went to the principal, 
who promptly called in the girls and confiscated the cellphone. The 
entire class turned on the victim, saying she had blown it all out of 
proportion. She was victimized twice--once by the girls and again by 
the class.
    An interesting exercise for students is to ask them to see how many 
reasons they can come up with why they wouldn't tell their parents 
about being cyberbullied. Parry has never gotten them to come up with 
more than 57 different reasons. See if you can beat her record and 
share the reasons you find. They can be illuminating. If we understand 
why they don't share this or trust their parents, we can find ways to 
address their concerns and change this pattern. We can also find ways 
to make sure that they trust guidance counselors, teachers, and school 
administrators so they don't have to face this alone.
    The challenge we all face is how we can intervene without feeding 
the cyberbullies. There are no easy answers on this one, just some 
approaches that have worked for others. An effective strategy is to get 
peer counselors involved and create a cyberbullying taskforce for the 
school, including students in crafting responses and consequences of 
cyberbullying activities. Make sure you include the consequences for 
bystanders.
    Whatever you do, do it carefully and thoughtfully. Ask the victim 
first before you take any action other than those needed to protect 
them or others. Remember, cyberbullying hurts. The first thing we need 
to do is address that hurt. Bring in the guidance counselors to help. 
The more advance preparation and planning the school does, the faster 
and better you can respond when these things occur.

Starting young--the Sumo Pandas
    WiredSafety has created the Sumo Panda digital safety and 
cyberbullying prevention program to help teach cybersafety to kids from 
kindergarten to grade six. It uses a series of twelve short and cute 
Flash and Quicktime animations of the Pandas, their friends and 
rivals--the Polar Bears from Polar Bear19 Academy. Each animation is 
paired with a teaching kit that contains things like lesson plans, 
activity sheets, coloring pages, pledges, and lesson certificates
    Artemus and his cousin, Precious Panda live in the Forest of Kind 
with their families. Artemus and Precious attend Panda Elementary 
School with the other animals in their forest and love to sumo wrestle 
in their spare time! Like any other kid, they also love to play online. 
Too bad Artemus isn't the most cyber savvy and Precious often has to 
guide him to find the right path. Unfortunately, Artemus is often 
influenced by his ``friends'' Herbert the panda and Chops the pig who 
don't always have his best interests at heart. Artemus is also often 
the target of cyberbullying by his rivals, the Polar Bears from Polar 
Bear Academy. But with the support of his true friends, especially 
Precious, Artemus always learns important lessons in cybersafety by the 
end of the day. Teaching them the consequences of their actions, and 
that the real ``Men in Black'' may show up at their front door 
sometimes helps too. Since many cyberbullying campaigns include some 
form of hacking or password or identity theft, serious laws are 
implicated. Law enforcement, including the FBI, might get involved in 
these cases. Remind your students that they could easily be implicated 
in a cyberbullying case commenced by one of their friends. (But be 
careful, this may end up backfiring if the kids are intrigued by what 
would happen if the FBI did knock on their door. It's happened.)
    But few cyberbullying campaigns can succeed without the complacency 
and the often help of other kids. If no one votes at a cyber-bashing 
website, the cyberbully's attempts to humiliate the victim are 
thwarted. If no one forwards a hateful or embarrassing e-mail, the 
cyberbully is left standing all alone. It's rarely fun to act out 
unless you can show off to someone who will appreciate your antics. By 
denying the cyberbully an audience, the antics quickly stop.
    In addition, the ``mean girls'' cyberbullies need an audience. 
That's the reason they do it, to show everyone that they can. It 
reinforces their social status and ranking. It reminds everyone who 
believes it that they can do anything they want to anyone they want. 
Denying them their audience and ego fix takes the fun out of 
cyberbullying. Hopefully they can then move on to something else a 
little less destructive.
    If we can help kids understand how much bullying hurts, how in many 
cases (unlike the children's chant) words can hurt you, fewer may 
cooperate with the cyberbullies. They will think twice before 
forwarding a hurtful IM or e-mail, or visiting a cyberbullying ``vote 
for the fat-girl'' site, or allowing others to take videos or cell 
phone pictures of personal moments or compromising poses of others. 
And, in addition to not lending their efforts to continue the 
cyberbullying, if given an anonymous method of reporting cyberbullying 
websites, profiles and campaigns, students can help put an end to 
cyberbullying entirely. School administration, community groups and 
even school policing staff can receive these anonymous tips and take 
action quickly when necessary to shut down the site, profile or stop 
the cyberbullying itself. They can even let others know that they won't 
allow cyberbullying by supporting the victim, making it clear that they 
won't be used to torment others and that they care about the feelings 
of others is key. Martin Luther King, Jr. once said ``In the end, we 
will remember not the words of our enemies, but the silence of our 
friends.''
    We need to teach our students that silence, when others are being 
hurt, is not acceptable. If they don't allow the cyberbullies to use 
them to embarrass or torment others, cyberbullying will quickly stop. 
It's a tall task, but a noble goal. And in the end, our students will 
be safer online and offline. We will have20 helped create a generation 
of good cybercitizens, controlling the technology instead of being 
controlled by it.

  APPENDIX ON RESPONSES TO MASSACHUSSET'S MIDDLE SCHOOL SURVEY OF 500 
                       STUDENTS ON TEXTING--2009

 Student Survey--770 Middle and High School Wisconsin Students Winter 
                                  2010

                                      WHAT DO YOU KNOW ABOUT CYBERBULLYING?
----------------------------------------------------------------------------------------------------------------
                                                                            What is your grade?
                           Answer options                           ----------------------------------- Response
                                                                      6th    7th    8th    9th    10th   percent
----------------------------------------------------------------------------------------------------------------
I don't know what it is............................................     15      5      4     33     34     11.8%
It's no big deal...................................................      1      3      2     39     24      9.0%
I have heard about it on TV or in magazines, but don't know much         4     17     17     63     42     18.6%
 more..............................................................
It happens in middle school only...................................      0      3      1      2      4      1.3%
It's when you say mean things online, in a text or by IM...........     11     55     64    194    120     57.7%
It's when you take an embarrassing pic using a cell phone and send      11     47     64    144     70     43.6%
 it to others to hurt someone......................................
I have heard about someone in my school or town that was                 5     26     20     74     29     20.0%
 cyberbullied......................................................
Friends of mine have been cyberbullied, but I haven't..............      4     17      7     35     16     10.3%
We've had cyberbullying incidents in my school.....................      3     21     16     69     29     17.9%
I have seen cyberbullying messages designed to hurt or embarrass         3     20     20     83     44     22.1%
 someone else......................................................
I have cyberbullied others.........................................      0      3      2      7     18      3.9%
I have said nasty things to others online, but don't consider it         0      4     14     29     22      9.0%
 cyberbullying.....................................................
I have been cyberbullied by a close friend.........................      1      9      4     23     13      6.5%
I have had someone steal my password and pretend to be me..........      0     14     13     40     24     11.8%
I have had someone cyberbully me on Facebook.......................      0      5      4     18     14      5.3%
I have seen others cyberbullied on Facebook........................      2      9      7     64     28     14.3%
I should report cyberbullying to the FBI...........................      0     20      5     20      8      6.9%
I know how to report cyberbullying to Facebook and other sites.....      3     18     20     51     24     15.1%
You can be arrested if you cyberbully someone......................      3     35     29     70     29     21.6%
Teens have committed suicide when they were cyberbullied...........      5     46     60    138     57     39.7%
I've cyberbullied someone with my friends just for fun.............      0      1      6     20     12      5.1%
I have been harassed and embarrassed by text messages sent by            2     11     15     33     15      9.9%
 others............................................................
----------------------------------------------------------------------------------------------------------------

                                 ______
                                 
    Chairwoman McCarthy. Mr. Finnegan.

  STATEMENT OF DAVE FINNEGAN, CHIEF INFORMATION AND LOGISTICS 
                  BEAR, BUILD-A-BEAR WORKSHOP

    Mr. Finnegan. Good morning, Chairwoman McCarthy, Ranking 
Member Platts and Members of the subcommittee. My name is Dave 
Finnegan, I am the Chief Technology Bear at Build-A-Bear 
Workshop. I am honored to be the only one with ``bear'' in my 
title on the panel. I appreciate the invitation to come.
    Build-A-Bear started in 1997 and has since grown to be the 
ninth largest toy retailer in the United States with over 400 
stores worldwide. A number of years ago, we saw the play 
patterns of kids go from traditional play to a blend of on-line 
and off-line play. During that time, we launched a kids virtual 
space called buildabearville.com. Since then, we have grown to 
over 15 million Avatars, and we get roughly 4 to 5 million 
visits from kids each month. We have earned a number of awards 
in the space, including awards from iparenting, Wired Kids, and 
have earned Parry Aftab's socially safe seal from WiredSafety.
    The Internet bullying, and cyber-bullying initiative is 
obviously from all the testimony that we have heard an 
important issue for kids, and because of that, it is an 
important issue for Build-A-Bear Workshop. We think that we are 
uniquely positioned in this space because we have stores that 
we can get the message out through. We also think that if we 
can capture kids early on and teach them and help educate them 
early on and give them the tools that are needed, that we will 
serve them well, especially as they get into their teenage 
years.
    So we believe that success comes when kids are educated and 
parents, as Dr. Phil indicated, are actively involved in their 
kids' Internet experience. We also believe that as we joined 
together, industry, lawmakers, educators and others that we 
have a lot of things that we can share together to help keep 
this space safe for kids.
    So in October 2009, we launched a ``Stop Cyber-Bullying 
Month'' campaign where we taught kids and parents the 
importance of playing on line. To reach kids, we decided that 
we would reach them in their native place. So we went online 
and we created some educational games and quizzes that kids 
could take where once they were finished with those things, 
they earned different virtual prizes, including dance moves and 
things like that for their Avatars. Since that launch of that 
campaign online, we have had over 2.6 million impressions on 
the stop block and tell message from Parry's group. We have had 
over 165,000 of our guests who have taken the stop cyber-
bullying pledge, and we have had over 200,000 kids take the 
cyber safe quiz.
    We also took one of our store calendars and dedicated that 
calendar issue to the stop cyber-bullying pledge. So we put on 
something that we were already doing, we layered on all of the 
safety information about what we could do to make a difference. 
And we dedicated that calendar in October to that topic. We 
gave away 350,000 calendars that went into the hands of kids 
and moms and dads so they could talk about these topics 
together. That is what we did for kids.
    From a parent's perspective, we reached out in more 
traditional media. Parents aren't online like their kids are. 
We reached out with online and traditional media. We created a 
family feature with content we got from Wired Kids to talk 
about how to open the dialogue between you and your kids about 
how to keep your family safe, and how to deal with cyber-
bullying.
    That was picked up by newspapers and magazines and we have 
reached about 70 million media impressions so far with this 
media campaign.
    As we have been working on this issue, we have noticed 
something: We have noticed that there is a common thread, a 
shared commitment between industry and policymakers, educators 
all have the commitment to keep kids safe. We think, however, 
there is a huge opportunity to bring these organizations closer 
with events like this that allow us to share ideas and 
concepts.
    To that end, last October we cosponsored an event on 
Capitol Hill, the Stop Cyber-Bullying event, in which we 
brought major companies and different organizations throughout 
the United States together to talk about this topic, to share 
ideas and to open up what we are doing from a technology 
perspective that we can share with others so that we can keep 
kids safe.
    At Build-A-Bear Workshop, we are happy to stand shoulder to 
shoulder with kids and with parents, educators and policymakers 
and companies to help make a difference to kids online. We 
applaud the work that you are doing to help bring focus to this 
issue and we are happy to participate in any way we can.
    [The statement of Mr. Finnegan follows:]

      Prepared Statement of Dave Finnegan, Chief Technology Bear,
                      Build-A-Bear Workshop, Inc.

    Build-A-Bear Workshop, Inc. is the only global company that offers 
an interactive make-your-own stuffed animal retail-entertainment 
experience. The company was founded in 1997 and currently operates more 
than 400 Build-A-Bear Workshop stores worldwide, including company-
owned stores in the U.S., Puerto Rico, Canada, the United Kingdom, 
Ireland and France, and franchise stores in Europe, Asia, Australia, 
Africa, the Middle East, and Mexico.
    Goal--Internet Safety and cyberbullying are important issues to 
Build-A-Bear Workshop and are especially relevant to protecting kids in 
this generation. We are committed to working together with other 
stakeholders to make the Internet a safer place for kids through 
education and awareness. Build-A-Bear Workshop partners with others to 
achieve the goal of providing safer internet spaces for kids.
    In October of 2009, Build-A-Bear Workshop launched the ``Stop 
Cyberbullying Month'' campaign to reach kids and their parents with a 
cyber safety message in order to educate them on the importance of 
playing safely online. Our objective has been to be a part of the 
solution to stop cyberbullying.
    The company is committed to children and families and protecting 
kids is paramount to us. We believe that to accomplish our goal we need 
the partnership of parents, kids, industry, policymakers, law 
enforcement and educators.
    Reaching kids: Build-A-Bear Workshop is an organization that 
addresses and stops cyberbullying by diligently educating, equipping 
and monitoring our virtual space. The Build-A-Bear Workshop companywide 
Stop Cyberbullying program is comprised of several online, in store and 
media elements. The reason we employ a variety of tools is to ensure 
that we are able to reach as many kids as possible. We are educating 
kids by creating awareness of what they can do to protect themselves 
online. With our campaign, we generated 2,600,000 impressions with our 
``Stop, Block and Tell'' event.
    In addition, over 165,000 Guests have taken the Stop Cyberbullying 
pledge online and there have been over 200,000 Guests online who have 
taken our Cyber Safe Quiz to help them understand the best ways to 
remain cybersafe. We continue to add games and online tools to educate 
and integrate with their play. Reaching parents and others: Because 
Build-A-Bear Workshop believes that internet safety takes a commitment 
from the parent, we incorporated a number of communications channels to 
reach out to parents and others in the community with the Cyber Safety 
Message.
    Since October 2009, 350,000 Instore Calendars have been distributed 
to Guests in stores throughout the country. In addition, media outreach 
has extended to print, online, broadcast and bloggers to achieve over 
70,000,000 media impressions.
    In addition to its outreach to kids and parents, Build-A-Bear 
Workshop has partnered with other key groups to communicate the message 
of cyber safety. In October 2009, the company sponsored the Stop 
CyberBullying Event, meeting with other corporate leaders and child 
advocacy groups in a first ever Coalition event in Washington D.C. on 
Capitol Hill. Experts representing many different areas of the cyber 
safety attended for the discussion along with Build-A-Bear Workshop and 
other companies to share cyber safety policies and practices.
    We continue to partner with parents, policymakers and industry 
leaders to generate awareness and encourage internet safety. In order 
to reach the goal of providing safer internet spaces we propose that 
the industry, policy/law enforcement, teachers and educators, parents 
and children and internet safety organizations work together to 
strategize around this topic to implement the agreed upon outcomes.
    For additional information please visit: http://
www.pwrnewmedia.com/2009/babw90930/index.html
                                 ______
                                 
    Chairwoman McCarthy. Thank you so much, thank you everybody 
for your testimony. I think everybody probably found it, number 
one, very enlightening. We can do a lot of research here, we 
have great people to do that for us, but again, I think when 
you have great people that come in front of us, and basically 
talk about the experiences they have had, I think about going 
back even before cyber-bullying was that popular, but 
Columbine, those shooters, those kids were all being bullied, 
so it can turn to violence.
    We know that over 200,000 kids a day are not going to 
school because they are being bullied, and they are scared. We 
know that young people join gangs because they feel they need 
to be protected from bullying.
    So these are the problems that society, and especially our 
young people are facing on a daily basis. And that is something 
that I feel that this committee should be very committed about, 
because again, these are our future leaders of this country. 
They are going to be here in Congress one day, they are going 
to be in the business world, and we have to make sure that they 
are very well adjusted. We have to make sure they are secure, 
mainly because you want them to have good, happy lives. And as 
Dr. Phil had mentioned, those affected by bullying, that is 
carried on for many, many, many years into their life, even 
when they are adults. And with any kind of wound like that, 
that can't be seen, it is something that will always be there 
and affect that person and could affect future relations, 
future--their children, so it is something that I believe is 
the time that we do something about it.
    Dr. Phil, I know you have been talking about this on your 
show, I know you have mentioned that you have young people 
calling in, but overall, when you have people calling in or 
writing to you on letters, do you feel that the American public 
are seeing the crisis that, which I personally feel is a health 
care crisis by the way, are you feeling that you are getting 
through to the parents, because obviously, an awful lot of 
parents watch your show.
    Mr. McGraw. Well, I think you have to answer that in a 
couple of ways. I think when you raise the awareness about it, 
very clearly, parents are surprised because they are not aware 
because their kids don't come to them and say this is happening 
to them. So they are simply not aware of it.
    Once they are made aware of it, then all of a sudden, it 
becomes a priority for them, and they can support the child. 
One of the biggest mistakes we see, so often parents say look, 
this is just kids being kids, we can't run up there and get 
involved every time something like this happens. That is 
exactly the wrong attitude here. When a child is being isolated 
and attacked in this way, it is the loneliest time of their 
life. That is when they need someone to put an arm around their 
shoulder and say, look, I am here for you, I have got your 
back, we are going to figure a way to deal with this.
    And I have had many bullies on the show, cyber-bullies on 
the show, and they invariably will say they had no idea the 
gravity this had on another student. They had no idea that it 
hurt them so deeply, I have had them on 10 years after the 
fact, and they see the devastation it caused in someone's life, 
even to the point that maybe they home schooled their children 
or they are over protective of them because they don't want to 
put them into the mix again. They are shocked at this.
    So part of it is not just educating the parents and 
supporting the targets, but also counseling the bullies, the 
kids that would do this and their parents. These bullies have 
parents, we need to talk to those parents to counsel their kids 
to teach them to be empathetic about the impact of what their 
doing.
    And when we talk about that, I do see it get through, I do 
see it come through. The power of it comes from hearing from 
people like Dominique and those that are in that window, in 
that time frame that makes the biggest difference.
    Chairwoman McCarthy. Thank you.
    And Dominique, we have you on this panel because you are 
the voice, you are on the ground, as they say, so with the 
program that you have been working with the Girl Scouts of 
America, how do you see your fellow students react to it? Is it 
positive? Do they give you suggestions on how to make it 
better?
    Ms. Napolitano. Well, I feel that people don't really want 
to look at the issue of cyber-bullying, people that are my age 
because I think they really feel that, you know, its just 
something that you kind of, everyone kind of does. I mean, I 
don't partake in cyber-bullying, but I think a lot of people 
they just think oh, well, they are more focused on their self-
image in school and about popularity rather than another 
person's feelings. So I think it is hard to get the message 
across because I don't think everyone wants to listen, but I 
think by showing the effects of cyber-bullying it's--I think it 
gives a more positive impact on people that are my age.
    Chairwoman McCarthy. One of the things, and I am not sure 
exactly yet, I believe it was Dr. Phil's testimony on keyboard 
bullies, namely because I think young people don't understand 
when they write something--I know that if I feel angry, I do 
not send out an e-mail. I can talk to someone and certainly let 
them know that I am dissatisfied, but for some reason, when you 
put it on a BlackBerry and before I push that send, I say this 
sounds terrible, that is not who I am, that is not what I am 
trying to do.
    So I can even imagine that young people, when they are 
sending these things, and they might think they are even funny, 
they don't understand what the consequences are on the other 
end.
    Mr. McGraw. You have an edit button a lot of people don't 
have. And children, certainly in their teens, their brains 
aren't through growing yet. And the last thing that grows is 
the inhibition center. So they don't have that edit button. So 
they do hit send. That is the problem. We need your edit 
button, is what we need.
    Chairwoman McCarthy. I agree. I wish I could use it all the 
time. I wish I had a big red button and just squash it. I am 
going to hold off so the rest of my committee can ask 
questions.
    Mr. Platts.
    Mr. Platts. Thank you, Madame Chair. Thanks to each of you. 
Just a wealth of knowledge that you have all shared with us, 
and some news that my son will--maybe one piece of news he will 
like and one that he won't that one of the things that came 
through, and Dr. Phil, you mentioned in your testimony that 
being from the old school, having to get up with today's times, 
that sticks and stones will break my bones, but words will 
never hurt me, well, yeah, they can. And I have to admit to 
pleading guilty to having said that to my boys when the sibling 
rivalry is getting a little strong and say you have to take it. 
So I think Tom will be glad to hear that.
    The one news he won't like as I mentioned, we are not ones 
who have given into the craze that everybody has to have a cell 
phone, so our boys don't, and we try to be very guarded where 
our computers are and our engagement with them.
    And after hearing all of your testimonies, including the 67 
ways to use a cell phone to bully, it might be a while, Tom. So 
sorry. I was overprotective before this hearing. I am even more 
overprotective after hearing all of the testimony.
    Dominique, I wanted to, one, commend you and your 
classmates who rose to the occasion with your classmate Mary T, 
and turned what was a bullying effort into an important lesson 
that your students were sharing, teaching each other and rising 
to the defense of a classmate, even those who didn't really 
know her, but stood up to the individual who was bullying.
    What do you, from your perspective as a teen--and as a 
parent, we would love to know this answer and I guess it is a 
tough one to come by--but that makes it hard for teens or any 
age children to talk to their parents that they are being 
bullied and to reach out for help as opposed to staying 
isolated and suffering in that isolation.
    Ms. Napolitano. I think the main reason why the person 
being cyber-bullied won't want to tell a parent is I think they 
are afraid that if the cyber-bully is notified that you know 
what they are doing is wrong and they are going to suffer a 
consequence from it. I think they are afraid what are other 
people going to think about me. And I think that is really the 
main reason is because they are kind of afraid of what are 
other people going to think. Are they going to side with me or 
side with the cyber-bully, and am I going to be cyber-bullied 
even more from it.
    So I think that is really the main reason why they want 
help.
    Mr. Platts. So a very simplistic sense that kind of 
tattletale, and you went and got somebody in trouble, and you 
will suffer more consequences in response.
    So how for us to educate the kids that you need to come 
forward and educate other kids to see that as doing the right 
thing as opposed to the wrong thing.
    Ms. Paris, you talked about your programs in your school 
and how you have educated yourself, and then with the NASSP. In 
what ways do you reach out to parents to try to give them that 
knowledge, or to engage them maybe, through your district to 
have that be at that partnership.
    Ms. Paris. We have parent summits, and it is interesting 
that--I am not denouncing what you said about Tom and his cell 
phone, but I spoke to 700 elementary school parents in my 
district a year and a half ago, and I asked them--it is 
elementary and middle--and I asked them to raise their hands if 
their child had a MySpace. And very few hands went up. And I 
told them how to find out if a child had a MySpace. And the 
next day, I had 200 e-mails from parents saying I had no idea. 
We don't even have a computer in the home, and my child has a 
MySpace account.
    So just as I think Dr. Phil said, it is an awareness issue. 
Ninety percent of it is being aware of the impact of what is 
going on and what tools do we have. It is not good enough any 
more. I can't go to principals and say hey, this is a big 
problem. I need to be able to go to principals and say I know 
you know that it is a big problem now. Epic problem now. Here 
are some things you can do preemptively, proactively to address 
the issue. And a big piece of that is educating your kids, 
educating your parents, getting them on board with the mission.
    Mr. Platts. Just really kind of a basic, if more active the 
engagement of the parent and the knowledge sharing, the more 
likely then they are going to look into like the 200 e-mails go 
home and say hey, I didn't know, but now they do so they can be 
more aware.
    Mr. McGraw. Congressman, one of the things that I would 
like to add to what Ms. Paris is saying, is we have to, as part 
of the education, we have to teach teachers how to intervene in 
these situations. I mean, they have to understand. We have got 
to put out a program that we talk about on the Dr. Phil Show is 
trying to teach kids that telling is not tattling. If you are 
going to a responsible adult and identifying, that is not 
tattling because we have taught our kids that is not the thing 
to do.
    And we need to get them to understand, and I have written 
so extensively about this, and my son, Jay, wrote a New York 
Times best seller about bullying and how to stop it. And in 
there we talk about the fact that if you are watching someone 
bully someone else, cyber-bully or any other way, and you do 
nothing about it, you are as guilty as the person that is doing 
it. So you have to close the ranks and support.
    And peer interventions don't help as far as them stepping 
up and saying ``don't do this.'' But you have to support the 
target and you have to be willing to talk to the teachers and 
counselors and administrators. We have to get all of the 
bystanders involved.
    Mr. Platts. In a sense in law school, we had a strict honor 
code where if you are aware of cheating and don't report it, 
you are then responsible as well. That mentality out there--
with parents who I think one of the challenges is that the old 
guard, us guys who didn't grow up with all of this technology, 
that, you know, the parents kind of shrug it off.
    What do you think is the best way to make the case? Is it 
telling the stories of what happened to parents who understand? 
This isn't something you can shrug off. It is a real threat to 
your kids.
    Mr. McGraw. It truly is. It is not a talk that you have 
with your children. It is a dialogue. It is an ongoing 
dialogue. It is not something where you sit down to talk. You 
have to constantly be in a dialogue with them about what is 
happening and not only about whether or not someone is 
demeaning them or writing things about them or posting 
pictures, but also making sure that they are not part of this, 
that they are not doing that.
    I have never talked to a parent of a bully that knew that 
their child was doing this. It is always, I had no idea they 
were picking on this child. I had no sense of it whatsoever. We 
have got to get them to talk about it. And the only way they 
can do this is they understand the technology, which a lot of 
us parents don't. They don't understand the Facebooks and all 
of that.
    But that information is out there. I mean, if you go 
nowhere except to Parry and all of the things that you guys do, 
that is one-stop shopping right there. You get what you need to 
know right there.
    Ms. Aftab. If I may explain, cyber-bullying is not one 
thing. It is a lot of things. We found that 85 percent of the 
elementary school students share their password with at least 
one other person, and 70 percent of high schoolers do, 
especially the best friend or someone they are dating. If 
someone is armed with your secrets and your passwords they can 
do really serious destruction when tomorrow you hate each other 
which happens several times a day.
    If we can deal with digital hygiene, teaching kids a 
password that is easy to use, not easy to guess, easy to 
remember. And the Girl Scouts came up with something they 
called designer passwords when we were doing the training. 
Twizzlers and Clueless, your favorite candy and your favorite 
movies. Something that you remember and other people won't. If 
we can lock other people out of their account, keep their 
passwords protected, use a good cybersecurity software. And if 
your son really wants a cell phone, I will introduce you to 
Taser with their new product on cell phone security that you 
can actually see what he's doing.
    But if we can put it together so the easy things are out of 
there, so that the kids are better protected, better secured, 
we have locked our doors, then the rest is just behavioral.
    And when we talked about Columbine, I was getting 10,000 e-
mails a day from parents saying how do I know if my kids have 
one of those Web sites. My answer was ask. When we did a survey 
of kids who were using computer games, parents had no idea what 
they were doing on these computer games, that they could use 
Internet over phone. And I said to the kids would you tell your 
parents? They said sure, but they never ask.
    Even though a dialogue is crucial, if you just start with, 
``Do you have one of these things?'' and although it is hard to 
find the experts and none of the parents are, and frankly, I am 
not an expert on how the technology works. That is why I work 
with kids. Ask your teens. They are free and they do house 
calls. So what you say is if you want this new device for 
Christmas, tell me what it does. Three Cs: Content, contact and 
cost. Tell me what the content risks are, tell me what the 
contact, how you can talk to people, people can talk to you. 
Can you get into trouble by downloading music you are not 
supposed to be doing or something that is going to cost me 
money that I didn't agree to.
    If the kids can answer those questions they might be old 
enough for it. My guess is that Tom can do that. And I will 
help you get him on to cell phones when you think he is ready.
    Chairwoman McCarthy. I hope my granddaughter is not 
watching because she will be 10 in October and for the last 3 
years, she thought she could bully grandma into getting a phone 
and I said absolutely not.
    Ms. Aftab. Never underestimate the power of grandparents in 
this whole issue of bullying.
    Mr. Scott.
    Mr. Scott. Thank you, Madame Chair. I serve on this 
committee, Education and Labor, and also chair the crime 
subcommittee, so this has interest to me on this committee and 
also my other committee. And so I would like to start with Dr. 
Srabstein. Could you say a little bit about the effect of 
cyber-bullying or bullying in general on suicide, dropping out 
of school, delinquency, and gang members.
    Dr. Srabstein. There is a whole array of medical, 
educational and risk problems associated with bullying and 
cyber-bullying. To start with, there are cross-sectional 
studies based on national prevalence in the United States that 
shows that at least 5 percent of U.S. adolescents may suffer 
from a combination of frequently occurring physical and 
emotional symptoms linked to their participation in bullying as 
bullies, perpetrators or bullies victims. With the latter, 
being the youngsters that have the worst broken noses, not only 
in terms of health problems but also in terms of death. And 
they are usually misunderstood because in school they will say, 
Well what do you expect, if you are doing this, this is what 
they are doing to you.
    And we need to recognize that those children and 
adolescents and sometimes adults may have both situations. They 
are victims, and we need to support them and we need also to 
help them as a public health issue for them not to hurt others.
    Now, the kind of array of problems may include a cluster of 
frequently occurring symptoms like depression, irritability, 
anxiety, headaches, stomachaches, dizziness, difficulty in 
sleeping. All of them happening at the same time. This is 5 
percent of at least of U.S. adolescents grade 6 to 10 that may 
have these symptoms linked to their participation.
    Now, within this group, 50 percent of them are at risk of 
hurting themselves. We don't know the rate of mortality. We do 
know that there are at least 250 cases of deaths reported in 
newspapers in the last decade. But that is just the tip of the 
iceberg. Furthermore, they are more at risk of suffering from 
accidental injuries besides the suicide attempts. They are more 
prone to abuse over-the-counter medication, get into fights, 
run away from home, and be frequently absent from school. And 
again, those that are bullies and victims are in the worst 
prognosis.
    Mr. Scott. We know the problems that result from bullying. 
Do bullying prevention and intervention programs work? Can they 
be replicated? And while--I am going to run out of time--and do 
activities that involve live interaction like Girl Scouts and 
others, are they helpful in reducing cyber bullying and 
bullying generally?
    Dr. Srabstein. What we do now is a prevention intervention 
programs for the whole bullying at large, and cyber bullying is 
very much intertwined with bullying in general because it 
happens in different settings. We can probably apply that to 
cyber bullying as well although cyber bullying itself as it is 
being discussed this morning has its own peculiar aspects that 
doesn't happen in the other setting.
    Mr. Scott. I want to know whether or not we are talking 
about putting something in ESEA, do the bullying prevention and 
intervention programs work and what should we be putting into 
ESEA?
    Dr. Srabstein. They only produce, in the best chance, up to 
50 percent but in general, not more than 20 or 30 percent, and 
therefore, you need a three-level intervention: primary, 
secondary, and tertiary intervention having the whole village 
involved in this. It is not just the schools, health 
professionals, the parents, the whole community. Primary 
prevention in terms of raising awareness and creating better 
environment in the schools.
    Secondary intervention in terms of detection of incidents 
not only in the schools, but by all health professionals when 
they meet with children and adolescents for any particular 
reason being an accident or being just a regular physical just 
to ask them, explain to them that they are here concerned as 
health professionals that bullying is a problem, ask the 
children if they are being bullied and then ask them if they 
have any health problems related to that.
    The problem remains in reporting this to the school because 
most of the kids are very afraid because of the culture of the 
reporting things, and so the last element is tertiary 
intervention. Many of the kids, no matter what may be done in 
the schools, especially the perpetrators, they may not be able 
to stop bullying even if they are sensitized and counseled for 
a lot of different reasons, including their impulsivity, mood 
instability and so on.
    So at the end of the day, medical treatment of the tertiary 
provision may be needed.
    Mr. Scott. I think some of the others wanted to answer if 
they could.
    Ms. Paris. The efficacy of the prevention program depends 
on the person who is implementing it. You will hear that 90 
percent of the schools having programs. That is not indicative 
of how effective they are at all. You have to front end it and 
backload it. You have to say right up front there is an 
expectation. If we don't define purposefully the culture on our 
campuses, our students are going to do it for us.
    So as administrators, we have to say right up front this is 
the culture of our campus and that conduct is not permissible. 
Then when we implement our programs, we implemented an 
anonymous program and the surveys went from 80 percent of 
students who said bullying was a problem on our campus. Within 
1 year of having that program, it dropped to under 20 percent. 
So was that an effective program on our campus? Absolutely. 
Why? Because we took it seriously, we communicated that to the 
students, and on the back end of that the consequences for 
violating that expectation were swift.
    So is it effective? Depends on entirely on who is 
implementing the program.
    Ms. Aftab. I think it depends on who is delivering it. Not 
just as the expertise, but whether it is kids or adults. We are 
finding as a peer-driven program those of the Girl Scouts, 
those that are coming out of the Thin Line campaign at MTV, 
those that come from our Teen Angels are working, and what you 
need to do is tell the stories. Although in cyber-bullying I 
caution not to just look at the suicides, because so many more 
kids are hurt every day.
    If you tell the real stories, if you tell the story of 
Megan Meier, if you tell the story of Jesse Logan, if you tell 
the real stories as real kids, you see changes of behavior 
immediately. We have 500,000 kids who took a pledge against 
cyber-bullying, 200,000 of them took it in a 48-hour period 
when it was posted on line.
    If you let them know what it means, you can let them know 
what to do to stop it in themselves, and when to report it and 
what will happen when they do? You see changes, remarkable 
changes, but what we need to do is use their language, and make 
it meaningful and make it real.
    Mr. Scott. Can you tell us where we can find the research 
on this, on effective bullying prevention programs?
    Ms. Aftab. I was part of the NTIA OSTWG report and I was 
also part of the Berkman Center, and I don't think they are 
very good academic research on this because kids lie often. So 
when you ask them questions, when you are doing academic 
research, you don't often get the answer. I will share the 
research that we have done from the Teen Angels asking kids--it 
is not academic, but there are 500 to 1,000 responses to each 
of their surveys, and I will share that with you on this. But 
we need to recognize we can't give up, and even if you stop one 
kid or a few kids and you let them know what they are doing 
crosses that line, you will stop some of it. That is what we 
have to do.
    Our stop cyber-bullying toolkit comes out in September. It 
is totally free. It has professional development surveys and 
everything for LMK, and it is a free download for any schools 
that want it and the industry helped put it together, a million 
dollars worth of stuff that hopefully, if I am hit by a truck 
we will be able to perpetuate the work.
    Chairwoman McCarthy. Mr. Guthrie.
    Mr. Guthrie. Thank you for coming today.
    Are your parents with you today?
    Ms. Napolitano. My mom is with me.
    Mr. Guthrie. You have got to be very proud because you have 
done a very good job. My youngest is a rising seventh grader as 
well, so the issues that you talked about in my house we try to 
monitor everything we can do. And as a parent as a rising 
seventh grader, just advice on how I can monitor my daughter 
from what you have seen and learned that would be interesting 
to learn and hear for the rest of the committee as well.
    What things do you think--and what point do you think it is 
getting too much into seventh graders' business I guess?
    Ms. Napolitano. I think some of the things that you should 
do to maybe help watch what your kids are doing on the 
Internet, or maybe to be like what my mom did, since she has my 
passwords to Facebook. I know people don't want to give parents 
their passwords because they want to keep what they have 
private. But I think it is important for parents to have their 
children's passwords, because I think they should be 
monitoring, because if you don't have somebody's passwords, I 
know, for example, with Facebook you can look at somebody's 
page and not see really know what is going on. You can maybe 
see a couple of their pictures, but you really can only see 
what they are writing and other people are writing about them 
if they have their passwords and personal information to get on 
the Web site.
    Mr. Guthrie. My wife got into Facebook for the purpose of 
monitoring our children, so she is now an avid Facebooker.
    And Dr. McGraw, or anyone really, once parents say this is 
serious, I know this is what we are trying to do, this is 
serious. What are the steps just as I asked Ms. Napolitano? 
What should I do as a parent?
    Mr. McGraw. I think the most important thing to do is put 
yourself in the child's position and ask yourself how you would 
be feeling if your peer group was saying or doing the things 
that are being heaped upon your child because if you stand in 
their shoes for a moment and understand at a particularly 
vulnerable time--I mean, when a child is in middle school or 
certainly even in upper school, this is the time that they are 
defining themselves socially. It is when their self-image is 
coming together their self-esteem is coming together, their 
body image is coming together. And if that is under attack, 
then you need to take that seriously as something that is going 
to require some attention and some intervention.
    And the problem is if a cyber-bully in any way is sending 
those destructive messages, you might get five of those a day. 
But the child will repeat them cognitively 10,000 times a day. 
You have got to intervene with that internal dialogue, and the 
best way to do that is to get the child to kind of do a test, I 
call it a litmus logic test. Is this true, factually, what they 
are saying here? Is this true. The answer is no. What is true? 
Is it in your best interest to be thinking this.
    Give them a checklist to go through and say if they are 
saying that you are a nerd and nobody likes you, is that true. 
Then let us generate what is true to take place of that. So 
they understand you are not going to be the only voice in your 
child's ear, so you need to be the best voice. You need to be 
the most action-oriented voice and sometimes you have to put 
those dots really close together. They are saying this about 
you is it true. No, it is not. What is true. Let us write that 
down. Let us journal that. Let us talk about that. Let us 
replace this dialogue with something that is more constructive 
and rational. And that is the exchange you have to have with 
your child.
    And just because your child rolls their eyes, they say of 
course you love me, Dad, you have to, and they roll their eyes, 
that doesn't mean they don't hear it, it doesn't mean they 
won't replay it a thousand times when you get through talking. 
You have got the stand up for your child.
    Mr. Guthrie. I only got 30 seconds. I was discussing with 
some people the other day where a mom of another student got on 
somebody else's Facebook and posted--and we have that notorious 
case of the bullying with the lady setting up the page. Do you 
see parents bullying children? How common is that? That was 
mentioned to me.
    Mr. McGraw. It is tragically not rare. I mean, truly 
sometimes the kid's parent will step up and say here is what 
you should say, and pretty soon they are writing on this and it 
crosses the line. They need that edit button that Chairwoman 
McCarthy is talking about. It seemed like a good idea at the 
time, but they need to not become part of the problem.
    Ms. Aftab. We are seeing a lot of parents will intervene 
when they think their kids are being cyber-bullied, and they 
will actually reach out to the kids who have done something 
that offended their kids directly and start taking them on and 
identify themselves. But I think that it is so important that 
we are empathetic and understand what to do, but there are some 
easier things to do that are sort of point blank.
    A, today, right now go home and tell your kids that you 
promise that you will not overreact if they come to you when 
things go wrong online. One of the reasons the kids don't tell 
their parents, and only 95 percent of the kids said they won't 
tell their parents, is because they are afraid they are going 
to get into trouble because they weren't supposed to be on 
Facebook to begin with. So promise you are not going to 
overreact, promise you are not going to pick up the phone and 
start screaming to the other kids or their parents or call the 
FBI.
    Then what you need to do is teach them to stop, block and 
tell. You heard Dave talk about how they put a move in there. 
Stop. Don't answer back. Block the person, and tell a trusted 
adult. And that works very well with the younger kids. You 
might have seen it on the Front Line special.
    And last is take five. When something bad happens real 
life, online, put down the mouse or the cell phone and walk 
away from the device until you are calm. For 5 minutes do 
something that helps you feel comfortable, feel strong, read a 
book, go for a walk, play with your puppy, beat up your 
brother--I know Dr. Phil will not be happy that I said that. 
But do something that helps you find your center so you avoid 
doing something you are going to regret like hurting yourself 
and others. If Megan Meier had disengaged from the computer, 
that 2\1/2\ hours might not have killed her. But she never 
disengaged because every time you are cyber-bullied, you go 
back and you reinflict the pain because you see it on line, and 
after a while you start to believe it so you revisit the scene 
of the crime.
    So we need to get them to start doing it. So tell your kids 
you are not going to overreact. Teach them to stop, block and 
tell teach them to take 5 and maybe once in a while teach them 
to use the technology.
    Chairwoman McCarthy. We have been notified that there is 
probably going to be a vote going off in about 15 minutes so 
unfortunately, I am going to have to probably enforce the red 
light now. Ms. Shea-Porter.
    Ms. Shea-Porter. Thank you all for being here. It is a huge 
problem in our culture and it really has reached tragic 
proportions. I am glad to see the attention that we are paying 
to it here and also what all of you out there are doing.
    Dr. McGraw, I wanted to start with you. I read an article 
recently that this generation has less empathy. Now I have got 
two young adults whom I consider very empathetic and I consider 
their friends empathetic, but I wonder if that is your 
experience. Can we teach empathy because we are not just 
talking about tools and technology, we are talking about the 
ability of one human being to understand and feel for another. 
And are parents falling down in that department?
    Mr. McGraw. I do think there is a problem, and I am not 
sure that it can be as simply expressed as a lack of empathy 
because research tells us that it is very difficult to teach 
and develop empathy if it isn't there at the developmental 
stages that it should be. But I am not sure that is exactly 
what we are dealing with. I think what we are dealing with is 
we are not living in the fast lane. We are living in the laser 
lane. And our kids are not developing the relational skills 
that you are required to develop if you don't have all of this 
technology.
    There was a time when you--we have kids texting their moms 
from their bedroom, Is dinner ready yet; texting their brother 
next door, Quit getting my stuff you idiot. Those stuff are 
happening. Used to be you had to go look someone in the eye and 
that required you to develop the interpersonal skills that 
simply are not required when you are texting or typing. And I 
think that is what is happening here.
    And it is so easy to write something and not look the 
person in the eye and see the pain that they are experiencing, 
the pain that they are feeling. You wouldn't say that if you 
were looking Suzy in the eye or Billy in the eye and you saw 
that this hurt them, that their shoulders dropped their head 
dropped. You get information from interpersonal exchange that 
you don't get from the one dimensional aspect of cyber 
communication. And that is a problem. That is why we see kids 
going away further in relationships because they are being 
bombarded with so much stuff on the Internet.
    When we grew up, there were three TV channels you were 
watching, I Love Lucy or Gunsmoke, and we are still waiting for 
Matt to kiss Kitty. And they just never showed that. But now we 
are getting bombarded with all of this sexual content. It is 
racing kids along to a much further level then they are really 
mature enough to handle.
    Ms. Shea-Porter. I didn't know TV was on except for Sunday 
night, and we were carefully controlled. It was a good thing. I 
thought it ended 7 o'clock Sunday night. It was over.
    Mr. McGraw. Those of us on during the week and during the 
day, let us not go too far. Let us be reasonable here.
    Ms. Shea-Porter. Let me ask Ms. Aftab a question.
    I see a lot of industries are being drawn into this, how 
about the cultural heroes of this generation? Are they too 
engaging in this because kids will listen to somebody who sings 
to them or impresses them on a film faster sometimes then they 
will listen to parents?
    Is that part of who you are drawing into this dialogue now?
    Ms. Aftab. It is. It is a challenge. I will tell you that. 
Because often when we tell kids not to send sexts and we choose 
somebody who can be a role model the next day, we find out that 
they are sending sexts. But that is one of the reasons when we 
turn to MTV. We welcomed that. We got Girl Scouts on one end 
and MTV on the other. And there are a lot of things that MTV 
can bring to the table and others can't. They can make it cool 
when other things happen. When they ask a question, they will 
find out that the kids who indicated they were involved in 
sexting were three to four times more likely to indicate that 
they considered suicide. That you will only get on MTV.
    So we are looking at it, but it is hard to find anybody 
other than Spiderman who won't take off their clothes in front 
of the camera. But we also need to recognize that was part of 
the real world and that was the excitement that we had. We also 
have Nickelodeon, that is going to be stepping out and doing a 
lot more. You are going to be seeing it on television shows and 
online. Disney is doing a lot more online and on the television 
shows.
    So you find a range of heroes and influencers to the kids 
and touch them. Seventeen Magazine starting a year-long 
campaign on this one starting in August on Letters to Phoebe. 
So we have to find all of the kids you need to reach and all of 
the different places they go for information from Dr. Phil to 
Girl Scouts.
    Ms. Shea-Porter. I thank you all.
    And I just have one last question Ms. Napolitano.
    How did you get, or how did the school come together to 
stand up to it? What is different about your school versus some 
others? Do you have a different atmosphere in school from the 
time you have gone there? Has there been an effort on the part 
of the administration to keep you all close?
    Ms. Napolitano. I feel like school does a very good job and 
really working and just not even cyber-bullying, just problems 
in general. My school, if anyone has an issue, we have a very 
good, we have a campus ministry program. And we even let in 
freshman year know in the beginning of the orientation, or even 
transfer students are known inside the handbook, if anybody was 
having a problem, whether it be over the Internet or within 
school, to just come to ministry, one of the campus ministers 
or principal or anybody who is in charge to talk about any of 
the issues that they are facing.
    So I think that my school is very comforting and allows 
them--I think I feel very safe, if I ever had a problem, to go 
to an administrator.
    Ms. Shea-Porter. Thank you very much.
    I yield back.
    Chairwoman McCarthy. Thank you.
    Mr. Thompson.
    Mr. Thompson. Thank you, Madam Chairwoman, and ranking 
member. Thanks to the panel for very, very important topic that 
we are addressing today. And the work that you have done, your 
leadership in terms of raising awareness and prevention and 
survival. I think my colleague, Mr. Guthrie, kind of stimulated 
some discussion, actually one of the questions I had. Dr. Phil, 
you talked about being that best voice in your children's lives 
and the different very practical because, you know, obviously 
this is something we would love to prevent, but reality is we 
minimize so we need to make sure that we are doing what we can 
to help our kids survive this in a very healthy way, 
emotionally and physically.
    Ms. Napolitano, thank you for being here representing the 
Girl Scouts and representing what your school has done on this 
issue.
    You mentioned a Web site to particularly educate parents 
about the ever-changing technological world. In your 
experience, do many girls share that Web site with their 
parents?
    Ms. Napolitano. The LMK Web site? I would say that a lot of 
people, I think when they see anybody who does obviously view 
the LMK Web site I think they would tell their parents because 
I think it is through our mission statement it is not only a 
Web site for teenagers, although it does obviously base around 
teenagers, but it also says parents should look at the Web site 
as well to learn more information about cyber-bullying, not 
even cyber-bullying, also other issues such as sexting and many 
different issues involved on the Internet. So it is not only to 
educate youth but also to educate parents as well.
    Mr. Thompson. It seems like it would really help them with 
raising awareness and information. Do you see it take that next 
step? Does it stimulate the conversation do you find that 
between the girls and their parents?
    Ms. Napolitano. I think it does because I think now not 
only are teens getting involved on like learning about Internet 
more about safety, but I think now that parents know more 
information, I think they feel safer letting their children get 
a Facebook or a MySpace. I mean, even before LMK, I wasn't 
allowed to have a Facebook because my mom said that is not a 
very good Web site. She didn't want to let me on it because she 
didn't know much about it.
    But I think when parents learn more about the Internet, I 
think they will feel more safe allowing their children to enter 
a Web site as long as they know what is going on and what they 
are writing.
    Mr. Thompson. Dr. Srabstein, cyber-bullying is a relatively 
new occurrence. It has been relative as long as this technology 
has provided, I guess, a new tool for bullies to go from 
virtual--from there into the virtual world. Is the current 
research on this issue definitive enough to help us understand 
the problem?
    Dr. Srabstein. It is limited. If one does a search under 
the National Library of Medicine, one can find not more than 25 
papers at all of which perhaps three or four, five at the most, 
may be linked to health issues.
    So we are learning, first of all, the whole issue of 
bullying at large, although as it existed forever, we are just 
learning about it. Five years ago, I didn't know how to spell 
bullying. The kids were parading in front of my eyes and I 
never asked them about being bullied and we were making 
diagnoses based on other issues when they could have post 
traumatic stress disorder and so on.
    So with that framework, within that context, it is an 
evolving issue. And cyber-bullying is the newest form of this 
new ``issue'' of bullying.
    Basically what we are dealing with is 45 years after United 
States and Congress learned that there was something called 
child abuse, that was in 1964, we are reexperiencing the same 
thing again right now with the understanding that the whole 
issue of bullying and mistreatment is a serious issue. And 
without that, the whole issue of cyber-bullying is, in itself, 
different but it is even newer.
    So I can't answer your question, Congressman. It is very 
new. And with all humility, I know more about bullying right 
now but cyber-bullying I am just learning. And in my clinical 
experience, I don't find many patients that are being cyber-
bullied. That doesn't mean that it doesn't exist there. It 
means that I may not have been asking about cyber-bullying and/
or if I asked them, they may not have said that, in fact, that 
was the case because they were afraid.
    Mr. Thompson. And looks like my time has expired. Thank 
you.
    Chairwoman McCarthy. Thank you, Mr. Thompson.
    Ms. Clarke.
    Ms. Clarke. Thank you very much, Madam Chair, Ranking 
Member. It is a very, very important hearing, and I am glad to 
see that all of you have come and shared with us.
    One of the things that have concerned me for some time is 
that the despite the fact that we acknowledge the diversity of 
the types of households, parents, guardians, that exist in our 
civil society, we still sort of have a monolithic view to this 
term ``parent.'' And I am concerned about how that is 
translated into the various tools we use to combat bullying.
    What is the role of religious institutions, social, and 
public institutions and other vehicles in our civil society to 
address this technological facet of our lives? Would you share 
that with us because, again, I come from a two-parent 
household, but a lot of my peers didn't. And so when I say 
``parent,'' I am thinking my mother and father. And I have 
colleagues and friends, my contemporaries, who are were in 
foster care.
    Can we talk a little bit about that?
    Ms. Aftab. Absolutely. One of the issues you need to 
recognize is our kids have a lot of influencers. We talked 
about people they may look to in the media, but it may be their 
older brother or sister, a neighbor, baby sitters. It can be a 
teacher at school, it could be faith-based organizations or 
somebody in Girl Scouts. It could be your coach. It might be 
somebody who is even younger than you are. Whoever can 
influence our kids need to be involved here because they need 
to be a safe place for our kids to land. They need to know what 
to do. They need to know how to do it. They need to know that 
you don't call lawyers. You give them a hug first and let them 
know they are okay. And we have to deliver it in a on lot of 
different ways. There are a lot of parents who aren't on 
Facebook. There are a lot of parents who will walk into a 
Build-a-Bear store in the mall and who may not see it on line.
    It could be parents who have that old VHS that none of us 
knew how to use but thankfully the technology got us past that. 
So we need to take these sessions and put them on tape and 
allow the libraries and the schools to give them out to their 
parents. Maybe you are a secretary somewhere and some one will 
print out a one pager and hand it to you.
    We need to figure out the right language, the right way to 
reach them and what it is we want them to do when they get it. 
Some basic real quick simple sort of three things. I call them 
cyber-bully bytes.
    Someone in Billings, Montana, sent me an e-mail this 
morning at sports events, school because all the parents go to 
that; they don't come to Internet safety presentations--they 
are giving out these little cards and it says do you know, and 
on the other side they are going to put some facts and let 
parents know where to go for help and all the caretakers. But 
you are exactly right. And I think we are failing people.
    So when they watch Dr. Phil, they are going to learn a lot 
more than a session at school the parents don't come to. Maybe 
a sense of being home with the students and you teach the kids 
to teach the parents and that way we can engage everyone 
because without it, our kids are really at risk.
    Dr. Srabstein. As a matter of fact, in Maryland, we have 
created an informal Coalition For the Prevention of Bullying 
with different sectors of the community. And we recognize that 
we want going to bring into this coalition representatives of 
different religious organizations.
    I think in our so society, there is a tremendous role that 
from the pulpit, religious leaders, rabbis, minister, priests 
and so on, can educate us. That with the use of words, we can 
kill, and so now our tradition we should not kill, but we can 
kill in a way that we can hurt definitely and we can kill with 
a use of words and that can not be legislated all of the issues 
of free speech and so on. And we don't have drivers licenses or 
license of how we conduct exchange of words.
    Ms. Clarke. Does anyone else want to chime in on?
    I just wanted to share that I think we also need to look at 
work places. Most people who have access to technology are 
accessing it because they have to use it for their work. And I 
don't know whether we have got employers involved in this 
issue, but I just wanted to share that as perhaps another 
avenue.
    Ms. Aftab. IBM sent Internet safety a tour of their teens 
life out to all of their employees worldwide. Toys-R-Us came to 
us to look at things, and the first thing they wanted to do was 
educate their employees. We are seeing that Proctor and Gamble 
is doing the same. So if we can reach the large corporations 
and even the small ones. And someone mentioned to me the other 
day that if you are employing teens, you need to know about 
this because the kids you are employing are at risk. But that 
is an absolutely great way to do it and it is cheap because 
somebody has a photocopier.
    Chairwoman McCarthy. Thank you. And I thank you again each 
and every one of you for your testimony and for your time being 
here.
    As I was listening to the testimony you know right now we 
are getting the attention from the media and I appreciate that 
and we are looking at where schools are getting involved and 
the health care are getting involved.
    But this is why I also believe why we need Federal 
legislation. Mainly because I am afraid where are we going to 
be a year from now when Dr. Phil, your producer is going to say 
to you okay, enough, get on to another subject. I have plenty 
of subjects, by the way, you can talk about.
    So this is why I believe on the Federal level we need to 
put something in place with the educational system because 
Dominique is going to graduate from high school and we are 
going to have a whole new group of children coming up. 
Technology is going to change more rapidly than we can ever do 
legislation.
    So I think it is important that we do it right. I think 
that each and every one of you have done a tremendous job on 
working on this and being there for our young people. But it is 
up to us to make sure our schools do stay safe. I hope that we 
can come up--one of my colleagues, Linda Sanchez from 
California, had some great legislation on this issue. I plan on 
working with her on being able to bring it into the education 
bill.
    So with that being said. And I also want to say to take a 
time out and having a hearing like this, I know a lot of people 
don't really pay attention to it. And that is a shame, but I 
think it is important for Members because believe it or not, if 
they are not here, and they are in their office a lot of time, 
they do listen to hearings that go on.
    But I think that one thing that I want to add is the 
valuable role that the media can play. In the case of Dr. Phil 
with his work raising awareness on keyboard bulliness, which I 
think is a great sound bite, by the way, he has shown us the 
valuable role he has already played in these efforts which have 
been tremendous, and I hope that other media figures do come 
through.
    I also want to mention Mr. Finnegan, the organization, your 
business, that is also reaching out because you are reaching 
out to the younger people because hopefully we can catch them 
before they go into the teen years and become maybe a little 
more obsessed about what they are doing.
    So with that, as you heard the bells going off, we have 11 
minutes to get downstairs to vote. So with that from the 
hearings and the guide that you have given us, we move forward 
with reauthorizing ESEA, and I appreciate you all being here, 
and as previously--oh, absolutely.
    Mr. Platts. Thank you, Madam Chair. I want to make a real 
brief statement in closing.
    Again, a sincere thanks to each of you and by your 
testimony here today, and especially by your advocacy every day 
in your respective roles, we have mentioned a fair number of 
children who have lost their lives because of bullying and 
cyber-bullying. Your efforts is a way that they are being 
honored and remembered, and for them and their families that 
the tragic loss of their lives will not be in vain. Because of 
your efforts that loss of life will help us do better sand 
protect the lives of others going forward. And so I truly 
commend each of you for what you are doing, and Madam Chair, 
for you in holding this hearing to do just the same. And this 
really is about life and death issues. And each of you are 
playing a key role in honoring those who lost their lives and 
making sure that we prevent every loss of life going forward. 
Thank you, Madame Chair.
    Chairwoman McCarthy. Thank you, Mr. Platts. As previously 
ordered, members will have 14 days to split additional 
materials for the record hearing. Any member who wishes to 
submit follow-up questions in writing to the witnesses should 
coordinate with the majority staff within the requested time.
    Without objection, this hearing is now adjourned. Thank you 
again.
    [The statement of Nancy Willard follows:]

       Prepared Statement of Nancy Willard, M.S., J.D., Director,
              Center for Safe and Responsible Internet Use

    This statement has been submitted by researchers, risk prevention 
professionals, and others who focus on issues of youth risk online. We 
appreciate the interest of the House Subcommittee Healthy Families and 
Communities in the issue of cyberbullying. We felt it would be helpful 
for you to gain insight from academic researchers and risk prevention 
professionals who are applying what is known about effective risk 
prevention to these emerging concerns.
    Youth risk online issues must be recognized as a continuum of risky 
or harmful behavior that includes online and off-line interactions. The 
young people who are at the greatest risk online are those who also are 
at greater risk off-line.
    The overall approach to address youth risk online must be grounded 
in the development of strategies to enhance both a positive school 
community as well as a positive online community-a school-based 
positive behavior support program with a strong focus on helping all 
students gain effective interpersonal relationships and dispute 
resolution skills. Fortunately, there are excellent research-based 
prevention and intervention programs, including bullying prevention 
programs, that can be expanded upon to address these new risks.
    In addition to this foundation, young people must gain insight into 
the specific risks associated with communication technologies. There 
are factors related to use of these technologies that are influencing 
the situations, sometimes in harmful ways. Young people may place 
material in electronic format, such as nude images, that can then be 
used against them. Often the perception of invisibility and the lack of 
tangible feedback can exacerbate the harmful or risky behavior. The 
technologies can allow for the involvement or witnessing of the harm by 
many others.
    However, there are also ``silver linings.'' Because ``evidence'' is 
in electronic format this can allow adults to more fully understand the 
situation, support effective investigations, and provide early 
warnings. Additionally, the use of these technologies to provide 
information, support, and crisis intervention to ``at risk'' youth is 
demonstrating significant potential for success.
    Research has consistently demonstrated that the majority of young 
people are generally making good choices online and effectively 
responding to the negative situations that do occur. Therefore, risk 
prevention professionals can rely on social norms risk prevention 
approaches-which consistently demonstrate effectiveness. Because many 
times these incidents are occurring outside of adult supervision, a 
strong focus must be on empowering and encouraging young people to be 
effective educators and mediators--and to report online concerns to 
adults.
    As will be outlined below, we would encourage federal legislation 
that will:
    <bullet> Ensure multidisciplinary coordination at the federal, 
state, and local level that includes safe schools, educational 
technology, juvenile justice, Internet crimes, and mental health.
    <bullet> Provide for effective ongoing assessment of youth risk 
online behavior, as well as risk and protective factors and 
relationship to off-line risk behavior.
    <bullet> Support the implementation of innovative prevention and 
intervention programs to address youth risk online, as well as those 
that use online technologies to address youth risk, that have a 
substantial likelihood of success.
    <bullet> Address concerns related the authority of school officials 
to respond to off-campus actions of students that have or could 
substantially disrupt school or significantly interfere with the safety 
of students or their ability to fully participate in instruction and 
school activities.
    <bullet> Use communication technologies for the provision of risk 
prevention and intervention services to ``at risk'' youth.
Research on Youth Risk Online
    High quality academic research has provided excellent insight into 
issues related to youth risk online. Clearly ongoing research is 
necessary. Four recommended resources for research insight, two of 
which are extensive literature reviews, are cited at the end of this 
document.
    The principal research findings in the area of cyberbullying 
include:
    <bullet> Cyberbullying is a significant concern impacting many 
young people, but with different degrees of severity. The reported 
incident rate of cyberbullying ranges greatly, apparently due to 
differences in research methodology, including how the questions are 
asked. Some surveys have not distinguished between minor and 
significant incidents. In the surveys that ask, generally half of the 
respondents say they were not distressed. Thus, there is a need in 
future research to focus more on the extent of harm and effectiveness 
of youth response strategies.
    <bullet> There is a significant difference between the less 
distressing online-only incidents and more distressing known-peer 
incidents. Teaching students how to avoid and effectively respond to 
online-only or other minor incidents will help make these incidents 
more easily manageable, less distressing, and stop escalation. The 
continuing incidents between known peers are causing the highest degree 
of distress. Addressing these incidents will be more challenging. 
Further, these incidents will impact schools. They are generally 
closely intertwined with on-campus bullying and are far more likely to 
lead to retaliation at school. A significant portion of incidents 
appear to involve retaliation, both online and at school.
    <bullet> Both the aggressors and targets who are involved in the 
more significant altercations appear to present significant 
psychosocial concerns. They report involvement in offline aggression, 
which is more likely to occur where they are physically together. They 
report disrupted care-giver-child relationships. Therefore, schools 
will be less able to rely on parents for effective supervision, 
prevention, and response. However, there is also emerging evidence of 
involvement in cyberbullying by young people who have not traditionally 
been perceived as being involved in the bullying situations. These are 
the much more sophisticated, high social-status, youth whose 
aggressive, ``put-down'' behavior is becoming more evident to 
responsible adults now that they are engaged in these activities 
online.
    <bullet> The vast majority of young people are not reporting these 
incidents to adults. The reasons appear to include: Lack of trust that 
adults can effectively help them resolve these situations. A 
developmental expectation that they should be able to resolve their own 
disputed--and many times they have. Fear of getting into trouble and 
losing Internet access. It is also important to address the new 
challenge that school administrators are facing, that of ``sexting''--
sending nude images and sexually explicit text messages. There have 
been three reported studies in this area, none of which have been 
academically reviewed. However, across these three studies, common 
patterns appear to be emerging.
    <bullet> A minority of teens are engaging in sexting activity. 
Involvement appears to increase with age. Boys and girls appear to be 
participating in this activity at an equivalent rate.
    <bullet> A significant amount of this activity is related to 
personal relationships. This includes current relationships and desired 
relationships.
    <bullet> Of significant concern is that many teens, over half in 
one survey, reported that they provided in response to pressure by 
others to provide these images. There is also other survey data that 
suggests that abusive partners are using these technologies for 
manipulation and control.
    <bullet> An analysis of reported incidents leads to the 
identification of four basic types of incidents:
    <bullet> Developmentally normative behavior where there is no 
intent to cause harm, but a mistake may lead to distribution. Most 
frequently, these are situations in the context of personal 
relationships or exchanges between friends.
    <bullet> Situations that constitute harassment by pressuring 
someone to provide an image, distributing the image with intent to 
cause harm, or sending images that are unwelcome.
    <bullet> Situations where the youth depicted is engaging in 
dangerous solicitation activity--seeking sexual ``hook-ups'' or 
actually engaging in sexual trafficking.
    <bullet> Situations that involve significantly exploitive behavior, 
including coercion or the use of grooming tactics to obtain images and 
engaging in blackmail upon receipt of images. The latter two kinds of 
situations appear to be the minority.
    Additional areas of youth risk online, especially those related to 
sexual activities and personal relationships are addressed in the two 
Berkman literature reviews identified below. Additional areas of 
concern that also must be addressed, about which there is less 
research, include youth who are engaging in online communities that 
support or encourage self-harm including self-cutting, anorexia, drug 
use, and other risky behavior, online gangs and hate groups, young 
people who are engaging in or being trafficked for sex online, and 
addictive access.

Challenges
    There are significant current challenges in responding to these 
youth risk online situations.
    <bullet> There is a significant need for professional development 
of key safe school personnel, including principals, counselors/
psychologists, and school resource officers. The education of these 
professionals is essential to ensure effective outreach to and 
education of parents as well as youth.
    <bullet> In the 2010 federal budget, the funds available through 
the Title IV Safe and Drug Free Schools program were cut by 40%. This 
included elimination of all block grant funding for state and local; 
safe school personnel. Thus, at the point in time when it is vitally 
important for safe school personnel to be expanding their activities to 
address these new challenges, many safe school programs throughout the 
country are vanishing.
    <bullet> There is a lack of clarity about when school 
administrators have the legal authority to respond to off-campus 
activities of students that are or could impact the school environment 
or interfere with the safety and educational performance of a student. 
Further, there is a lack of clarity about search and seizure standards 
with respect to a review of cell phone records, especially if there is 
a suspicion that those records may reveal nude images.

Moving Forward
    If there is any way within the context of possible additional 
stimulus funding to the states for use by schools that funds could be 
directed at preserving the safe school personnel, this should have high 
priority. Schools are losing the very professionals they need to 
mobilize to address these concerns.
    The following are recommendations for how the Elementary and 
Secondary Education Act could be amended to more effectively address 
the concerns of youth risk online.
    <bullet> Coordinate youth risk online through interagency 
cooperation--including Department of Education, Safe Schools and 
Educational Technology, Office of Juvenile Justice and Delinquency 
Prevention--Juvenile Justice and Internet Crimes, and the Department of 
Health-Department of Mental Health and Center for Disease Control's 
Division on Adolescent and School Health. Ensure coordinated 
interactions with Internet and cell phone industry to address ongoing 
issues related to site and services technologies and practices that may 
negatively or positively impact youth safety.
    <bullet> Require that State Education Agencies and Local Education 
Agencies establish a comparative multidisciplinary approach, ensuring 
the involvement of professionals in school administration, school 
counseling and psychology, educational technology, juvenile justice and 
school resource officers, Internet crimes, and state and community 
mental health.
    <bullet> Implement a Youth Risk Online Behavior survey that can be 
delivered as a companion to the CDC's Youth Risk Behavior survey. This 
will allow for the better understanding of risk and protective factors 
and the interrelationship between off-line and online risk. Given time 
constraints in administration it is not possible to simply add new 
questions to the YRB.
    <bullet> Provide funding to support innovative multidisciplinary 
programs to address youth risk online concerns--and to make use of 
communication technologies to address the concerns of ``at risk'' 
youth. Follow the provisions already present within Title IV, Section 
4115(a)(3), which allows Local Education Agencies to apply to their 
State Education Agency for a waiver of the requirement to implement 
programs that are scientifically based. The youth risk online 
prevention and intervention and addressing youth risk through online 
services programs should set forth a rationale grounded in effective 
risk prevention that demonstrates a likelihood of success, with strong 
evaluation and modification built into the process. There also should 
be a way to link these programs through electronic communications--so 
that the entire field can learn from each other and engage in 
continuous improvement.
    <bullet> Include statutory language to address the legal concerns--
by making it clear that the school programs should address on-campus 
activities as well as off-campus interactions that are brought to the 
attention of school officials that have caused, or there are reasons to 
predict will cause, a significant interference with the rights of 
students to be secure and receive an education. This standard is in 
accord with the emerging case law.

                           RESEARCH RESOURCES

Youth Violence and Electronic Media: Similar Behaviors, Different 
        Venues? Journal of Adolescent Health. December 2007 Supplement. 
        http://www.jahonline.org/content/suppl07.
Internet Safety Technical Task Force. (2009) Enhancing Child Safety and 
        Online Technologies: Final Report of the Internet Safety 
        Technical Task Force to the Multi-State Working Group on Social 
        Networking of State Attorneys General of the United States. 
        Appendix C: Literature Review from the Research Advisory Board. 
        Harvard University, Berkman Center for Internet & Society. 
        http://cyber.law.harvard.edu/sites/cyber.law.harvard.edu/files/
        ISTTF--Final--Report-APPENDIX--C--TF--Project--Plan.pdf.
Online Safety and Technology Working Group. (2010) Youth Safety on a 
        Living Internet (Collier & Nigam). Education Subcommittee 
        Report (Magid). http://www.ntia.doc.gov/advisory/ onlinesafety/
Biegler S. & boyd d (2010) Risky Behaviors and Online Safety: A 2010 
        Literature Review (DRAFT) Harvard University, Berkman Center 
        for Internet & Society. http://www.zephoria.org/ files/
        2010SafetyLitReview.pdf.

                              CONCURRENCE

Patricia Agatston, PhD. Cobb County School District Prevention/
        Intervention Center Co-Author of Cyberbullying: Bullying in the 
        Digital Age, Cyberbullying: A Prevention Curriculum for Grades 
        3-5, Cyberbullying: A Prevention Curriculum for Grades 6-12 
        (Hazeldon) Website: http://www.cyberbullyhelp.com Email: 
        <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4d3d2c2a2c393e3922230d2f2821213e2238392563232839">[email&#160;protected]</a>
Warren J. Blumenfeld, Ph.D. Department of Curriculum and Instruction, 
        Iowa State University Recent research article: LGBT and Allied 
        Youth Responses to Cyberbullying: Policy Implications, 
        International Journal of Critical Pedagogy Website: http://
        www.ci.hs.iastate.edu/profiles/warren--blumenfeld.php and 
        http:// www.news.iastate.edu/news/2010/mar/cyberbullying Email: 
        <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="fe899c928b939b90be979f8d8a9f8a9bd09b9a8b">[email&#160;protected]</a>
Stan Davis Founding Member of International Bullying Prevention 
        Association Author of Schools Where Everybody Belongs and 
        Empowering Bystanders (Research Press) Website: http://
        www.stopbullyingnow.com Email: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="631017020d2310170c1301160f0f1a0a0d040d0c144d000c0e">[email&#160;protected]</a>
Mike Donlin MCD-Consulting. Formerly with Seattle Public Schools 
        Prevention and Intervention Services -position eliminated due 
        to budget reductions and loss of Title IV funds Co-author of 
        Middle School Cyberbullying Curriculum (http://
        www.seattleschools.org/area/ prevention/cbms.html) Email: 
        <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5d303932333134331d353229303c3431733e3230">[email&#160;protected]</a>
Elizabeth Englander, Ph.D Professor of Psychology and the founder and 
        Director of the Massachusetts Aggression Reduction Center at 
        Bridgewater State College Delivers anti-violence and anti-
        bullying programs, resources, and research for the state of 
        Massachusetts Website: http://www.bridgew.edu/marc/ Email: 
        <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0f6a6a6168636e616b6a7d4f6d7d666b686a78216a6b7a">[email&#160;protected]</a>
Christopher J. Ferguson, Ph.D. Associate Professor, Department of 
        Behavioral Sciences, Texas A&M International University 
        Research focus: Examining violent behavior from a multivariate 
        format, examining the combined impact of genetics, family 
        environment, personality, mental health, and media violence. 
        Website: http://christopher.ferguson.socialpsychology.org/ 
        Email: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="61020704130614120e0f2115000c08144f040514">[email&#160;protected]</a>
Sameer Hinduja, Ph.D. Co-Director, Cyberbullying Research Center, 
        Associate Professor, School of Criminology and Criminal 
        Justice, Florida Atlantic University Co-Author of Bullying 
        Beyond the Schoolyard: Preventing and Responding to 
        Cyberbullying (Sage Publications) Website: http://
        www.cyberbullying.us Email: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="abc3c2c5cfdec1caebcdcade85cecfde">[email&#160;protected]</a>
Robin Kowalski, Ph.D. Professor of Psychology, Department of 
        Psychology, Clemson University Co-Author of Cyberbullying: 
        Bullying in the Digital Age, Cyberbullying: A Prevention 
        Curriculum for Grades 3-5, Cyberbullying: A Prevention 
        Curriculum for Grades 6-12 (Hazeldon)
Website: http://www.cyberbullyhelp.com Email: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c5b7aeaab2a4a9b685a6a9a0a8b6aaabeba0a1b0">[email&#160;protected]</a>
Sylvia Martinez President, Generation YES GenYES students help teachers 
        use technology in classrooms, supporting effective technology 
        integration school-wide and providing peer leadership to 
        address issues such as digital citizenship and safety Website: 
        http://genyes.com/ Email: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="93e0eaffe5faf2d3f4f6fdeaf6e0bdf0fcfe">[email&#160;protected]</a>
Jason Ohler, Ph.D Professor Emeritus, Educational Technology, 
        University of Alaska Professor, Media Psychology, Fielding 
        Graduate University Author, Digital Community, Digital Citizen, 
        Taming the Beast- Choice and Control in the Electronic Jungle
Website: jasonOhler.com/dcEmail: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4a202b3925242522262f380a2d272b232664292527">[email&#160;protected]</a>
Justin W. Patchin, Ph.D. Co-Director, Cyberbullying Research Center, 
        Associate Professor of Criminal Justice, Department of 
        Political Science, University of Wisconsin-Eau Claire Co-Author 
        of Bullying Beyond the Schoolyard: Preventing and Responding to 
        Cyberbullying (Sage Publications) Website: http://
        www.cyberbullying.us Email: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0878697c6b60616662487d7f6d6b266d6c7d">[email&#160;protected]</a>
Russell A. Sabella, Ph.D. Counseling Program, College of Education, 
        Florida Gulf Coast University Former President, American School 
        Counselors Association Website: http://ww.guardingkids.com 
        Email: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c9bbbaa8abaca5a5a889afaeaabce7acadbc">[email&#160;protected]</a>
Shaheen Shariff, Ph.D. Associate Professor, Department of Integrated 
        Studies in Education/ Principal Investigator, International 
        Project on Cyber-bullying, Faculty of Education, McGill 
        University, Montreal, Quebec. Canada Author of: Confronting 
        Cyber-bullying: What schools need to know to control misconduct 
        and avoid legal consequences (Cambridge University Press) and 
        Cyber-Bullying: Issues and Solutions for the School, the 
        Classroom and the Home (Routledge)
Website: http://cyberbullying.brinkster.net/ Email: 
        <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="64170c050c01010a4a170c05160d0202240907030d08084a0705">[email&#160;protected]</a>
Alison Trachtman Hill, MPA PhD candidate in Sociology at The Graduate 
        Center, City University of New York (CUNY), studying the ways 
        in which culture and gender socialization impact girls' 
        identities and relationships in online communities. Critical 
        Issues for Girls Website: http://www.ci4g.com Email: 
        <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e189888d8da18288d586cf828e8c">[email&#160;protected]</a>
Jenny L. Walker, Ph.D. President, Cyberbullying Consulting, Ltd. 
        Speaker, consultant and expert on cyberbullying and positive 
        uses of technology among youth Website: http://
        www.cyberbullyingnews.com/ Email: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f399969d9d8add84929f989681b3909c8bdd9d9687">[email&#160;protected]</a>
                                 ______
                                 
    [Whereupon, at 11:53 a.m., the subcommittee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
